<html>
<title> - H.R. 2334, ROCKY MOUNTAIN NATIONAL PARK WILDERNESS AND INDIAN PEAKS WILDERNESS EXPANSION; H.R. 2632, SABINOSO WILDERNESS ACT OF 2007; H.R. 3287, TUMACACORI HIGHLANDS WILDERNESS ACT OF 2007; H.R. 3513, COPPER SALMON WILDERNESS ACT; AND H.R. 3682, CALIFORNIA DESERT AND MOUNTAIN HERITAGE ACT.</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
 H.R. 2334, ROCKY MOUNTAIN NATIONAL PARK WILDERNESS AND INDIAN PEAKS 
WILDERNESS EXPANSION; H.R. 2632, SABINOSO WILDERNESS ACT OF 2007; H.R. 
 3287, TUMACACORI HIGHLANDS WILDERNESS ACT OF 2007; H.R. 3513, COPPER 
 SALMON WILDERNESS ACT; AND H.R. 3682, CALIFORNIA DESERT AND MOUNTAIN 
                             HERITAGE ACT.

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                       Tuesday, November 13, 2007

                               __________

                           Serial No. 110-54

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
38-970 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Bobby Jindal, Louisiana
Dan Boren, Oklahoma                  Louie Gohmert, Texas
John P. Sarbanes, Maryland           Tom Cole, Oklahoma
George Miller, California            Rob Bishop, Utah
Edward J. Markey, Massachusetts      Bill Shuster, Pennsylvania
Peter A. DeFazio, Oregon             Dean Heller, Nevada
Maurice D. Hinchey, New York         Bill Sali, Idaho
Patrick J. Kennedy, Rhode Island     Doug Lamborn, Colorado
Ron Kind, Wisconsin                  Mary Fallin, Oklahoma
Lois Capps, California               Vacancy
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
John P. Sarbanes, Maryland               Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Tom Cole, Oklahoma
Ron Kind, Wisconsin                  Dean Heller, Nevada
Lois Capps, California               Bill Sali, Idaho
Jay Inslee, Washington               Doug Lamborn, Colorado
Mark Udall, Colorado                 Vacancy
Stephanie Herseth Sandlin, South     Don Young, Alaska, ex officio
    Dakota
Heath Shuler, North Carolina
Nick J. Rahall, II, West Virginia, 
    ex officio


                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, November 13, 2007.......................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     4
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     3
    Udall, Hon. Mark, a Representative in Congress from the State 
      of Colorado................................................    10
        Prepared statement on H.R. 2632..........................    30
    Udall, Hon. Tom, a Representative in Congress from the State 
      of New Mexico..............................................    12

Statement of Witnesses:
    Allard, Hon. Wayne, a U.S. Senator from the State of Colorado     7
        Prepared statement on H.R. 2334..........................     9
    Becker, Jerry, Executive Director, Elk River Land Trust......    78
        Prepared statement on H.R. 3513..........................    79
    Bono, Hon. Mary, a Representative in Congress from the State 
      of California..............................................    10
    Cullen, Carol, Executive Director, Tubac Chamber of Commerce, 
      Tubac, Arizona.............................................    41
        Prepared statement on H.R. 3287..........................    42
    Daly, Elena, Director, National Landscape Conservation 
      System, Bureau of Land Management, U.S. Department of the 
      Interior...................................................    21
        Prepared statement on H.R. 2334, H.R. 2632 and H.R. 3682.    23
    Dart, Bill, Off-Road Business Association, Bakersfield, 
      California.................................................    57
        Prepared statement on H.R. 3682..........................    58
    Groves, Jacob, Oregon Field Forester, American Forest 
      Resource Council...........................................    81
        Prepared statement on H.R. 3513..........................    83
    Harmon, Dennis J., General Manager, Water Supply and Storage 
      Company....................................................    66
        Prepared statement on H.R. 2334..........................    68
    Holtrop, Joel, Deputy Chief, National Forest System, U.S. 
      Forest Service, U.S. Department of Agriculture.............    15
        Prepared statement on H.R. 2334, H.R. 3287, H.R. 3513 and 
          H.R. 3682..............................................    17
    Hund, Geary, Idyllwild, California...........................    54
        Prepared statement on H.R. 3682..........................    56
    Pinkham, Hon. William, Mayor Pro Tem, Town of Estes Park, 
      Colorado...................................................    72
        Prepared statement on H.R. 2334..........................    74
    Salazar, Hon. Ken, a U.S. Senator from the State of Colorado.     5
        Prepared statement on H.R. 2334..........................     6
    Sandoval, Arturo, President, Center of Southwest Culture.....    75
        Prepared statement on H.R. 2632..........................    76
    Skroch, Matt, Executive Director, Sky Island Alliance........    44
        Prepared statement on H.R. 3287..........................    46
    South, Mark M., Rio Rico, Arizona............................    50
        Prepared statement on H.R. 3287..........................    51



 LEGISLATIVE HEARING ON H.R. 2334, TO DESIGNATE AS WILDERNESS CERTAIN 
    LAND WITHIN THE ROCKY MOUNTAIN NATIONAL PARK AND TO ADJUST THE 
  BOUNDARIES OF THE INDIAN PEAKS WILDERNESS AND THE ARAPAHO NATIONAL 
    RECREATION AREA OF THE ARAPAHO NATIONAL FOREST IN THE STATE OF 
  COLORADO. (ROCKY MOUNTAIN NATIONAL PARK WILDERNESS AND INDIAN PEAKS 
    WILDERNESS EXPANSION ACT); H.R. 2632, TO ESTABLISH THE SABINOSO 
WILDERNESS AREA IN SAN MIGUEL COUNTY, NEW MEXICO. (SABINOSO WILDERNESS 
    ACT OF 2007); H.R. 3287, TO EXPAND THE PAJARITA WILDERNESS AND 
   DESIGNATE THE TUMACACORI HIGHLAND WILDERNESS IN CORONADO NATIONAL 
 FOREST, ARIZONA. (TUMACACORI HIGHLANDS WILDERNESS ACT OF 2007); H.R. 
   3513, TO AMEND THE OREGON WILDERNESS ACT OF 1984 TO DESIGNATE THE 
COPPER SALMON WILDERNESS AND TO AMEND THE WILD AND SCENIC RIVERS ACT TO 
DESIGNATE SEGMENTS OF THE NORTH AND SOUTH FORKS OF THE ELK RIVER IN THE 
  STATE OF OREGON AS WILD OR SCENIC RIVERS. (COPPER SALMON WILDERNESS 
 ACT); AND H.R. 3682, TO DESIGNATE CERTAIN FEDERAL LANDS IN RIVERSIDE 
COUNTY, CALIFORNIA, AS WILDERNESS, TO DESIGNATE CERTAIN RIVER SEGMENTS 
IN RIVERSIDE COUNTY AS A WILD, SCENIC, OR RECREATIONAL RIVER, TO ADJUST 
   THE BOUNDARY OF THE SANTA ROSA AND SAN JACINTO MOUNTAINS NATIONAL 
        MONUMENT. (CALIFORNIA DESERT AND MOUNTAIN HERITAGE ACT).

                              ----------                              


                       Tuesday, November 13, 2007

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 1324, Longworth House Office Building, Hon. Raul Grijalva 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Holt, Mark Udall, 
Bishop, and Capps.
    Also Present: Representative Tom Udall.

   STATEMENT OF THE HON. RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you. Let me call the Subcommittee to 
order.
    Today we will be receiving testimony on five wilderness 
bills. I would like to thank all of our witnesses for being 
here today, and I look forward to receiving the testimony.
    While input from agencies which manage our Federal lands is 
critical and important, the Wilderness Act is clear: Congress 
retains sole authority to designate wilderness. In practice, 
this means that a successful wilderness bill will be a 
consensus proposal taking into account input from all relevant 
stakeholders. Each of the measures before us today, I believe, 
is such a proposal.
    Let me start off by talking about the legislation I have 
introduced, H.R. 3287, the Tumacacori Highlands Wilderness Act.
    It is fitting that we are here discussing this measure 
while sitting in the Morris K. Udall Hearing Room. H.R. 3287 
would expand the existing Pajarita Wilderness, which Congress 
designated in 1984 under the leadership of one of America's 
greatest conservation leaders and the former Chairman of this 
Committee, Mo Udall.
    H.R. 3287 would also designate about 70,000 acres of 
Tumacacori Highlands Wilderness. This proposal will make a 
major contribution to the conservation of the natural wonders 
of my home state, Arizona. That benefit would be for all our 
citizens, those that are alive today and the generations that 
will come. These desert peaks and canyons are key parts of the 
world-renowned Sky Island bioregion, a biological hot spot 
where the southern margin of habitats for many species from the 
Rocky Mountains west overlaps the northern extent of habitats 
for many tropical species better known in Mexico. This area is 
home to subtropical species that are found nowhere else in the 
United States and offers secluded habitat vital to jaguars, 
which are now repopulating this portion of their former range.
    Boundaries proposed in H.R. 3287 have been adjusted to 
ensure road access to the wilderness for recreation. The 
legislation has received support from local sportsmen who seek 
a true wilderness hunting experience, including support from 
back country hunters and handlers.
    This legislation also receives support from local elected 
officials, the faith community, conservation groups, the hiking 
community, scientists and local businesses.
    Today we are joined by a local business supporter, Carol 
Cullen, of the Tubac Chamber of Commerce. Land designated as 
wilderness in H.R. 3287 are in close proximity to the U.S.-
Mexico border. The Arizona borderlands comprise some of the 
most biologically rich and fascinating ecosystems in existence. 
Because of the proximity to the border, H.R. 3287 recognizes a 
need to continue drug interdiction and border enforcement 
operations in the proposed wilderness area.
    As a final point regarding my legislation, let me thank my 
fellow Arizonans, Carol Cullen and Matt Skroch, for joining us 
here today.
    Today, we will also be hearing several other wilderness 
measures:
    H.R. 2632, sponsored by our former committee colleague, 
Representative Tom Udall, which would designate approximately 
20,000 acres of BLM land in New Mexico. This area has been 
managed as a wilderness study area for decades.
    H.R. 3513, introduced by our Subcommittee colleague, 
Representative Peter DeFazio, would designate approximately 
13,700 acres of the Rogue River-Siskiyou National Forest as 
wilderness and designates segments of the Elk River as wild and 
scenic.
    H.R. 3682 was introduced by one of the co-chairs of the 
National Landscape Conservation System Caucus, Representative 
Mary Bono. The bill would designate 191,000 acres of wilderness 
and 31 miles of wild and scenic rivers in Riverside County, 
California. The bill would also add nearly 8,400 acres to the 
Santa Rosa and San Jacinto Mountains National Monument. Ms. 
Bono and other members of the California delegation have spent 
years on this consensus-driven effort and work diligently to 
ensure that the boundaries of the wilderness area address 
concerns about fire and public access.
    And last, but certainly not least, is Representative Mark 
Udall's H.R. 2334, which would designate 249,339 acres of 
wilderness, including 94 percent of Rocky Mountain National 
Park. This bill would also add 1,000 acres to the existing 
Indian Peaks Wilderness area, which lies along the southern 
border of the park in Arapaho National Forest. I know the 
National Park Service has some concerns about some unusual 
liability language in the bill, and I will be interested to 
hear what the witnesses have to say about it.
    With that, let me turn to our Ranking Member, Mr. Bishop, 
for any opening comments he may have.
    [The prepared statement of Chairman Grijalva follows:]

          Statement of The Honorable Raul Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    The Subcommittee will come to order. Today we will be receiving 
testimony on five wilderness bills. I would like to thank all of our 
witnesses for being here today and I look forward to receiving their 
testimony.
    While input from the agencies which manage our federal lands is 
important, the Wilderness Act is clear--Congress retains sole authority 
to designate wilderness. In practice, this means that a successful 
wilderness bill will be a consensus proposal, taking into account input 
from all relevant stakeholders. Each of the measures before us today is 
such a proposal.
    Let me start off by talking about the bill I have introduced, H.R. 
3287, the Tumacacori Highlands Wilderness Act. It is fitting that we 
are discussing this measure while sitting in the Morris K. Udall 
hearing room. H.R. 3287 would expand the existing Pajarita Wilderness, 
which Congress designated in 1984 under the leadership of one of 
America's greatest conservation leaders and a former Chairman of this 
Committee, Mo Udall.
    H.R. 3287 would also designate about 70,000 acres as the Tumacacori 
Highlands Wilderness. This proposal will make a major contribution to 
the conservation of the natural wonders of Arizona, to the benefit of 
all of our citizens--those alive today and generations to come.
    These desert peaks and canyons are key parts of the world-renowned 
Sky Island bioregion, a biological ``hotspot'' where the southern 
margin of habitats for many species from the Rocky Mountain West 
overlaps the northern extent of habitats for many tropical species 
better known in Mexico. The area is home to subtropical species that 
are found nowhere else in the United States, and offers secluded 
habitat vital to jaguars, which are now repopulating this portion of 
their former range.
    The boundaries proposed in H.R. 3287 have been adjusted to ensure 
road access to the wilderness for recreation. The legislation has 
received support from local sportsmen who seek true wilderness 
hunting--including support from the Backcountry Hunters and Anglers.
    This legislation has also received support from local elected 
officials, the faith community, conservation groups, the hiking 
community, scientists, and local businesses. Today we are joined by a 
local business supporter, Carol Cullen of the Tubac Chamber of 
Commerce.
    The lands designated as wilderness in H.R. 3287 are in close 
proximity to the U.S.-Mexico border. The Arizona borderlands comprise 
some of the most biologically rich and fascinating ecosystems in 
existence. Because of the proximity to the border, H.R. 3287 recognizes 
the need to continue drug interdiction and border enforcement 
operations in the proposed wilderness areas.
    As a final point regarding my legislation, let me thank my fellow 
Arizonans, Carol Cullen and Matt Skroch for joining us today.
    Today we will also be hearing several other wilderness measures. 
H.R. 2632, sponsored by our former committee colleague Representative 
Tom Udall, would designate approximately 20,000 acres of BLM land in 
New Mexico. The area has been managed as a wilderness study area for 
decades.
    H.R. 3513, introduced by our Subcommittee colleague Representative 
Peter DeFazio, would designate approximately 13,700 acres of the Rogue 
River-Siskiyou (SISK-YOU) National Forest as wilderness and designate 
segments of the Elk River as wild and scenic.
    H.R. 3682 was introduced by one of my co-chairs on the National 
Landscape Conservation System Caucus, Representative Mary Bono. The 
bill would designate 191,000 acres of wilderness and 31 miles of wild 
and scenic rivers in Riverside County, California. The bill also would 
add nearly 8,400 acres to the Santa Rosa-San Jacinto Mountains National 
Monument. Mrs. Bono and other members of the California delegation have 
spent years on this consensus-driven effort, and worked diligently to 
ensure that the boundaries of the wilderness areas address concerns 
about fire and public access.
    And last, but certainly not least, is Representative Mark Udall's 
H.R. 2334, which would designate 249,339 acres of wilderness, including 
94 percent of Rocky Mountain National Park. The bill would also add 
1,000 acres to the existing Indian Peaks Wilderness Area, which lies 
along the southern border of the park in the Arapaho National Forest. I 
know the National Park Service has some concerns about some unusual 
liability language in the bill, and I will be interested to hear what 
the witnesses have to say about that.
    I'd now like to turn to Ranking Member Bishop for any opening 
statement he may have.
                                 ______
                                 

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you. This will be extremely brief because 
we have a lot of people who want to talk and a long hearing 
ahead of us today. I will, though, say that the five bills that 
have come before us today in this packet all have some elements 
of controversy, obviously some bills much more than others, and 
they have generated a lot of discussion in groups who would 
like to testify before Congress.
    Mr. Chairman, I will at some point this week send you a 
personal request that we hold additional hearings on these five 
bills, some of them more than others simply because of the 
volume of interest that they have been generated from.
    And with that, I will conclude my opening remarks.
    Mr. Grijalva. Thank you, Mr. Bishop. And let me begin with 
our congressional colleagues for their testimony. Let me begin 
with Senator Ken Salazar for any opening comments.
    Welcome, sir, and you are on.

STATEMENT OF HON. KEN SALAZAR, A UNITED STATES SENATOR FROM THE 
                       STATE OF COLORADO

    Senator Salazar. Thank you very much, Mr. Chairman 
Grijalva. It is an honor and a privilege to be here before your 
committee over on the House side. I want to thank you for 
holding a hearing today to consider H.R. 2334, the Rocky 
Mountain National Wilderness Area Act.
    Senator Salazar. I want also to take a moment and just say 
how much I thank my colleagues. I appreciate Senator Wayne 
Allard and his leadership on this issue, as well as 
Representative Udall and the long work that he has spent 
putting this important legislation together.
    I want to thank the mayor of Estes Park, William Pinkham, 
who is here, and Dennis Harmon from the Water Supply and 
Storage Company in Fort Collins. They have traveled long 
distances because of the importance of this issue to testify 
here in front of your committee.
    The bill before you is the product of a long, long journey. 
It is a product of broad bipartisan work among the Colorado 
delegation to protect one of our most prized landscapes, the 
Rocky Mountain National Park.
    The bill is almost identical to a bill that Congressman 
Udall and I introduced last year, which then received a ringing 
endorsement from the Park Service. Earlier this year we held a 
similar hearing in the Senate Energy and Natural Resources 
Committee on which I serve; and Senator Allard and I testified 
there on behalf of this legislation. I am very proud of the 
support that this legislation has both within Colorado and with 
the local--and around the Nation. The bill is a win-win for 
economic development and conservation. It accommodates the 
needs of a broad range of interests.
    I will leave the details of the bill for my full testimony. 
And for the record I would just offer the following. I would 
like to share with you the words of one of the founders of 
Rocky Mountain National Park, Enos Mills, one of our Nation's 
most committed naturalists. His love for the Rockies began in 
1884, when at the age of 14 he scaled Longs Peak. Then he said, 
and I quote, ``In years to come, when I am asleep beneath the 
pines, thousands of families will find rest and hope in this 
park,'' end of quote.
    He was right. Thanks to the excellent work of his 
leadership and thousands of other people who have been 
involved, including the employees of the park over the past 90 
years, the 3.2 million visitors that come to Rocky Mountain 
National Park each year experience the same wildlands and 
spectacular vistas that our ancestors enjoyed.
    Mr. Chairman, our job of protecting the wild character of 
Rocky Mountain National Park is not complete until we get this 
legislation through. Only then will the wild character of the 
park be truly protected.
    I once again, Mr. Chairman, want to thank you and the 
distinguished members of this committee. And I want to point 
out the great work that Senator Allard and Congressman Mark 
Udall have done on this legislation, which truly encapsulates a 
crown jewel not only of Colorado, but a crown jewel of the 
Nation. Thank you Mr. Chairman.
    Mr. Grijalva. Thank you very much, Senator.
    [The prepared statement of Senator Salazar follows:]

                Statement of The Honorable Ken Salazar, 
               a U.S. Senator from the State of Colorado

    Thank you, Chairman Grijalva and Ranking Member Bishop, for holding 
this hearing today to consider H.R. 2334, the Rocky Mountain National 
Park Wilderness Area Act. I appreciate the opportunity to testify and 
thank my colleagues, Representative Udall, Representative Musgrave, and 
Senator Allard for their support for this bill.
    I also want to William Pinkham, mayor of Estes Park, and Dennis 
Harmon, from the Water Supply and Storage Company in Fort Collins, 
Colorado, for being here. They have traveled long distances to testify.
    Congress established Rocky Mountain National Park on January 26, 
1915 on the vision of a man named Enos Mills, one of our nation's most 
committed naturalists, whose love for the wild Rockies began in 1884 
when, at age 14, he scaled Long's Peak.
    ``In years to come when I am asleep beneath the pines,'' Mills once 
said, ``thousands of families will find rest and hope in this park.'' 
He was right. Thanks to the excellent work of the Park Service and its 
employees over the past 90 years, the 3.2 million visitors that come to 
Rocky Mountain each year experience the same wild lands and spectacular 
vistas that our ancestors enjoyed.
    Our job of protecting the wild character of Rocky Mountain National 
Park is not complete, however. In 1974 President Nixon recommended that 
Congress designate 239,835 acres within the Park as wilderness, but 
Congress has failed to act to designate on his recommendation.
    Today, though, thanks to the tireless efforts of the local 
communities and the dedicated protectors of the Park, we come before 
the committee with a broadly supported bill that is deserving of 
passage.
    H.R. 2334, and the Senate version that Sen. Allard and I 
introduced, S.1380, add 249,339 acres--nearly 95% of Rocky Mountain 
National Park--to the Wilderness Preservation System.
    H.R. 2334 is almost identical to a bill Representative Udall and I 
introduced last year, and which received a ringing endorsement from the 
Park Service. H.R. 2334 does not affect private land owners, existing 
development, or water rights. The boundaries for the wilderness area 
exclude water projects, roads, and existing development. The bill 
allows for a bicycle trail along the western edge of the Park, provided 
that construction of the trail is consistent with the Park's mission. 
It also makes a small increase in the size of the nearby Indian Peaks 
Wilderness Area.
    The only modification to this bill from last year is a provision 
that will clarify how the Grand River Ditch is to be operated and 
maintained in the Park. The Grand River Ditch has been in existence 
since 1891, almost 25 years before the creation of Rocky Mountain 
National Park. The ditch diverts Colorado River basin water over the 
Continental Divide and the Never Summer Range to farmers along the 
Front Range.
    The language we have added would make the liability standard under 
which the ditch operates consistent with the standard that applies to 
other water users under Colorado law. This revised standard only 
applies, however, if the ditch is operated in accordance with an 
updated operations and maintenance plan approved by the Park Service. 
It is a sensible provision.
    As one who feels that it is critical that local communities 
participate in and support these efforts, I am proud that this bill has 
the endorsement of local communities and organizations including 
Larimer County, Grand Lake, Grand County, the Town of Estes Park, 
Winter Park, the Town of Grand Lake, and the League of Women Voters. I 
am proud that our bill is a win-win for economic development and 
conservation, and accommodates the needs of a broad range of interests.
    Again, thank you for allowing me to testify today. We held a 
similar hearing in the Senate Energy and Natural Resources Committee, 
of which I am a member, earlier this year. I am hopeful that we will be 
able to pass this bill promptly, so that we can get it to the 
President's desk for his signature.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Grijalva. And we turn to your colleague, Senator 
Allard, for his comments regarding the legislation.
    And thank you for taking the time to be here, sir.

 STATEMENT OF HON. WAYNE ALLARD, A UNITED STATES SENATOR FROM 
                     THE STATE OF COLORADO

    Senator Allard. Mr. Chairman, thank you. And I want to 
thank also Ranking Member Bishop for the opportunity to be here 
before you today and to testify as the committee considers the 
Rocky Mountain National Park Wilderness area.
    It is a pleasure for me to come before this committee. It 
brings back many fond memories when I served on the Natural 
Resources Committee here when I served in the U.S. House. The 
history of a Colorado Congressman serving on this committee 
dates way, way back.
    Rocky Mountain National Park, that we are going to discuss 
today, was one of the favorites of, at that time when it was 
created, President Teddy Roosevelt. And the resources from this 
park end up affecting States all the way down to the Gulf of 
Mexico and States all the way over to the Pacific Ocean. They 
are the top of the heap. They are on the Continental Divide. 
And there are a number--as you might imagine, a number of very 
pristine areas in the park that we all want to protect. There 
is also some infrastructure within the park that is vital to 
the survival of those communities that live on those, and 
States that live on those river drainage areas that go all the 
way down to the Gulf of Mexico, as well as to the Pacific 
Ocean.
    This legislation is a result of more than a year of 
negotiation between Members of the Colorado delegation. It is a 
carefully crafted bill involving thousands of hours of work 
with citizens, local elected officials and the environmental 
community.
    One of the most famous Members of Congress we had serving 
Colorado was Wayne Aspinall, who worked very closely with then-
Congressman Udall from Arizona. And I find myself surrounded by 
Udalls here today. I have a Udall on my left and a Udall on my 
right. I don't have any way to turn but you, Mr. Chairman, so 
we are here to turn to you for some support on this 
legislation.
    As a fifth generation Coloradan and somebody who grew up in 
the shadow of Rocky Mountain National Park, it is an honor to 
have worked on this bill with both Congressman Udall, as well 
as Congresswoman Musgrave, and particularly with my colleague 
from the Senate, Senator Salazar. We both have a very strong 
appreciation for the natural resources of Colorado. We don't 
want to lose what has made Colorado a destination for tourists 
and what Coloradans are proud of, and that is our vistas.
    Colorado and its congressional delegation have long played 
an important role in development of wilderness in our Nation. 
It dates back again to the original Wilderness Act. Congressman 
Wayne Aspinall, who represented Colorado's Fourth Congressional 
District and chaired the Committee on Interior and Insular 
Affairs, played a pivotal role in creating the Nation's 
wilderness system with the 1964 Wilderness Act.
    From the inception of the Wilderness Act through the 
continued development of wilderness in Colorado, one thing has 
remained the same: a commitment to working together to find 
compromise in solutions that work for everyone. The principles 
of compromise have held true from the Colorado National Forest 
Wilderness Act of 1980 to the Spanish Peaks Wilderness Act in 
2000.
    It is now true with the Rocky Mountain National Park 
Wilderness Act of 2007. This is reflected by the broad support 
this bill enjoys. Everyone from water users to the 
environmental community support this bill.
    There is one exception to this nearly universal support. I 
understand that the administration has expressed concern about 
the water protection language we included protecting the Grand 
River Ditch. I understand these concerns are based on the idea 
that it is an atypical section for a wilderness designation.
    During my extensive tenure in both Houses of Congress, I 
have been a part of numerous wilderness designations, and the 
one and only common factor with these wilderness designations 
is that none of them were typical. When I worked to designate 
the Spanish Peaks Wilderness, we had to cherry-stem the Bull's-
Eye Mine Road. A cherry-stemmed road in a wilderness area is 
not typical, but in this case it was necessary for its 
creation.
    In regard to a wilderness designation for Rocky Mountain 
National Park, I can say unequivocally that without the 
protections for the Grand River Ditch there can be no 
designation. In a time when agriculture wells are being 
threatened just east of the park in Weld and Morgan Counties, 
the protection of water is more important than ever. The 40,000 
acre-feet, or over 13 billion gallons, of water that flow 
through the Grand River Ditch are important to both rural 
Colorado and urban areas outside of Denver that depend on the 
water to meet municipal needs.
    The protection of this water infrastructure is a key 
component of this compromised legislation. If we do not 
recognize and protect the water provided by the Grand Ditch. 
This bill cannot move forward. Protecting this water is vital 
to preserving the area's agricultural heritage and its future, 
as well as green acres and preserved habitat outside of Rocky 
Mountain National Park.
    I am extremely pleased that this bill, as written, will 
protect wilderness and respect water rights and private 
property rights. The Rocky Mountain National Park Wilderness 
Act will ensure that Americans now and in the future have the 
ability to enjoy the park.
    Thank you, Mr. Chairman and members of the committee, for 
your consideration of the Rocky Mountain National Park 
Wilderness Act.
    Mr. Grijalva. Thank you very much, Senator.
    [The prepared statement of Senator Allard follows:]

        Statement of The Honorable Wayne Allard, a U.S. Senator 
                       from the State of Colorado

    Thank you Chairman Grijalva and Rankin Member Bishop, for allowing 
me the opportunity to appear before you today, and for the committee's 
consideration of the Rocky Mountain National Park Wilderness Act.
    I am pleased to come before the Committee today to discuss 
legislation that will designate Rocky Mountain National Park as 
Wilderness.
    This legislation is the result of more than a year of negotiations 
between members of the Colorado Delegation. It is a carefully crafted 
bill involving thousands of hours of work with citizens, local elected 
officials and the environmental community.
    This legislation will provide further protection for an area that 
was formed millions of years ago when massive glaciers carved an 
impressive landscape. The Rocky Mountain National Park Wilderness Act 
will ensure that it remains unchanged in years to come.
    As a fifth generation Coloradan, and someone who grew up in the 
shadow of Rocky Mountain National Park, it is an honor to have worked 
on this bill with Congressman Udall and Congresswoman Musgrave.
    Colorado and its Congressional representatives have long played an 
important role in the development of Wilderness in our Nation.
    This dates back to the original Wilderness Act. Congressman Wayne 
Aspinall, who represented Colorado's 4th Congressional district and 
chaired the Committee on Interior and Insular Affairs, played a pivotal 
role in creating the nation's wilderness system with the 1964 
Wilderness Act.
    From the inception of the original Wilderness Act through the 
continued development of Wilderness in Colorado one thing has remained 
the same: a commitment to working together to find compromise and 
solutions that work for everyone.
    The principle of compromise has held true from the Colorado 
National Forest Wilderness Act of 1980 to the Spanish Peaks Wilderness 
Act in 2000, and it is now true with the Rocky Mountain National Park 
Wilderness Act of 2007.
    This is reflected by the broad support this bill enjoys. Everyone 
from water users to the environmental community support this bill.
    There is one exception to this nearly universal support. I 
understand that the administration has expressed concern about the 
water protection language we included protecting the Grand River Ditch. 
I understand these concerns are based on the idea that this is an 
atypical section for a Wilderness designation.
    During my extensive tenure in both houses of Congress I have been a 
part of numerous Wilderness designations. The one and only common 
factor with these Wilderness designations is that none of them were 
typical.
    When I worked to designate the Spanish Peaks Wilderness we had to 
cherry stem the Bulls Eye Mine Road. A cherry stemmed road in a 
wilderness area is not typical but in this case it was necessary to its 
creation.
    In regard to a Wilderness designation for Rock Mountain National 
Park I can say unequivocally that without the protections for the Grand 
River Ditch there can be no designation.
    In a time when agricultural wells are being threatened just east of 
the Park in Weld and Morgan Counties, the protection of water is more 
important than ever.
    The 40,000 acre feet or over 13 billion gallons of water that flow 
through the Grand River Ditch are important to both rural Colorado and 
urban areas outside of Denver that depend on this water to meet 
municipal needs.
    The protection of this water infrastructure is a key component of 
this compromise legislation. If we do not recognize and protect the 
water provided by the Grand Ditch this bill cannot move forward.
    Protecting this water is vital to preserving this area's 
agricultural heritage and its future as well as green acres and 
preserved habitat outside of Rocky Mountain National Park.
    I am extremely pleased that this bill as written will protect 
wilderness and respect water rights.
    The Rocky Mountain National Park Wilderness Act will ensure that 
Americans, now and in the future, have the ability to enjoy the Park. 
Thank you Mr. Chairman, and members of the Committee, for your 
consideration of the Rocky Mountain National Park Wilderness Act.
                                 ______
                                 
    Mr. Grijalva. Let me now invite our colleague from the 
committee, Mr. Mark Udall, for any comments he might have on 
the legislation.

STATEMENT OF THE HON. MARK UDALL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Mark Udall. Thank you, Mr. Chairman. I think we have 
such a distinguished panel here in front of us today that I 
would like to hear, as we have from the two Senators from our 
state, also from Congressman Udall from New Mexico, as well as 
from my favorite member of the panel, Congresswoman Bono, from 
California. She has an important initiative that she wants to 
bring to the committee's attention as well.
    But if I could, Mr. Chairman, add that this work has gone 
on for many, many years. As the committee has heard, it is 
broadly supported across the State, and we are eager to cross 
the ``T'' when it comes to the Grand River Ditch situation that 
Senator Allard outlined and move forward as soon as we possibly 
can to make this a reality.
    And the process will keep faith with Enos Mills, the great 
Enos Mills who set an example for all of us.
    Thank you to the Senators for being here today.
    Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, Mr. Udall.
    Mr. Grijalva. Let me now ask Representative Mary Bono for 
H.R. 3682. Thank you and your comments.
    Senator Allard. Mr. Chairman, if I might ask permission. 
Senator Salazar and I have some meetings over on the Senate 
side. May we be excused, please?
    Mr. Grijalva. Yes. Thank you.
    Senator Allard. Thank you.

 STATEMENT OF THE HON. MARY BONO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mrs. Bono. Good afternoon, Chairman Grijalva, Ranking 
Member Bishop, and members of the Subcommittee. I would like to 
thank you for the opportunity to testify on H.R. 3682, the 
California Desert and Mountain Heritage Act.
    Mrs. Bono. I introduced similar legislation in the 109th 
Congress, and it is my hope that today's hearing will convey 
the hard work we have undertaken in refining and improving this 
bill. In simple terms, known very well by the Subcommittee, 
H.R. 3682 designates new and expands existing wilderness, along 
with four wild and scenic rivers.
    Additionally, the bill includes a small expansion of the 
Santa Rosa and San Jacinto Mountains National Monument. This 
unique monument, which was created by legislation I introduced 
in 2000. Stands 7 years later as a framework by which I have 
approached this new effort.
    One highly visited area of my district exists today in 
protected status due to the involvement of a gentleman who I 
was very proud to call a friend and fellow long-term resident 
of the Coachella Valley. President Gerald R. Ford, who lived 
his latter years a short drive away from what is now Joshua 
Tree National Park, recognized the value of these lands by 
signing into law a bill creating nearly 430,000 acres of 
wilderness within the park.
    Looking beyond the park, there are other proposed 
wilderness lands in the eastern half of my district. These 
areas are an impressive example of our continually changing 
landscape as the San Andreas Fault quite literally cuts through 
the region, creating unique peaks and views of the nearby 
Salton Sea. When examining these areas, I took a close look at 
ensuring that by creating wilderness, we would not be taking 
away from another valuable resource offered by some of these 
lands; and that is renewable energy. Embodied within H.R. 3682 
are lands with some very refined boundaries; these are 
necessary so that we do not tie the hands of those companies 
actively seeking the expanded use of renewable energy sources 
ranging from solar to wind and even geothermal.
    The western half of my congressional district brings with 
it a different landscape, one that is dominated by the unique 
rock formations of Beauty Mountain and transitioning to groves 
of oak and fir trees in the South Fork San Jacinto River Canyon 
area. These forests are part of an ecosystem that is also 
covered in chaparral making the region highly prone to 
devastating fires. As we saw just a few weeks ago when one 
combines a chaparral that is dry and dense with the Santa Ana 
winds, the fires spread with incredible pace, evidenced in the 
half million acres recently lost throughout Southern 
California.
    With Riverside County's existing drought designation, it is 
clear to me that we are fortunate to have avoided another event 
on the scale of the Esperanza fire in my district last year, 
one that took the lives of five brave U.S. Forest Service 
firefighters. Because of the difficult circumstances facing the 
Forest Service supervisors in this area, I built into my 
legislation what I see as a unique but necessary approach. It 
will hopefully empower the local decision-makers, protect vital 
funding for fuels management and allow for the tools needed to 
keep the area safe. The input provided by my local Fire Safe 
Council was crucial as home owners in communities like 
Idyllwild, Pine Cove and others know firsthand the importance 
of sound fuels management.
    The past year that I have spent working to engage our local 
communities on issues of trail use, mountain biking, renewable 
energy needs and very real fire concerns has created a 
continually evolving piece of legislation. I have significantly 
altered maps to exclude thousands of acres near private lands, 
pulled back from areas that could be used as fuel breaks by the 
Forest Service and changed areas to ensure vehicle, mountain 
bike and private property owner access.
    This Subcommittee understands well just what sort of detail 
efforts can go into talking to residents about these wilderness 
proposals. My efforts in this vein will continue and have 
already resulted in support of the nearby county supervisors, 
State legislators and municipal governments. These locals have 
spent years of their own time putting together the Coachella 
Valley Multi-Species Habitat Conservation Plan, and its Federal 
effort is consistent with this important proposal.
    Mr. Chairman, I would like to enter into the record some of 
these letters of support, if possible.
    Mr. Grijalva. Without objection.
    [NOTE: Letters submitted for the record have been retained 
in the Committee's official files.]
    Mrs. Bono. Thank you.
    Again, I learned in 2000, with a monument designation, that 
the only way to enact these Federal changes is through the 
continual collaboration with constituents, and I have used the 
past year to undertake that challenge. The result is a bill of 
which I think the country's third fastest growing county can be 
very proud. We are working to embrace ways in which our 
population can grow across the desert floor and countryside in 
a thoughtful, environmentally sound manner.
    With this said, Chairman Grijalva and Ranking Member 
Bishop, I know my time is running short, but I think President 
Ford said it well in his own words when he stated, and I quote, 
``I believe that the wilderness system serves a basic need of 
all Americans, even those who may never visit a wilderness 
area, the preservation of a vital element of our heritage,'' 
end quote.
    Thank you again, Mr. Chairman and Ranking Member Bishop, 
for providing me this time to testify on this legislation. I 
yield back the balance of my time.
    Mr. Grijalva. Thank you very much.
    Mr. Grijalva. Let me turn to the gentleman from the Land of 
Enchantment, our colleague, Mr. Tom Udall.
    Sir.

 STATEMENT OF THE HON. TOM UDALL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Tom Udall. Thank you very much, Chairman Grijalva and 
Ranking Member Bishop. And I want to thank you also for having 
on the subsequent panel a good friend of mine, Arturo Sandoval, 
a conservation activist and somebody that will really tell you 
about the on-the-ground support. I look forward to remaining 
here and hearing his testimony.
    It is an honor to come before you today to testify on my 
bill, H.R. 2632, the Sabinoso Wilderness Act of 2007.
    Mr. Tom Udall. New Mexico is filled with extraordinary 
landscapes. As a representative of this beautiful State, it is 
my obligation to work to conserve the scenic and historic areas 
for future generations. One of New Mexico's special places is 
the region in and around the Sabinoso Wilderness Study Area. 
Last year, I had the opportunity to explore this unique area on 
horseback while traveling through deep canyons covered with 
indigenous trees, such a pinyon, juniper, cottonwood, willow 
and ponderosa pine it was evident that Sabinoso is an 
exceptional setting that deserves to be protected and 
accessible to all. That is why I introduced the legislation to 
designate this wilderness, the lands in and near the Sabinoso 
Wilderness Study Area. The proposed wilderness comprises 
approximately 20,000 acres and is situated in San Miguel 
County, 40 miles east of Las Vegas, New Mexico, and 25 miles 
northwest of Conchas Dam State Park.
    Roaming the canyons last year, I was struck by the 
ecological, scenic and recreational values of the area. 
Sabinoso overlays a thick section of colorful sedimentary rocks 
typical of desert rock formations throughout the West. The 
area's scenic and densely vegetated landscape is also home to a 
rich diversity of wildlife such as Red-Tailed Hawks, Western 
Scrub-Jays, Broad-Tailed Hummingbirds, mule deer, bobcats and 
gray foxes. All of these natural resources will provide 
outstanding opportunities to hike, hunt, horseback ride, take 
photographs and simply experience the unspoiled lands of our 
ancestors.
    For many decades, this beautiful piece of land has been 
inaccessible to the general public. In concert with our efforts 
to designate the area, the New Mexico Department of Game and 
Fish Open Gate Access Program has been working to secure public 
access to the Sabinoso area.
    Mr. Chairman, I would like to submit for the record a 
letter from the Department of Fish and Game, dated November 8, 
2007, stating that they will--quote, ``will have an agreement 
in place by the end of the 2007 calendar year opening up access 
to the area for this coming spring.''
    Mr. Grijalva. Without objection.
    [NOTE: Letters submitted for the record have been retained 
in the Committee's official files.]
    Mr. Tom Udall. Opening Sabinoso and protecting it as a 
wilderness will also create important new economic development 
opportunities for the surrounding communities.
    Finally, New Mexico State House Memorial 53, which calls on 
the New Mexico congressional delegation to support the 
establishment of the Sabinoso Wilderness Area, was introduced 
by State Representative Thomas Garcia during the 2007 session 
and passed unanimously by a vote of 66 to 0.
    I would also like to submit this resolution, Mr. Chairman, 
for the record.
    Mr. Grijalva. Without objection.
    [NOTE: The resolution submitted for the record has been 
retained in the Committee's official files.]
    Mr. Tom Udall. Chairman Grijalva and Ranking Member Bishop, 
I urge you to favorably recommend this bill to the full 
committee, designating the Sabinoso Wilderness Area will enable 
people from generations to come to experience the unspoiled 
natural and unique beauty of the Southwest. Thank you both.
    Mr. Grijalva. Thank you.
    Mr. Grijalva. And let me thank our colleagues very much for 
their testimony and for what I believe to be very important and 
necessary initiatives, legislative initiatives.
    Thank you. I have no questions for our colleagues.
    Mr. Bishop.
    Mr. Bishop. Maybe one, just for both of you, I created a 
wilderness area in Utah on some area that may be questionable 
as far as its designated qualities for that wilderness. But one 
of the things that we did before we did that was to talk to 
every individual private property holder in that particular 
area.
    For both of you there are some significant private property 
holdings. I would simply like to ask you both, have you 
contacted all of the private property inholders and have they 
been included? First of all, have you contacted them all, and 
are they in support of this--forget the other last one. Just, 
have you contacted them?
    Mrs. Bono. I appreciate the question very much.
    I think it would be overstating to say every single 
landowner that we have talked to. But in the course of the one 
year we have reached out to any interested party, as many 
people as we possibly could; and we have certainly done a lot 
of press on this issue to make sure that people who are 
concerned would come forward and address their issues with us. 
And I think we have done a great job of that.
    I think, further, the national monument we created in 2000 
is a great example of including local voices in this 
legislation. So I can say with great confidence that we have 
reached out to anybody who has been interested at all. But if 
it is 100 percent, of course, I don't think any of us could 
ever claim that.
    Mr. Tom Udall. Thank you, Ranking Member Bishop.
    And I know, let me say at the outset, that you have been a 
great champion for property rights and private property. And I 
think I learned a lot from you in the course of serving with 
you on this committee, and I think that is a very important 
question you ask.
    First of all, I would say we are in the process of doing 
this in terms of my office and my staff. But I believe that 
every property owner that is involved in this has many times 
over had contact from the Federal Government. As you know, 
these wilderness study areas were designated over 20 years ago. 
And in designating wilderness study, word went out very widely. 
The BLM was in the process of working with local landholders 
and went through a very extensive public process. They heard 
from them, they acted in accordance with what they heard.
    And what we have before us today, the Sabinoso Wilderness 
Study Area, has been vetted through a public process; it has 
been a very vigorous public process. And I think that it is 
important to note that there has been, as far as the public 
arena, very little objection to what is going on.
    As you recognize from my testimony, the State Game and 
Fish, which is planning to get access to this particular area 
by the end of this year, has been working with a specific 
private owner in order to gain access; and that private owner 
was so enthusiastic about the idea of giving the private access 
that they are now on the eve of signing an actual agreement.
    So I think you make an important point. We always need to 
involve the private property folks that are in and around a 
wilderness study area like this. And I commit myself to 
continue to do that in the vein that you ask that question.
    Thank you very much.
    Mr. Bishop. I appreciate both of your efforts in that 
regard.
    I know what I was trying to do was much less ambitious in 
the area than you are proposing, so it was easier to contact 
them. I do realize also that a lot of the property owners were 
not necessarily living in the area, so even though this was the 
big issue in the State of Utah, some of them had no concept 
about it. We even found out that one property owner was dead 
and had not left anyone in his will to be executors of his 
claim on that particular land.
    A simple question, just for the number, do each of you know 
how many people we are talking about who have private property 
holdings in your area?
    Mr. Tom Udall. We are talking, for the Sabinoso Wilderness, 
about 10 ranchers, I believe, that have private property in or 
near the area.
    Mr. Bishop. Wow. You are less than I had. OK.
    Mr. Tom Udall. And as I said earlier, Ranking Member 
Bishop, I believe that they were included in the extensive 
public process that went into creating these wilderness study 
areas throughout the West and in New Mexico.
    Mrs. Bono. And also I am informed by my able staffer, Chris 
Foster, a couple hundred people, including many of those who 
are actually Koreans, people who live in Korea, who have 
investment property within Joshua Tree.
    Mr. Bishop. OK. Thank you.
    Mr. Grijalva. Mr. Udall, any questions? A comment?
    Mr. Mark Udall. Mr. Chairman I don't have any questions at 
this time.
    Mr. Grijalva. Again, thank you, and I appreciate your 
testimony. And you are invited to be up at the dais with us as 
we continue this discussion. Thank you.
    Mr. Grijalva. Let me at this point invite the other panel 
up please. Thank you. Let me welcome our witnesses again, and 
begin with Deputy Chief Holtrop, National Forest System, U.S. 
Forest Service.
    Sir.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
  SYSTEM, U.S. FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman and members of the Subcommittee, 
I appreciate the opportunity to provide our views on the bills 
before you today. The Rocky Mountain National Park Wilderness 
and Indian Peaks Wilderness Expansion Act would remove acreage 
from the Arapaho National Recreation Area in the Arapaho 
Roosevelt National Forest and designate the land as an addition 
to the existing Indian Peaks Wilderness. The Department of 
Agriculture supports the addition to the Indian Peaks 
Wilderness.
    The Tumacacori Highlands Wilderness Act of 2007 would 
designate new wilderness areas on the Coronado National Forest 
in Arizona by expanding the Pajarita Wilderness, approximately 
5,500 acres, and designating some additional 70,000 acres as a 
Tumacacori Highlands Wilderness.
    The administration supports the designation of wilderness 
for areas that are consistent with the characteristic of 
wilderness. An initial assessment indicates that much of the 
area proposed in this bill has outstanding potential for 
wilderness designation. However, the administration is 
concerned about conflicting demands in portions of the proposed 
wilderness associated with access, resource management and 
border security that would compromise the wilderness 
characteristics of these portions. We would like to work with 
the bills' sponsors and the Subcommittee to seek agreement on 
these concerns.
    About 5 miles of the current Pajarita Wilderness and some 5 
miles of the proposed Tumacacori Highlands Wilderness are 
contiguous with the Mexican border. This area is currently 
experiencing unprecedented pressure from various illegal 
activities. The Forest Service and Border Patrol coordinate 
with all other Federal, State, tribal and local land management 
and law enforcement agencies.
    The Departments of Homeland Security, Interior and 
Agriculture have entered into a memorandum of understanding for 
cooperative national security and counterterrorism efforts 
along the United States borders. We will continue to use the 
management tools that have the least impact on natural 
resources to fulfill our agency responsibilities.
    We are concerned that further restrictions on the use of 
these tools as a result of wilderness designation could hinder 
our law enforcement and resource management effectiveness, and 
thus, the administration believes that portions of the proposed 
Tumacacori Highlands Wilderness are not suitable for wilderness 
designation at this time. We recommend that areas where 
motorized use is necessary for range permittees and for 
hunting, undeveloped recreation and forest administration be 
omitted from wilderness designation.
    The travel management planning process currently being 
conducted by the Coronado National Forest is being coordinated 
with public involvement for the revision of the Coronado 
National Forest Land Management Plan. The administration would 
prefer to engage the public through these planning processes.
    Mr. Holtrop. The Copper Salmon Wilderness Act would 
designate approximately 13,700 acres of the Rogue River-
Siskiyou National Forest as wilderness and designate segments 
of the north and south forks of the Elk River as additions to 
the existing Elk Wild and Scenic River.
    The Department supports this bill, but requests some 
important adjustments to the wilderness boundary. These 
adjustments would provide for better separation of motorized 
use from the wilderness, allow for road maintenance activities 
within road clearing limits such as ditch cleaning and culvert 
and bridge maintenance, as well as to accommodate treatments of 
plantations that would improve forest health and habitat 
diversity while increasing firefighter safety.
    The California Desert and Mountain Heritage Act would 
create two new wildernesses on the San Bernardino Forest, add 
additional acreage on the existing designated wilderness on the 
Cleveland and San Bernardino National Forests and designate 
stretches of four rivers on the San Bernardino National Forest 
as components of the National Wild and Scenic Rivers System. It 
would also expand the boundaries of the Santa Rosa and San 
Jacinto National Mountains Monument.
    The Department of Agriculture supports H.R. 3682, if 
amended. We note there are differences between the proposed 
wilderness designations in the bill and the wilderness 
recommendations made in the 2006 forest plan revisions for 
southern California national forests. During that public 
involvement process, most of the wilderness areas proposed in 
this bill did not meet criteria for wilderness suitability 
because of current or potential uses that would conflict with 
wilderness designation such as reduction of hazardous fuels.
    We do not oppose the addition of four rivers to the 
National Wild and Scenic Rivers System, based on general 
support by the communities of interest, inconsistency of the 
designation with the management of the national forest system 
lands within the river corridors.
    We fully support that portion of the expansion of the Santa 
Rosa and San Jacinto Mountains National Monument under national 
forest management. I would like to take this opportunity to 
thank Congresswoman Bono and her staff for their work with the 
Forest Service and area citizens in crafting this bill and for 
making some changes to the proposal based on local input. In 
the short time that our staff had to prepare for this hearing, 
it was difficult to communicate directly with the southern 
California national forests, who have been responding to the 
recent wildfires regarding specific concerns. We look forward 
to continuing to work with the bill's sponsor and the 
Subcommittee to address issues raised at today's hearing.
    This concludes my statement, and I would be pleased to 
answer any questions you may have.
    Mr. Grijalva. Thank you, sir.
    [The prepared statement of Mr. Holtrop follows:]

Statement of Joel Holtrop, Deputy Chief for the National Forest System, 
          U.S. Forest Service, U.S. Department of Agriculture

    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today to provide the Department's view 
on the Rocky Mountain National Park Wilderness and Indian Peaks 
Wilderness Expansion Act, the Tumacacori Highlands Wilderness Act of 
2007, the Copper Salmon Wilderness Act, and the California Desert and 
Mountain Heritage Act. I will address each of these individually.
H.R. 2334, Rocky Mountain National Park Wilderness and Indian Peaks 
        Wilderness Expansion Act
    Section 6 of H.R. 2332 would remove acreage from the Arapaho 
National Recreation Area in the Arapaho-Roosevelt National Forest and 
designate the land as an addition to the existing Indian Peaks 
Wilderness Area. The Department of Agriculture supports the addition to 
the Indian Peaks Wilderness.
    We defer to the Department of the Interior regarding those portions 
of the bill affecting lands administered by the National Park Service.
H.R. 3287, Tumacacori Highlands Wilderness Act of 2007
    This bill would designate new wilderness areas on the Coronado 
National Forest in Arizona by expanding the Pajarita Wilderness 
approximately 5,500 acres (for a total of about 13,300 acres) and 
designating some additional 70,000 acres as the Tumacacori Highlands 
Wilderness.
    The Administration supports the designation of wilderness for areas 
that are consistent with the characteristics of wilderness described in 
the Wilderness Act of 1964--areas dominated by the forces of nature, 
with primeval character and natural conditions that contrast with 
developed lands and offer outstanding opportunities for solitude or 
primitive and unconfined recreation. An initial assessment indicates 
that much of the area proposed in this bill has outstanding potential 
for wilderness designation. However, the Administration is concerned 
about conflicting demands in portions of the proposed wilderness 
associated with access, resource management, and border security that 
would compromise the wilderness characteristics of these portions. In 
addition, the Administration would prefer to engage the public through 
a public planning process to help determine which areas of the Coronado 
National Forest merit recommendation for wilderness designation. We 
would like to work with the bill's sponsors and the Subcommittee to 
seek agreement on these concerns.
    The lands that would be designated wilderness by H.R. 3287 are 
located approximately 25 miles south of Tucson, Arizona and extend to 
the U.S. border with Mexico. The Tumacacori Mountains dominate the 
landscape, rising to about 5,800 feet above sea level and are covered 
with forested vegetation. These ``sky islands'' have steep slopes that 
are cut by intermittent drainages lined with lush riparian vegetation, 
which drain to a desert floor covered with Sonoran desert vegetation. 
The area provides habitat for five endangered species and four 
threatened species, including habitat for jaguars, which have been 
spotted several times in the vicinity.
    There are at least eight active range allotments and associated 
range improvements within the proposed areas that require occasional 
maintenance, including earthen tanks, water wells, water catchments, 
gates, and fences. The area provides trophy deer hunting and other 
undeveloped recreational opportunities. There are few roads, and the 
Forest Service lacks legal rights-of-way on several roads that could 
otherwise provide public access to the area.
    Fifty-four miles of the Coronado National Forest are contiguous 
with the Mexican border, including approximately 5 miles of the current 
Pajarita Wilderness, and some 5 miles of the proposed Tumacacori 
Highlands Wilderness. This area is currently experiencing unprecedented 
pressure from various illegal activities.
    Initiatives by the U.S. Border Patrol (Border Patrol) in Arizona to 
control areas of the border on either side of the Coronado National 
Forest has funneled growing amounts of illegal vehicle and foot traffic 
through the valleys and mountains of the Forest. The Border Patrol's 
Tucson Sector, which encompasses most of the Coronado National Forest, 
has the highest incidence of cross-border violators in the nation. In 
Fiscal Year 2007, the Border Patrol apprehended 35,706 undocumented 
aliens and engaged with 581 illegal vehicle entries in the Coronado 
National Forest. In addition, 196,794 pounds of marijuana were seized 
while being transported through the Forest.
    The damaging effects of thousands of undocumented aliens crossing 
this area of the border are significant and include:
    <bullet>  Damage to natural and cultural resources resulting from 
many miles of illegal roads and trails, fouling of water sources, and 
deposits of large amounts of trash, human waste, and abandoned 
vehicles. Tons of litter and human waste are left behind, which are 
difficult to remove in designated wilderness where removal by horses or 
mules is required.
    <bullet>  Federal facilities and property of livestock permittees, 
miners and other authorized users of the forest are heavily impacted by 
cross-border violators, who sometimes cut fences, damage roads, break 
down or leave gates open, damage water supplies and forage, steal or 
damage equipment, and disrupt livestock grazing and irrigation 
schedules.
    <bullet>  Numerous wildfires resulting from arson and abandoned 
warming, cooking, and signal fires have destroyed valuable natural and 
cultural resources, and put firefighters and forest visitors at risk.
    <bullet>  Exploitation of undocumented aliens by smugglers brings 
with it an increase in other criminal activities and violence. Criminal 
activity is a threat to members of the public trying to use their 
public lands, and to employees who manage these lands and provide 
services to the public.
    The Forest Service and Border Patrol coordinate with all other 
federal, state, tribal and local land management and law enforcement 
agencies through the Borderland Management Task Force (BMTF). The 
Border Patrol has also established a special public lands liaison 
position to work closely with public land management and law 
enforcement personnel. In the spring of 2006, the Departments of 
Homeland Security, Interior, and Agriculture signed a memorandum of 
understanding (MOU) for cooperative national security and 
counterterrorism efforts along the United States' borders.
    The MOU provides guidance to coordinate border enforcement 
operations, including minimizing or preventing impacts to natural and 
cultural resources. Along the U.S.-Mexico border, a sixty-foot wide 
strip designated in 1907 referred to as the ``Roosevelt Reservation'' 
is reserved primarily for border enforcement purposes. Where the Forest 
Service has primary jurisdiction, the MOU outlines procedures for 
working in designated wilderness or wilderness study areas. For 
example, U.S. Customs and Border Patrol agents may patrol on foot or 
horseback, and operate motor vehicles on roads or areas that are 
already authorized for those uses by the public or administratively. 
Motorized use in wilderness areas is permitted in emergency situations 
to pursue suspects or in an emergency situation that involves human 
life, health, or safety. Written agreement is required for additional 
access to areas not previously designated for off-road use, further 
requiring that the lowest impact mode of travel and operational set-up 
be used to accomplish the mission. The MOU also outlines procedures for 
approving and installing detection infrastructure within wilderness 
areas, using the ``minimum tool'' analysis to determine transit modes.
    We will continue to use, and to encourage the Border Patrol to use, 
the management tools that have the least impact on natural resources to 
fulfill our agency responsibilities. Currently, both agencies use 
motorized vehicles and aircraft, as well as improvements such as 
communications towers in the area proposed for wilderness by H.R. 3287. 
We are concerned that further restrictions on use of these tools as a 
result of wilderness designation could hinder our law enforcement 
effectiveness.
    In addition to the MOU, the Forest Service and Border Patrol 
recently developed a strategic plan to implement border security 
operations on the Coronado National Forest. The strategic plan 
addresses the flow of illegal aliens and narcotic smugglers and 
emphasizes a first line of defense at the border 24 hours a day, 7 days 
a week to stop violators before they enter the Coronado National 
Forest. However, the area's rugged terrain, and, to some extent, 
wilderness management requirements increases the complexity of border 
security operations. For example, the strategic plan calls for 
reestablishment of the historic ``Screwworm'' pack trail on the 
Coronado National Forest along the border within existing and proposed 
wilderness to open it up for motorized patrol on all terrain vehicles.
    Due to the intensive illegal activity and the need for enforcement 
action and resource management along the border, the Administration 
believes that portions of the proposed Tumacacori Highlands Wilderness 
are not suitable for wilderness designation at this time.
    The Department of Agriculture is concerned with the extensive use 
of ``cherry stems'' to exclude designated roads or travelways from this 
wilderness designation. Our understanding is that these routes are 
intended to provide motorized access for permittees and for public 
access. However, in our view, it is important to maintain the integrity 
of wilderness by designating only those areas which are, as stated in 
the Wilderness Act and in Forest Service policy, ``dominated by the 
forces of nature''. Allowing for continued motorized use miles into a 
designated wilderness, even along undesignated corridors, can lead to 
motorized incursions from the roadways, noise, and other intrusions. We 
recommend that areas where motorized use is necessary for range 
permittees and for hunting, undeveloped recreation, and forest 
administration be omitted from wilderness designation.
    Another important issue of concern involves road access. Although 
maps indicate a number of roads lead from Interstate 19 on the east and 
Arivaca Road on the west to the proposed wilderness areas, the Forest 
Service lacks legal rights-of-way for public use of many of these 
roads. In addition, the designation of the Tumacacori Highlands 
Wilderness at the northwest border of National Forest System lands 
would preclude any legal motorized access to this section of the 
Forest. Over the next few years the Coronado National Forest will 
engage the public and coordinate with state, county, and tribal 
governments to identify and designate roads, trails and areas that are 
open to motor vehicle use through the Travel Management Planning 
process. This analysis, with public involvement, will also identify 
roads that should be decommissioned, including, potentially, several 
Forest Roads in the proposed wilderness areas that are no longer in 
use. It will also address the need for new routes along the northwest 
border of the proposed Tumacacori Highlands Wilderness to link existing 
roads and provide legal access within the Forest boundary.
    The Travel Management Planning process is being coordinated with 
public involvement for the revision of the Coronado National Forest 
Land Management Plan, scheduled for completion in 2009. Public 
workshops have been held in local communities, including one held last 
week in Rio Rico, Arizona, to engage the public in describing their 
future resource goals for the Coronado National Forest. Part of the 
process is to complete a Wilderness Needs Assessment, which analyzes 
all Forest lands to determine which areas meet the criteria for 
wilderness recommendation. The Administration would prefer to engage 
the public through this planning process to help determine which areas 
of the Coronado National Forest merit recommendation for wilderness 
designation.
    In summary, the Administration believes that much of the area 
proposed for wilderness designation by H.R. 3287 merits consideration 
for wilderness recommendation using criteria established by the 
Wilderness Act. However, we have concerns that other areas, primarily 
at the edges of the proposed wilderness are either not consistent with 
wilderness criteria, or present difficult management situations that 
may change at a future time. In addition, we prefer to engage in the 
public planning process as a means of recommending wilderness for 
designation. We would like to work with the bill's sponsors and the 
Subcommittee to discuss areas of agreement and concern.
H.R. 3513, Copper Salmon Wilderness Act
    H.R. 3513 would designate approximately 13,700 acres of the Rogue 
River-Siskiyou National Forest as wilderness and designate segments of 
the North and South Forks of the Elk River as additions to the existing 
Elk Wild and Scenic River.
    The Department supports this bill, but requests some important 
adjustments to the wilderness boundary. These adjustments would provide 
for better separation of motorized use from the wilderness, allow for 
road maintenance activities within road clearing limits (such as ditch 
cleaning and culvert and bridge maintenance), as well as to accommodate 
treatments of plantations that would improve forest health and habitat 
diversity while increasing firefighter safety.
    The wilderness proposal comprises 13,700 acres of rugged forested 
land surrounding Copper Mountain, Barklow Mountain, and Salmon Mountain 
adjacent to the Grassy Knob Wilderness. It contains vast stands of 
Douglas fir and relatively rare native Port Orford cedar trees. About 
ten percent of the proposed wilderness area is designated in the 
Siskiyou National Forest Plan as a ``Supplemental Resource Area'', 
considered highly productive habitat for wildlife and fish, critical 
for the maintenance of watershed condition, and with special recreation 
values. Lands within the proposed wilderness are primarily allocated as 
Late Successional Reserves (LSR) under the Northwest Forest Plan. LSRs 
are designed to serve as habitat for old growth-related species. This 
LSR allocation includes 2,267 acres of previously managed overstocked 
Douglas fir plantations.
    Using perimeter forest roads as the boundary designation as in H.R. 
3513 would likely lead to unintended incursions of motorized vehicles 
and mechanized equipment into the wilderness. In addition most of the 
plantations adjacent to forest roads that comprise a portion of the 
wilderness boundary (about 1,000 acres) were included in the Coastal 
Healthy Forest Environmental Analysis signed in 2007. Treatment of 
these stands would improve habitat conditions for fish and wildlife, 
reduce effects from insects and disease, and provide defensible space 
for firefighters in the event of a wildfire, consistent with their 
allocation as Late Successional Reserve (LSRs). Wilderness designation 
would preclude this treatment.
    The proposed wilderness includes about nine miles of designated 
roads. All but two of those road miles are currently closed to 
vehicular traffic; however, these roads are highly engineered up steep 
slopes, with significant cuts and fills, culverts, and other 
constructed features. If the area is designated as wilderness, the 
forest would consider converting some of these roads into hiking and 
equestrian trails to improve access, but most would require 
decommissioning to protect water quality and fisheries resource values. 
This would require significant investment to remove culverts and 
contour the land to reduce erosion.
    The Department would like to work with the bill's sponsor and the 
committee to offset the wilderness boundary inward along perimeter 
roads to implement planned treatments within a reasonable distance of 
the road, provide for routine road maintenance, and to decrease the 
likelihood of incompatible motorized use in wilderness. We also request 
that the bill include the date of the map referencing the intended 
wilderness configuration.
    The bill would designate segments of the North and South Forks of 
the Elk River as additions to the existing Elk Wild and Scenic River. 
The Rogue River-Siskiyou National Forest completed an extensive wild 
and scenic river inventory and, while both tributaries are free-
flowing, neither was judged to have an outstandingly remarkable value. 
Nevertheless, in recognition of the value of managing the Elk River as 
a system that contributes to one of the most important and valuable 
runs of anadromous fish in coastal Oregon, the Department does not 
oppose the proposed additions in this bill. We would like to work with 
the bill's sponsor on several minor corrections to the description of 
the Elk Wild and Scenic River.
H.R. 3682, California Desert and Mountain Heritage Act
    The Department of Agriculture supports H.R. 3682, if amended.
    H.R. 3682 would create two new wildernesses on the San Bernardino 
National Forest, and add additional acreage to existing designated 
wilderness on the Cleveland and San Bernardino National Forests. It 
would also designate stretches of four rivers on the San Bernardino 
National Forest as components of the National Wild and Scenic Rivers 
System. This bill would also expand the boundaries of the Santa Rosa 
and San Jacinto Mountains National Monument.
    There are discrepancies between the proposed wilderness 
designations in bill, and the revisions to the forest plans for 
Southern California forests (Forest Plan), the Record of Decision for 
which was published in the Federal Register on April 21, 2006. 
Discrepancies also exist between the proposed designations under the 
Wild and Scenic Rivers Act and the Forest Plan.
    During the revision process, most of these proposed wilderness 
designations were determined not to meet criteria for wilderness 
suitability. The areas were found unsuitable because of current or 
potential uses that would conflict with wilderness designation such as 
reduction of hazardous fuels (mechanical treatments and prescribed 
burning), elements of fire management (including Burned Area Emergency 
Response--BAER treatments), current recreational uses (e.g., mountain 
bikes), grazing improvement maintenance, existing protections (Research 
Natural Area), external influences and the availability of nearby 
wilderness.
    For example, the portion of the Agua Tibia Wilderness addition in 
the Cleveland National Forest that would be designated by the bill is 
not the same as the area of National Forest recommended for wilderness 
designation in the Forest Plan. We support the addition of the parcel 
that was recommended in the Forest Plan. We defer to the Bureau of Land 
Management (BLM) for its part of this proposal.
    The Cahuilla Mountain Proposed Wilderness in the San Bernardino 
National Forest also was found not to meet Forest Service wilderness 
criteria during the Forest Plan revision process. We continue to 
support the Forest Plan's final recommendation, developed with public 
involvement. Therefore, we do not support this proposed addition.
    Section 104(f)(2) of the bill contains provisions related to access 
and use of the Cahuilla Mountain Wilderness by members of an Indian 
tribe for traditional cultural and religious purposes, including 
temporarily closing areas to the general public for use by members of 
an Indian tribe. The Department supports and encourages providing 
access to tribes consistent with PL 95-341 (also known as the American 
Indian Religious Freedom Act) but we do not support the provision in 
the bill. To that end, the Forest Service has directives that allow for 
voluntary temporary closures to protect privacy for tribes in the 
conduct of traditional cultural activities. We would like to work with 
the bill's sponsor, the Subcommittee, and the Department of Justice to 
address these concerns.
    The proposed South Fork San Jacinto Wilderness on the San 
Bernardino National Forest was found not to meet the wilderness 
criteria during the revision process. The South Fork San Jacinto area 
is a combination of two inventoried roadless areas with the same issues 
as the Cahuilla proposal. We do not support this area to be designated 
as wilderness.
    Additionally, during the revision process thirteen acres of Cactus 
Springs were recommended as an addition to the Santa Rosa Wilderness. 
We support this 13-acre addition, and defer to the Bureau of Land 
Management for its portion of the addition.
    Although a suitability study has not been conducted for the four 
rivers that would be designated by the bill, we do not oppose their 
addition to the National Wild and Scenic Rivers System based on general 
support by the communities of interest and consistency of the 
designation with the management of the National Forest System lands 
within the river corridors. We wish, however, to work with the 
Committee to clarify river management and address differences between 
mileage and classifications in this bill and those in the Forest Plan.
    We fully support that portion of the expansion of the Santa Rosa 
and San Jacinto Mountains National Monument under National Forest 
management.
    Working with the Subcommittee, we are confident that we can remedy 
the inconsistencies this bill has with our California Forest Plan 
Revisions.
    This concludes my prepared statement and I would be pleased to 
answer any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Let me introduce Director Daly, Director of 
National Landscape Conservation System, BLM.

    STATEMENT OF ELEANA DALY, DIRECTOR, NATIONAL LANDSCAPE 
CONSERVATION SYSTEM, BUREAU OF LAND MANAGEMENT, U.S. DEPARTMENT 
     OF THE INTERIOR, ACCOMPANIED BY RICK POTTS, CHIEF OF 
   CONSERVATION AND OUTDOOR RECREATION, NATIONAL PARK SERVICE

    Ms. Daly. Thank you, Mr. Chairman. And thank you for 
inviting the Department of the Interior to testify on a number 
of wilderness bills before the Subcommittee. I am accompanied 
by Rick Potts, Chief of Conservation and Outdoor Recreation for 
the National Park Service. Rick will join me at the table to 
answer any questions on issues related specifically to the 
National Park Service.
    The Department of the Interior strongly supports 
congressional efforts to resolve wilderness designations 
throughout the West, and we welcome this opportunity to further 
those efforts. Only Congress can determine whether to designate 
wilderness study areas as wilderness or release them for other 
multiple uses. We support the resolution of WSA issues and 
stand ready to work with Members of Congress toward this goal.
    The Department of the Interior supports H.R. 2632, a bill 
designating 19,880 acres of BLM-managed land in northwestern 
New Mexico as the Sabinoso Wilderness area. The Sabinoso area 
provides a rugged and dramatic landscape. The proposal has the 
support of both the New Mexico house of representatives and San 
Miguel County, New Mexico. We would like the opportunity to 
work with Congressman Udall and the Subcommittee to resolve a 
few technical errors on the map referenced in the legislation, 
which we prepared at Congressman Udall's request.
    Ms. Daly. H.R. 3682, the California Desert and Mountain 
Heritage Act, designates wilderness throughout Riverside 
County, California, on lands managed by the BLM, the National 
Park Service and the Forest Service. It also expands the Santa 
Rosa and San Jacinto Mountains National Monument.
    The Department of the Interior supports H.R. 3682 as it 
applies to BLM and NPS designations, but would like the 
opportunity to work with the Subcommittee on a number of 
clarifications. We defer to the Department of Agriculture on 
those designations for Forest Service managed lands. Title I 
designates four new wilderness areas, Beauty Mountain and Pinto 
Mountains Wilderness to be managed by the BLM, and expands six 
existing wilderness areas.
    The expansions will improve manageability, protect 
important resource values and improve dispersed recreational 
opportunities. These expanded wilderness designations are 
possible now because of the acquisitions of land by the BLM and 
changes in on-the-ground conditions.
    Within the boundary of Joshua Tree National Park Section 
105(f) of H.R. 3682 designates as wilderness 36,800 acres of 
land which are owned by the National Park Service and are 
appropriate for wilderness designation.
    Section 103 designates as potential wilderness 
approximately 43,100 acres of land along the park's 
southwestern boundary where about one-third of the acreage is 
still in private ownership. While we recognize the Congress' 
authority to designate this area as potential wilderness, we 
would like to work with the sponsor and the Subcommittee to 
further clarify some ambiguities in this section.
    Finally, Title III of H.R. 3682 expands the boundaries of 
the Santa Rosa and San Jacinto Mountains National Monument by 
approximately 8,360 acres designating 2,990 of those acres as 
wilderness inside the monument.
    H.R. 3682 is the result of a multi-year process undertaken 
by Congresswoman Bono and other members of the California 
congressional delegation. This public process included engaging 
elected officials, interest groups, local communities and the 
affected land managing agencies. We appreciate these efforts, 
as we believe that local input and consensus building are 
essential ingredients to successful wilderness bills.
    Ms. Daly. The Department of the Interior cannot support 
H.R. 2334 Rocky Mountain National Park Wilderness and Indian 
Peaks Wilderness Expansion Act unless amended to address 
National Park Service concerns regarding the provisions related 
to the Grand River Ditch, as fully described in the written 
testimony.
    H.R. 2334 would designate 249,339 acres, approximately 95 
percent of the Rocky Mountain National Park's acreage, as 
wilderness. Almost all of these lands were originally 
recommended for wilderness designation by President Nixon and 
are currently managed as wilderness. In addition, H.R. 2334 
would exclude lands occupied by the Grand River Ditch from 
wilderness, change the liability standard for future damage to 
park resources resulting from operation and maintenance of the 
ditch and enable the Water Supply and Storage Company to 
convert its Grand River Ditch water rights to other uses.
    The Department cannot support H.R. 2334 unless it is 
amended to address these concerns.
    Thank you for the opportunity to testify. I will be happy 
to answer any questions.
    Mr. Grijalva. Thank you.
    [The prepared statement of Ms. Daly follows:]

  Statement of Elena Daly, Director, National Landscape Conservation 
   System, Bureau of Land Management, U.S. Department of the Interior

    Thank you for inviting me to testify on H.R. 2632, the Sabinoso 
Wilderness Act, H.R. 3682, the California Desert and Mountain Heritage 
Act, and H.R. 2334, Rocky Mountain National Park Wilderness and Indian 
Peaks Wilderness Expansion Act. The Department strongly supports 
Congressional efforts to resolve wilderness designations throughout the 
West, and we welcome this opportunity to further those efforts. Only 
Congress can determine whether to designate Wilderness Study Areas 
(WSAs) as wilderness or release them for other multiple uses. We 
support the resolution of WSA issues and stand ready to work with 
Members of Congress toward this goal.
H.R. 2632, Sabinoso Wilderness Act
    The Department of the Interior supports H.R. 2632, a bill 
designating 19,880 acres of BLM-managed land in northwestern New Mexico 
as the Sabinoso Wilderness area. The Sabinoso area provides a rugged 
and dramatic landscape. Deep sinuous canyons are interspersed with 
flat-topped mesas in an area that has changed little over the last 
several hundred years. While there is both archaeological and 
historical evidence of sporadic human visitation, the rough nature of 
the terrain has discouraged all but the hardiest. Today, the canyons 
and mesas are home to mule deer, elk, mountain lion, and wild turkey. 
Golden eagles and turkey vultures soar off the thermals rising from 
sandstone canyon walls.
    The BLM is currently working with the state on a land exchange 
which would result in the acquisition of state land inholdings within 
the proposed wilderness. This process should be completed within a 
year. We also are in discussions with private landowners in the area 
about acquiring either conservation easements or fee title of some of 
the private inholdings. The BLM only explores such options from willing 
landowners.
    Congressman Udall has worked with the local community to reach 
consensus on the proposed designation. The New Mexico House of 
Representatives and San Miguel County, New Mexico have passed 
resolutions in support of wilderness designation of Sabinoso. We would 
like the opportunity to work with Congressman Udall and the 
subcommittee to resolve a few technical errors on the map referenced in 
the legislation, which we prepared at Congressman Udall's request.
H.R. 3682, California Desert and Mountain Heritage Act
    H.R. 3682 designates wilderness throughout Riverside County, 
California on lands managed by the BLM, National Park Service (NPS) and 
Forest Service. It also expands the BLM and Forest Service-managed 
Santa Rosa and San Jacinto Mountains National Monument (designated by 
Public Law 106-351) as well as designates a number of Wild and Scenic 
rivers under the management of the Forest Service. The Department of 
the Interior supports H.R. 3682 as it applies to BLM and NPS 
designations but would like the opportunity to work with the 
subcommittee on a number of clarifications, including acreage and 
mapping adjustments. We defer to the Department of Agriculture on those 
designations on National Forest System lands.
    H.R. 3682, as introduced, includes acreage numbers that do not 
match area descriptions or the maps provided to the sponsors by the 
Department. We are working with the sponsor and the subcommittee to 
make appropriate corrections. Our discussions of the bill in this 
testimony will reflect the updated acreage numbers.
    Title I designates four new wilderness areas: Beauty Mountain and 
Pinto Mountains Wilderness to be managed by the BLM as well as Cahuilla 
Mountain and South Fork San Jacinto Wilderness to be managed by the 
Forest Service.
    The proposed new Beauty Mountain Wilderness would cover over 15,000 
acres of BLM-managed lands. It is one of the last undeveloped areas in 
the region; numerous outside groups recognize both its significance as 
open space and the important resource values of Beauty Mountain. We 
should note that the boundary for Beauty Mountain is arbitrarily set at 
the Riverside County line. The second new BLM wilderness area, Pinto 
Mountains wilderness, lies just to the north of the National Park 
Service's Joshua Tree National Park and wilderness. Much has changed in 
these areas during the last 15 years. In 1994, the California Desert 
Protection Act changed the management landscape in the entire 
California desert. That same year, much of the area was designated as 
critical habitat for the threatened desert tortoise. This area is 
important habitat for the desert bighorn sheep. Many inholdings have 
been acquired by the State, private groups, or BLM that made this area 
more manageable and enhanced their wilderness characteristics. Far 
fewer mining claims exist in the area than were there15 years ago. 
These areas are currently primarily non-motorized.
    In addition, Title I expands six existing wilderness areas that 
were designated under Public Law 103-433 the California Desert 
Protection Act and earlier wilderness bills: Agua Tibia, Orocopia 
Mountains, Palen/McCoy, and Chuckwalla Mountains Wilderness managed by 
the BLM; Joshua Tree National Park Wilderness managed by NPS; and 
additions to the Santa Rosa Wilderness within Santa Rosa and San 
Jacinto Mountains National Monument managed by both the BLM and the 
Forest Service. The expansions, which will improve manageability, 
protect important resource values and improve dispersed recreational 
opportunities, range from a mere 500-acre addition to the existing Agua 
Tibia Wilderness to a large 23,000-acre addition to the Palen/McCoy 
Wilderness. Other additions include 5,000 acres to the Orocopia 
Mountains Wilderness and 13,000 acres to the Chuckwalla Mountains 
Wilderness. These expanded wilderness designations are possible now 
because of acquisitions of land by the BLM and changes in on-the-ground 
conditions that have occurred since the original wilderness 
designations.
    Within the boundary of Joshua Tree National Park, section 102(f) of 
H.R. 3682 designates 36,800 acres of land in non-contiguous parcels as 
wilderness. All of these lands are wilderness quality. Of these acres, 
about 8,400 acres were designated only as potential wilderness as part 
of the original wilderness designation for Joshua Tree National Park in 
1976 (Public Law 94-567), because they were privately owned or used for 
non-wilderness purposes. The lands now are owned by the National Park 
Service and are appropriate for wilderness designation. Another 28,400 
acres, owned by the National Park Service, are located in a roadless 
area west of the Cottonwood Entrance. A draft study conducted by the 
National Park Service supports wilderness designation for these lands.
    Section 103 of H.R. 3682 designates as potential wilderness 
approximately 43,100 acres of land along the park's southwestern 
boundary. This area is physically inaccessible and has no available 
water source. As such, the park already is managing this area as 
wilderness. About one-third of the acreage is in private ownership, and 
the National Park Service has been working to acquire these lands with 
donated funds, on a willing-seller basis. While we recognize the 
Congress' authority to designate this area as potential wilderness, we 
would like to work with the sponsor and the subcommittee to further 
clarify some ambiguities in this section.
    Finally, Title III of H.R. 3682 expands the boundary of the Santa 
Rosa and San Jacinto Mountains National Monument by approximately 8,360 
acres, designating 2,990 of those acres as wilderness inside the 
monument. Santa Rosa and San Jacinto Mountains National Monument was 
originally designated by Public Law 106-351. Since then, the 
communities, agencies, and other interested members of the public in 
the Coachella Valley have strongly embraced the Monument and take great 
pride in their many achievements towards making the Monument a success 
story. The Santa Rosa and San Jacinto Mountains National Monument 
Advisory Committee fully participated in the development of a 
management plan that is now in the implementation phase. We support 
this proposed expansion, which would enhance manageability of the 
monument and expand protection of important habitat for the endangered 
Peninsular bighorn sheep.
    H.R. 3682 is a result of a multi-year process undertaken by 
Congresswoman Bono and other members of the California Congressional 
delegation. This public process included engaging elected officials, 
interest groups, local communities, and the affected land managing 
agencies. We appreciate these efforts as we believe that local input 
and consensus-building are essential ingredients to successful 
wilderness bills. As this bill moves forward, we look forward to the 
opportunity to work with the Committee on the corrections and 
amendments discussed in this testimony and to ensure that the maps most 
accurately reflect the intended boundaries.
H.R. 2334, Rocky Mountain National Park Wilderness and Indian Peaks 
        Wilderness Expansion Act
    The Department of the Interior cannot support H.R. 2334 unless 
amended to address our concerns regarding the provisions related to the 
Grand River Ditch as described in this testimony. The Department 
presented the same position in testimony on S. 1380, an identical bill, 
at a hearing held before the Senate Subcommittee on National Parks on 
July 12, 2007. The Department also testified in support of a similar 
bill, S. 1510, at a hearing held before the Senate Subcommittee on 
National Parks on April 6, 2006. That bill did not contain the Grand 
River Ditch provisions. We defer to the U.S. Department of Agriculture 
on lands affecting the U.S. Forest Service.
    H.R. 2334 would designate approximately 249,339 acres of Rocky 
Mountain National Park's backcountry in the National Wilderness 
Preservation System. This represents approximately 95% of the park's 
total acreage, lands that currently are managed as wilderness. In 
addition, H.R. 2334 would exclude lands occupied by the Grand River 
Ditch from wilderness, change the liability standard for future damage 
to park resources resulting from operation and maintenance of the 
ditch, enable the Water Supply and Storage Company to convert its Grand 
River Ditch water rights to other uses, make adjustments to the Indian 
Peaks Wilderness and Arapaho National Recreation Area, both 
administered by the U.S. Forest Service, and give the National Park 
Service (NPS) the authority to lease the Lieffer tract.
    In 1964, Congress designated Rocky Mountain National Park as a 
wilderness study area. In 1974, President Nixon recommended to Congress 
239,835 acres for immediate designation and 5,169 acres for potential 
designation as wilderness in the park. The increased acreage amount 
included in H.R. 2334 is based on modifications brought about by land 
acquisition and boundary adjustments since 1974.
    Present road, water, and utility corridors, and all developed 
areas, are excluded from recommended wilderness. Wilderness designation 
would not alter any current visitor activities or access within the 
park, and would allow visitors to utilize the park in the same ways and 
locations that they presently enjoy.
    Federal reserved water rights for park purposes are not an issue 
related to wilderness designation as water rights for the park have 
been adjudicated through the State of Colorado water courts. 
Consequently, no water rights claims for wilderness purposes are needed 
or desired by the NPS.
    After holding public meetings on the proposed designation in June 
2005, the gateway communities of Estes Park and Grand Lake, and the 
counties of Grand and Larimer, endorsed wilderness designation for 
Rocky Mountain National Park, subject to specific boundary 
modifications on the west boundary of the park. These modifications, 
which have been incorporated in H.R. 2334, would provide an area of 
non-wilderness around the Town of Grand Lake in order to ensure that 
the park could continue to actively manage hazardous fuels and other 
uses that might affect the Town. The proposed modifications would also 
reserve a corridor along the east shore of Shadow Mountain and Granby 
reservoirs for the possible construction of a non-motorized hike/bike 
trail, which would be subject to normal NPS planning processes 
including analysis under the National Environmental Policy Act.
    In addition to excluding lands occupied by the Grand River Ditch 
from wilderness, H.R. 2334 would allow for a change in the liability 
standard for future damage to park resources resulting from operation 
and maintenance of the ditch, as long as the ditch is operated and 
maintained in accordance with an operations and maintenance agreement 
between the NPS and the ditch's owners. This provision would alter the 
protections to park resources under the Park System Resource Protection 
Act (16 U.S.C. 19jj) which holds any person who causes injury to park 
resources liable to the United States for response costs and damages, 
except in certain circumstances such as an act of God or actions by a 
third party.
    In 1907, and again in 2000, the owners of the ditch, the Water 
Supply and Storage Company, agreed to a stipulation, in return for a 
valuable right-of-way across public land and a stipulated water rights 
agreement, that requires them to pay the United States for any and all 
damage sustained by use of the right-of-way regardless of the cause and 
circumstances.
    Altering these protections to a more lenient negligence standard 
for the Grand River Ditch, as proposed by H.R. 2334, could have serious 
implications for future damage causing events resulting from the 
operation of the Grand Ditch within park boundaries. Changing that 
standard to a general liability standard would require the NPS to 
expend scarce financial resources to prove negligence. In cases where 
negligence could not be proven, the United States would pay for 
response and repair costs associated with damage caused by operation of 
the ditch. This could set a dangerous precedent for all national parks 
and other public lands with implications far beyond the boundaries of 
Rocky Mountain National Park. Also, to retroactively change the 1907 
stipulation would negate a century-old agreement that the ditch's 
owners have twice agreed to in exchange for valuable consideration it 
has received, the right-of-way itself and the 2000 stipulated water 
rights agreement.
    As proposed in H.R. 2334, an operations and maintenance plan for 
the ditch is clearly needed. However, it must be comprehensive in scope 
and enforceable and should not be tied to a change in the liability 
standard for the ditch. We believe that an effective plan must contain 
provisions that reduce the risk of catastrophic failure of the ditch 
(as occurred in 2003) that could injure park visitors and staff and 
harm critical park resources. The plan should also establish clear 
expectations regarding maintenance and operational issues that impact 
park operations. Such a plan, if fully implemented by the operators of 
the ditch, should reduce the likelihood of future breaches or damage 
causing events, which we believe is in the interest of all parties and 
should negate the perceived need for a change in liability protection 
for the park.
    H.R. 2334 also proposes to grant an exemption to the Water Supply 
and Storage Company from the requirement in its original right-of-way 
grant that the primary purpose of the ditch is for irrigation or 
drainage. This proposed change would enable the Company to convert its 
Grand River Ditch water rights to other uses, such as municipal use, 
without risking forfeiture of the ditch right-of-way, which could 
represent a significant increase in the value of the water rights for 
the shareholders of the Water Supply and Storage Company.
    The provisions of H.R. 2334 related to the Grand Ditch go beyond 
ensuring that ditch operations are not affected by the designation of 
wilderness and grant the owners of the ditch significant privileges and 
exemptions from existing law and prior agreements with the United 
States and a potential windfall by allowing a change in use of the 
water. We would be happy to work with the Committee on amendments to 
the bill to address our concerns related to the operations of the Grand 
Ditch.
    Finally, H.R. 2334 would give the NPS the authority to lease the 
Lieffer tract. This 12 acre tract is located outside the boundary of 
Rocky Mountain National Park, was donated to the park, and lends itself 
to leasing to educational institutions or other similar entities.
Conclusion
    Thank you for the opportunity to testify. We support the efforts of 
Congress to resolve the wilderness issues. I will be happy to answer 
any questions.
                                 ______
                                 
    Mr. Grijalva. Let me begin with Mr. Holtrop for some of the 
comments in your testimony. I think, as you are aware, there 
are eight wilderness areas designated along the Canadian 
border, adjacent to three at that same proximity along the 
Mexican border, with five close, also, but not in direct 
proximity to the border.
    And I ask you that because, does H.R. 3287 allow the 
agencies to utilize the 2006 interagency memorandum of 
understanding for border enforcement activities?
    Mr. Holtrop. Yes, it does, specifically.
    Mr. Grijalva. And then the other part of the question is, 
does the Wilderness Act allow the Federal Government to take 
measures, such measures as required in emergencies involved in 
health and safety that could include motorized equipment, 
aircraft for law enforcement activity, as you understand it?
    Mr. Holtrop. Are you asking, does the Wilderness Act 
specifically allow for that?
    Mr. Grijalva. Yes.
    Mr. Holtrop. The Wilderness Act does allow for the use of 
those types of activities in an emergency situation. The intent 
of both the memorandum of understanding that the act, and that 
you referred to, has to do with--we take specific coordination 
actions with the Border Patrol to assure that whatever actions 
they take have the appropriate resource protection. And there 
are some additional resource protection activities that we 
carry out in those areas that are designated wilderness.
    Mr. Grijalva. That, and I believe the ultimate waiver that 
the Secretary of Homeland Security has--we can debate whether 
that waiver should be as expansive as it is, but it is law now, 
the ultimate waiver that they have over any public land, 
including wilderness, to waive all other kinds of requirements 
that might be in place, including the memorandum of 
understanding. Am I correct in that?
    Mr. Holtrop. That is my understanding, as well, which--of 
course, we very much appreciate our relationship with Border 
Patrol, so that we generally operate under the memorandum of 
understanding.
    But what you are asking is exactly the reason that we have 
some concern with designating this as wilderness.
    A wilderness test is a very special designation, and it 
ought to be special and it ought to be a different area if 
there is so much activity going on that diminishes that 
character. That is what the concern is about.
    Mr. Grijalva. I bring it up because since the designation, 
I believe, in 1984 in the Pajarita Wilderness Area and then the 
memorandum that went in place at Pajarita and any future 
wilderness area designations along, I assume, both borders--am 
I correct that it is both borders?
    Mr. Holtrop. Yes.
    Mr. Grijalva.--that is an applicable tool that is available 
right now, if I am not mistaken, both to Border Patrol, to 
ensure that all enforcement activities are carried out?
    Mr. Holtrop. Yes. Again, they have the authority to use 
whatever means are necessary to carry out their 
responsibilities. They have agreed with us to do so--with us 
and the Department of the Interior to do so under the terms of 
the memorandum of understanding.
    Mr. Grijalva. And that involves any cooperative national 
security, counterterrorism on Federal lands and U.S. borders? 
It is extensive?
    Mr. Holtrop. That is correct.
    Mr. Grijalva. Thank you.
    Ms. Daly, just a couple of quick questions, if I may.
    One of the issues that came up on H.R. 3632, would you 
comment on the claim that wilderness designations do not allow 
any mechanized vehicles in the area, going as far as including 
wheelchairs.
    Ms. Daly. No, sir. In fact, I have some very specific 
policy quotes on that for you. There are instances where 
mechanized vehicles may be used in wilderness areas, and 
wheelchairs are an excellent example. At 43 CFR 630 217, it 
states, quote, ``If you have a disability that requires the use 
of a wheelchair, you may use a wheelchair in a wilderness,'' 
unquote.
    Additionally, the Americans with Disabilities Act, section 
5007(c) states, quote, ``Nothing in the Wilderness Act is to be 
construed as prohibiting the use of a wheelchair in a 
wilderness area by an individual whose disability requires the 
use of a wheelchair,'' and that includes mechanized 
wheelchairs.
    Mr. Grijalva. Thank you. And what about the claim that 
wilderness designations negatively impact the West's ability to 
fight and prevent forest fires. Is that an accurate statement 
or a claim?
    Mr. Holtrop. No, sir. Actually, for BLM, we interpret the 
Wilderness Act to allow for mechanized and motorized use in 
fighting wildfire and for fuels management in some cases. Those 
decisions are made by our State director, so they can be made 
immediately at the local level; and we are particularly 
interested in using those tools where property or life are in 
danger.
    An example is a fire that--well, it was August of 2006, a 
little over a year ago, in the San Gorgonio Wilderness where 
two fires merged into one rather large conflagration. And BLM 
authorized the California Department of Forestry and Fire to 
use bulldozers to create a 7-mile firebreak within the 
wilderness.
    Mr. Grijalva. Thank you.
    And I went a little over my time. Maybe if we have a second 
round, I have a couple other questions.
    With that, Mr. Bishop.
    Mr. Bishop. I am sure we are going to go through a couple 
of rounds. Let me start with Ms. Daly, then, on a couple of 
bills for which you made a comment. Can I start with Tom 
Udall's bill first?
    You are talking there about, you are currently working with 
the State on a land exchange that would deal with State land 
inholdings as well as with private landholders for inholdings.
    How much area is included in both of those?
    Ms. Daly. I can give you the exact. State land is--I 
believe it is--2,990 is the State land; and the private 
inholdings, about 9,000.
    Mr. Bishop. Acres?
    Ms. Daly. Acres.
    Mr. Bishop. Congressman Udall had a good rough estimate of 
how many private property owners have inholdings. Do you have a 
specific number?
    Ms. Daly. We believe it is nine, sir.
    Mr. Bishop. Nine? OK.
    You say in here that there are clarifications, including 
the acreage and mapping adjustments, and the acreage numbers do 
not match the area descriptions. Is that merely a technical 
issue or a technical problem, or is that substantive?
    Ms. Daly. The acreage differential results from an 
acquisition by BLM about 10 years ago, as well as the inclusion 
of a special management area to the north and west of the 
Sabinoso. It is very similar terrain, very typical of the area. 
And so the inclusion in that raises the acreage number.
    Mr. Bishop. I'm sorry, I was actually on a different bill. 
But it is a good answer to that question.
    Ms. Daly. I am so glad you are pleased, sir.
    Mr. Bishop. Let me stick with Tom's, and this is the last 
one on his particular bill.
    On your Web site, you call this particular wilderness study 
area 15,000 acres, but you are supporting a bill that 
designates 20,000 acres in wilderness.
    Can you explain the acreage difference between those two 
numbers?
    Ms. Daly. That is the Sabinoso?
    Mr. Bishop. Yes.
    Ms. Daly. It was the acquisition from a private landholder 
about 10 years ago.
    Mr. Bishop. Of 5,000 acres.
    Ms. Daly. I am not sure what the acreage was.
    Mr. Bishop. Well, that is the difference.
    Ms. Daly. OK. That and the inclusion of a special 
management area. It is the two factors that result in that 
difference.
    Mr. Bishop. Let me leave his bill alone and let me go, if I 
could, now to perhaps the one in Mrs. Bono's bill.
    That was the one specifically where you say in your 
testimony that there is a difference between the number of 
acreage--the acreage numbers do not match area descriptions. Is 
that technical or not?
    Ms. Daly. That is a technical issue.
    Mr. Bishop. You also said that in Section 103 you wanted to 
work with this committee to clarify some ambiguities. What are 
those ambiguities?
    Mr. Potts. Sir, I will answer that. This is Rick Potts from 
the National Park Service.
    That would be the Joshua Tree National Park. The 
ambiguities that we refer to, we would like a little more 
guidance as to the intent of that language. For instance, there 
is a clause that says when we acquire a sufficient acreage from 
willing sellers or donors to manage the area, to make 
management of the area practicable as wilderness, I think we 
would like to dial that down just a little bit more because if 
it gets designated as potential wilderness, then, as you know, 
the final step of converting potential to fully designated 
doesn't involve any additional public input. It is merely a 
publish of notification in the Federal Register.
    We want to make sure our public is comfortable, so we would 
like perhaps a threshold or a trigger, some guidance language, 
in that passage.
    Mr. Bishop. Are there other ambiguities you want to 
address?
    Mr. Potts. That would be the main one at this time.
    Mr. Bishop. That is the only one?
    Mr. Potts. That is the main one at this time I can think 
of, sir.
    Mr. Bishop. So there are others?
    Mr. Potts. I will double-check that and will get back to 
you.
    Mr. Bishop. Thank you. With the way some of these bills 
rush through here to the Floor, I hope you do it before they 
actually move the bill forward, but that would be a good one.
    Let me get off that one with you, for example, and let us 
go to the other Congressman Udall's bill at the same time. Am I 
reading your testimony correctly that you support this, except 
for the provisions of the Grand River Ditch that the two 
Senators spoke about?
    Ms. Daly. Yes.
    Mr. Bishop. So it is solely prohibited on granting 
liability protection to this historic ditch?
    Ms. Daly. Yes.
    Mr. Bishop. There is one issue with this park that you did 
not address, and that is the elk overpopulation problem. Would 
the status of this issue and the wilderness designation either 
help or hinder your efforts to return that herd into a healthy 
number?
    Mr. Potts. Your question again is in reference to the Rocky 
Mountain National Park?
    Mr. Bishop. Yes, the Rocky Mountain now.
    Mr. Potts. The Elk and Vegetation Management Plan that is 
being drafted is currently in the Department of the Interior 
for review. We expect that review will be completed and that 
plan will come back out so the designation of wilderness will 
not affect the implementation of that plan.
    Mr. Bishop. Are you planning on having vehicles permitted 
to help cull the herd?
    Mr. Potts. That hasn't been determined.
    Mr. Bishop. Is it part of the discussion?
    Mr. Potts. The access that currently exists on the main 
roads in Rocky Mountain National Park would continue to exist.
    Mr. Bishop. Can you give me any of the details of part of 
the Elk Management Plan?
    Mr. Potts. Not at this time.
    Mr. Bishop. It is being discussed, though? That will be 
part of the written request that we make for the details of 
that plan, the Elk Management Plan?
    Mr. Potts. I would be more than happy to supply that to you 
if you don't already have it.
    Mr. Bishop. I have run out of time. Let me go on to some of 
the others.
    Mr. Grijalva. Thank you.
    Mr. Mark Udall.
    Mr. Mark Udall. Thank you, Mr. Chairman. I neglected 
earlier when you yielded me some time to ask unanimous consent 
that my initial statement could be included in the record.
    Mr. Grijalva. Without objection.
    [The prepared statement of Mr. Mark Udall follows:]

  Statement of The Honorable Mark Udall, a Representative in Congress 
                from the State of Colorado, on H.R. 2334

    Thank you, Mr. Chairman, and thank you for holding this hearing on 
my bill to designate most of Rocky Mountain National Park as 
wilderness.
    The Subcommittee is also taking testimony on four other bills, and 
we will be hearing from quite a few witnesses. So, I don't want to 
delay proceedings with a long statement about our bill.
    I am very pleased that we will be hearing from both of Colorado's 
Senators, who are cosponsors of the identical Senate bill introduced by 
Senator Salazar.
    The House bill is cosponsored by Representative Musgrave, and will 
designate as wilderness about 94 percent of the park, including Longs 
Peaks and other mountain areas, while allowing continued use of the 
existing roads and buildings in the developed areas and without 
affecting any privately owned land.
    We have included a provision--requested by Grand County, the Town 
of Grand Lake, and others--to maintain the ability of the National Park 
Service to decide whether to authorize construction of a mountain bike 
route along the west edge of the park. Another provision would give the 
Service authority to lease an 11-acre tract outside the park 
boundaries, which they would like to be able to do.
    And we would add 1,000 National Forest acres to the existing Indian 
Peaks Wilderness by redesignating lands now managed as part of the 
Arapaho National Recreation Area, which is also managed by the Forest 
Service.
    The bill includes explicit language to make clear that it will not 
create any new federal water rights, because the park already has 
extensive federal reserved water rights and because its location 
astride the continental divide means there's no possibility of any 
diversion of water upstream of the park.
    Finally, the bill has provisions related to the Grand River Ditch, 
which was dug before the park was established and which is partly 
located within the park. They have been included in order to give the 
ditch's owners a strong incentive to reach an agreement with the 
National Park Service about how the ditch will be operated and 
maintained in the future. We will hear about this from Dennis Harmon, 
the general manager of the Water Supply and Storage Company, as well as 
from the Administration.
    In short, Mr. Chairman, the bill will protect some of our nation's 
finest wild lands. It will protect existing rights. It will not limit 
any existing opportunity for new water development. It is bipartisan 
and reflects long consultation with all the interested parties in 
Colorado. I commend it to the Subcommittee, and look forward to hearing 
from our witnesses.
                                 ______
                                 
    Mr. Mark Udall. Thank you.
    Ms. Daly, if I could turn to you, and if Mr. Potts needs to 
chime in as well, that is more than appropriate. I, of course, 
want to focus on the situation of the ditch because that is the 
last important element in making a historic step to provide for 
wilderness status for this significant amount of acreage in the 
park.
    In your statement, you say an operations and maintenance 
plan for the ditch is clearly needed. Is the Park Service 
currently trying to reach such an agreement with the Water 
Supply and Storage Company, and if so what is the status of 
those talks.
    Mr. Potts. Yes, sir, allow me to answer, please.
    Yes, the National Park Service's staff, superintendent's 
staff for Rocky Mountain National Park have been in regular 
dialogue with the company. A draft operations and maintenance 
plan for the ditch has been done.
    It was sent to the park for their review. The park reviewed 
it and sent it back with comments on October 19th, I believe 
about 4 weeks ago, and is waiting the reply from the ditch 
company.
    We also submitted some best management practices and some 
examples of similar operations and management plans that were 
furnished to us by the Bureau of Reclamation.
    Mr. Mark Udall. What do you perceive as the sticking points 
at this stage?
    Mr. Potts. I won't speak for the ditch company. From our 
concerns, it is the appearance of establishing what is likely a 
national precedent that would weaken the current standard in 
place for protection of park resources that was established 
under the Park System Resource Protection Act.
    Mr. Mark Udall. If I could follow that line of questioning 
and comment, the statement presented today says that an 
agreement, if it was fully implemented, should reduce the 
likelihood of future breaches or damage-causing events and that 
this should negate the perceived need for a change in liability 
protection for the park.
    The way I read your statement, the Park Service's 
statement, today you are saying that if there is an agreement, 
that ditch's owners and operators will no longer need to worry 
about the risk of absolute liability.
    But isn't that what the bill says, that if the owners and 
operators reach an agreement and it is fully implemented that 
their current worries will be reduced?
    Mr. Potts. We believe the worries can be reduced on all 
sides, and remembering, I am sure as we all do, that we are 
dealing with world class resource here. And it is in everyone's 
best interest to do our very best to make sure that that 
resource is preserved for all time, as you, I am sure, as much 
as anyone, or more, is aware of.
    Our main concern is that the level of liability expressed 
in the bill--as we interpret it, anyway--would drop it down 
below the current threshold that is in place nationwide in 
every other unit of the National Park system that was 
established in the Park System Resource Protection Act.
    Mr. Mark Udall. I would note for the record that the bill 
does just apply to Rocky Mountain National Park, which is, I 
think, an important note, given the precedent-creating concerns 
that you have expressed.
    Let me speak a little bit more, if I could, Mr. Potts, to 
the liability provisions. Again, the statement in the testimony 
shared with us today states, ``Liability provision of the bill 
would require the NPS to expend scarce financial resources to 
prove negligence.''
    If so, couldn't this be addressed in the agreement perhaps 
by requiring a bond or through some other financial agreement?
    Has the Service suggested anything along these lines?
    Mr. Potts. I believe that is perhaps one of the options 
that is being discussed between the park's superintendent and 
the owners of the ditch.
    Mr. Mark Udall. Let me move to incentives here.
    One purpose of the part of the bill we are discussing is to 
provide an incentive for the ditch's owners to reach an 
agreement with the park system and to abide by that agreement. 
But your statement indicated, the way I read it, that the 
administration wants to remove that incentive; and wouldn't--if 
you do that, wouldn't it make it harder to reach an agreement 
with the ditch company leadership?
    Mr. Potts. We believe that everyone has been negotiating in 
a good-faith effort to reach an equitable agreement. We do have 
an agreement in place with the ditch company. It has been in 
place for over 100 years. They have agreed twice and reaffirmed 
to a level of absolute liability. We have--in an effort to 
present a fair and equitable assignment of liability to this 
company, the same as we do to any other entity across the 
Nation, we are willing to discuss lowering their current level 
of liability from an absolute level down to the level found 
that is defined in 19jj of the Park System Resources Protection 
Act. We believe that still provides strong incentive.
    Mr. Mark Udall. If you would be willing, Mr. Chairman, if 
you will indulge me for a few more minutes. Because I think 
this is very important, the legislation that we are 
considering.
    Distinguish between those two approaches when it comes to 
these liability provisions.
    Mr. Potts. Yes, sir. I would be happy to.
    The Park System Resources Protection Act is a civil act, 
not criminal. We don't have to demonstrate negligence on the 
part of the company if it is--if they cause damage to the 
resources of the national park system, they are liable for that 
damage, and it is not a--it is no accusation of negligence.
    Mr. Mark Udall. How is that different from the current 
level?
    Mr. Potts. The current level of agreement is an absolute 
liability regardless of the cause, including act of God. The 
ditch company is liable. This would, in fact, lower that, 
because the Park System Resource Protection Act gives it 
several defenses if the action is caused by a third party or an 
act of God.
    Mr. Mark Udall. So it is just an act-of-God defense that 
you are talking about in the one liability provision?
    Mr. Potts. And third party.
    Mr. Mark Udall. Mr. Chairman, thank you for indulging my 
line of questioning here.
    I just want to underline that, of course, the Chairman has 
made it clear he wants to see an agreement. It was very clear 
that the Colorado delegation is united. And this is a historic 
opportunity, and I want to weigh in once again to urge both the 
Park Service and the ditch company to continue to move as 
expeditiously as possible to find the sweet spot here. Because 
we know it is there; and certainly the citizens of Colorado are 
very, very inspired about the possibility of setting aside this 
crown jewel of our public land system in Colorado as wilderness 
so that we preserve its perpetuity.
    Mr. Grijalva. Thank you.
    Mr. Tom Udall.
    Mr. Tom Udall. Thank you, Mr. Chairman, and thank you both 
for your testimony today.
    Mrs. Daly, I want to thank you for your hard work on this, 
on the Sabinoso Wilderness study area, and also an overall 
thanks to the BLM for their work in terms of identifying 
wilderness study.
    You, obviously, over the years have gone through a lengthy 
process, and have worked very hard to find these special areas 
and get them designated, and it is really long overdue that 
Congress now begins to weigh in and start actually getting to 
the step of taking wilderness study and creating wilderness. So 
thank you for that.
    On the issue that my good friend, Mr. Bishop, has raised of 
whether landowners are included and did they know about this, I 
would just like to further add and supplement my testimony by 
saying, to the best of my knowledge, in visiting with my staff, 
all of the landowners have been contacted by the BLM and the 
New Mexico Wilderness Alliance, and all of them are supportive 
of this legislation.
    So with that, Mr. Chairman, I would yield back any time; 
and I would thank both of you for, once again, hearing this 
bill again today.
    Mr. Grijalva. Thank you.
    Just a couple of quick questions.
    Mr. Holtrop, regarding H.R. 3682, I think you expressed 
concerns about the maintenance of existing grazing improvements 
that conflicts with the wilderness designation. Is it true then 
that the Wilderness Act didn't--previous reports from this 
committee and Ms. Bono's bill all protect existing grazing 
operations and existing improvements on that land?
    Mr. Holtrop. The existing grazing permits are allowed to 
continue in designated wilderness.
    Mr. Grijalva. And improvements that ranchers, the permittee 
hold of improvements that they might have made for whether it 
is livestock or other--those are----
    Mr. Holtrop. Generally, those are allowed to continue as 
well. The difference, once it has been designated wilderness, 
is mechanized access to or mechanized means for maintenance is 
only allowed if a minimum dual analysis says that that is the 
correct way to go.
    Mr. Grijalva. And in H.R. 3513, Mr. Holtrop, reiterate for 
us, of the roads contained in this proposed wilderness area, 
how many of them are currently closed to vehicular travel or 
use?
    Mr. Holtrop. This is the Copper Salmon Wilderness in 
Oregon. As I recall, in that wilderness there are currently 
nine miles of road existing in the Copper Salmon proposed 
wilderness in which two remain open, two miles remain open.
    Mr. Grijalva. And I was--Ms. Daly or Mr. Potts, I am going 
to ask you about a law that relates to the previous 
conversation we were having, a law that passed in the 101st 
Congress that gave the National Park Service additional 
authority to take legal action against those who damage park 
resources.
    Would you please describe the liability standard in the 
National Park Resource Protection Act, which I understand you 
referred to as 19jj, and talk about how that differs from the 
liability standard being discussed in H.R. 2334?
    Mr. Potts. The liability standard that was established on 
the Park Protection Act--Park Resource Protection Act called 
19jj was that any damage, any harm caused to resources of the 
National Park Service are--the causer of the damage would be 
held--can be held liable regardless of the cause. There are 
several exceptions, and the ones we were just talking about 
were an act of God and the third party causing the damage.
    The way that differs from the current--the absolute 
standard that the ditch company currently has with Rocky 
Mountain National Park that has been in place since 1907, that 
is an absolute standard.
    Mr. Grijalva. OK.
    Mr. Bishop.
    Mr. Bishop. Mr. Holtrop, I didn't get a chance to talk to 
you in the last round. Let me try to come here again.
    In two of these bills, both the one in California as well 
as the one in Arizona, there is a great deal of discussion as 
far as fire potential that is there. Do you have any figures as 
to allegedly how many fires have been caused by humans in the 
Arizona portion by illegal activity in that particular area?
    Mr. Holtrop. In the year just concluded in Fiscal Year 2007 
on the Nogales ranger district, which is one of the two ranger 
districts in that area, there were 20 human-caused fires in 
that area; and, of those 20, 9 of them were determined to be 
caused by undocumented illegal immigrants.
    Mr. Bishop. Does the Forest Service use mechanized or 
motorized units to respond to those?
    Mr. Holtrop. If the fire occurs in wilderness, because not 
of all of those fires were in wilderness. But so, obviously, if 
it is not in wilderness, then mechanized equipment is--if it is 
accessible to mechanized equipment, we would. In wilderness, we 
would do so only if in an emergency it was determined that that 
was necessary.
    We--as much as possible, we want to allow natural causes, 
natural events to occur in wilderness.
    Now a human-caused fire is not considered to be a natural 
cause. So we are going to do what we can to put it out. But, at 
the same time, if we can do so using nonmechanized means and be 
effective, we would choose to do that in wilderness.
    Mr. Bishop. But in the California bill that we have before 
us, it authorizes the use of mechanical and mechanized 
equipment for activities that are preventive. Does that run 
askew of the concepts that we have had with wilderness in the 
past?
    Mr. Holtrop. In general, it does, in my opinion.
    There is a distinction to be made between an emergency 
situation in which we are treating a fire that is already 
occurring and preventative measures, which is what your 
question was referring. There are some exceptions in which, 
again, in an emergency activity, natural activity such as an 
insect and disease outbreak or something like that that 
increases the fire danger in an area in which there is 
particular concern, could perhaps create a situation where we 
would need to take some action in wilderness in a preventative 
way.
    But, in general, our overriding influence in wilderness is 
allowing natural processes to occur and if--and, again, so the 
fact that this bill would give us the authority to carry out 
treatments in advance of fire occurring, that is a unique 
circumstance that we have not dealt with in the past in the 
Forest Service.
    Mr. Bishop. How many acres of wilderness has the Forest 
Service--and BLM does this, too--has the Service or BLM 
mechanically treated to thin hazardous fuels like in the past 
year, maybe the past 5 years?
    Mr. Holtrop. I am not aware of any in the Forest Service.
    Mr. Bishop. Ms. Daly, in the BLM?
    Ms. Daly. I have to get that information for you, sir. I am 
not aware of any at the current moment.
    Mr. Bishop. Let me stick in the area, Mr. Holtrop, in the 
California bill in the first place, your testimony is you 
support wilderness where wilderness ought to be and this area 
perhaps exceeds some of that as well. How many total acres of 
proposed wilderness in the California builders and Forest 
Service believe should not be designated as wilderness?
    Mr. Holtrop. I don't have the exact acreage figures 
memorized, but it is the additions to the Agua Tibia Wilderness 
we do support and a portion of the Santa Rosa Wilderness we do 
support. The others are inconsistent with our forest plan 
direction which is largely generated because of concerns with 
fire protection around communities.
    Mr. Bishop. What types of current recreational uses take 
place in proposed wilderness areas?
    Mr. Holtrop. In general, or are you referring to one or the 
other bills at this point?
    Mr. Bishop. I am sticking with California right now.
    Mr. Holtrop. Generally those, of course, would be dispersed 
forms of recreation such as hiking, hunting, and some climbing, 
mountain climbing.
    Mr. Bishop. What about mountain biking?
    Mr. Holtrop. If it is designated wilderness, mountain 
biking is not allowed.
    Mr. Bishop. Are some of those--are mountain biking 
activities being done in some of this land right now that it 
would be prohibited?
    Mr. Holtrop. Yes.
    Mr. Bishop. The bill also talks about transmission lines 
and talks about basically grandfathering existing lines. What 
does this bill do to new lines or to upgrades, which I 
understand they are presently doing, upgrading of current 
lines? How would this bill impact that transmission authority?
    Mr. Holtrop. And--I am sorry--are you still asking about 
the California bill or----
    Mr. Bishop. California, yes. Grandfathers in transmission 
lines. Those are existing lines. What does it do about new 
lines or if you want to upgrade current existing lines?
    Mr. Holtrop. I am not aware of the relationship between 
this legislation and new lines or upgrading those lines. I 
would have to research that for you and get back to you later.
    Mr. Bishop. OK. It recommends new wild and scenic rivers, 
but the suitability study has not yet been done. How long do 
those suitability studies normally take?
    Mr. Holtrop. Suitability studies depend on various factors, 
but they can generally be done in a few years' period of time.
    We have taken a position that we are not opposed to this, 
despite the fact that the suitability studies have not been 
done. We know they are eligible, which means they are free 
flowing and have outstanding remarkable values. And given the 
general support of the community and the bipartisan nature of 
the support on Capitol Hill, we are not opposed to this 
designation.
    Mr. Bishop. I am out of time. So let me yield to the 
others. I do have more questions. I told you we have a lot of 
bills here in front of us.
    Mr. Grijalva. Thank you.
    Mr. Mark Udall.
    Mr. Mark Udall. Mr. Chairman, I have no further questions 
at this time.
    Mr. Grijalva. If I may, Mr. Holtrop, just a quick follow-up 
on fire causes.
    Mr. Holtrop. Yes, sir.
    Mr. Grijalva. The Nogales ranger sectors is not just the 
proposed designation wilderness?
    Mr. Holtrop. That is correct.
    Mr. Grijalva. The figure you gave me is for the whole 
sector.
    Mr. Holtrop. It is for the entire ranger district. That is 
correct.
    Mr. Grijalva. And in the proposed wilderness area, the 
highlands, of that figure of 22, how many in there?
    Mr. Holtrop. I don't believe there were any.
    Mr. Grijalva. Thank you.
    And I think there was a 2005 environmental impact statement 
on the management plans for four southern California national 
forests. The agency stated, the notion that wilderness 
designation makes fire suppression more difficult and 
restrictive is not based on fact.
    Director Daly, your reaction to that statement, that it 
does?
    Ms. Daly. That was the Forest Service study, sir?
    Mr. Grijalva. Environmental impact study.
    Ms. Daly. I think you want--I would feel inadequate to 
comment on the Forest Service study.
    Mr. Holtrop. So your question is how do I react to?
    Mr. Grijalva. How do you react to that designation of a 
wilderness area would make fire suppression more difficult and 
restrictive, the conclusion is that that claim is not based on 
fact. Your reaction to that?
    Mr. Holtrop. Well, I believe that, again, wilderness 
designation--we take wilderness designation seriously; and, as 
much as possible, we are going to allow natural forces to play 
out in wilderness. We would take a look at--in an emergency 
situation, we are allowed to make exceptions to that. There are 
processes that we and I believe the Department of the Interior 
and agencies are also very good at being able to accomplish 
those processes in a very short period of time, as Ms. Daly's 
answer to the one question referred to being able to get 
approval to use a bulldozer in wilderness to fight fire. That 
is--those types of situations occur on national forest system 
lands when necessary as well, and there are some process steps 
that need to be gone through.
    But, again, we would choose to only do that as a matter of 
last resort.
    Mr. Grijalva. I am just trying to reconcile that. You know, 
this committee has gone on record twice as expressly approving 
the use of mechanized equipment, the building of fire roads, 
fire towers, firebreaks, or any fire pre-suppression facilities 
where necessary and other techniques for fire control. And, you 
know, according to House Report 95540, anything necessary--and 
I quote--for the protection of public health and safety is 
clearly permissible.
    I am reconciling that that latitude exists. If I am wrong 
in that assumption, I need to be corrected.
    Mr. Holtrop.
    Mr. Holtrop. I am not in any way, shape, or form wanting to 
correct you on that. I am only meaning--in fact, you are 
correct that that latitude exists.
    What I am trying to point out is that we also are going to 
weigh the wilderness values that are at stake as well and when 
we make those decisions.
    Mr. Grijalva. And in your professional capacity in the 
stewards, you should. But what I am reconciling is that the 
latitude exists and if an agency chooses to use it, given the 
circumstance that there was no other restrictive clause in the 
wilderness designation that would prevent you from doing that. 
That is the only point I am reconciling.
    Mr. Bishop, any additional questions?
    Mr. Bishop. Yes, I do. I apologize. We have a lot of bills 
here. We haven't even touched Oregon yet.
    Let me go back to Arizona. You have presently in the area 
that is designated for wilderness have five endangered species, 
four threatened species, that you are managing in that area. 
Does your management plan change under wilderness designation?
    Mr. Holtrop. Generally, no, not for the management of 
threatened and endangered species unless, again, there is some 
aspect of that management that requires mechanized equipment 
use. I am not aware of that for any of those species.
    Mr. Bishop. Same thing also happens when you have at least 
eight active rate allotments in assessment range improvements 
within a proposed area that requires occasional maintenance, 
including tanks, water wells, water catch gates, fences.
    When I created the wilderness in Utah, one of our efforts 
was to try to exclude those areas so that they could be 
maintained. What happens if this becomes designated to those 
wilderness elements?
    Mr. Holtrop. If those elements are within the designated 
wilderness, the access to them then has to be by a 
nonmechanized means.
    Mr. Bishop. In some cases, that may work. In many cases, it 
wouldn't.
    We talked very briefly about the memo understanding you 
have with border enforcement. What happens--is there any way of 
changing that memo understanding once this has been changed 
into wilderness areas? Is there any way of making a new or 
amended one? What happens to that memo of understanding?
    Mr. Holtrop. The memo of understanding would continue to 
exist, because it already refers to existing wilderness that 
the Pajarita Wilderness--the existing portion of the Pajarita 
Wilderness is adjacent to the Mexico border, so it has 
already--the MOU already deals with management activities for 
the border patrol within wilderness. The MOU would then also 
apply to any new wilderness that would be designated.
    Mr. Bishop. What about if you wanted to amend that MOU?
    Mr. Holtrop. It is a three-party MOU between the 
Departments of the Interior, Agriculture and Department of 
Homeland Security.
    Mr. Bishop. So would a new wilderness designation make it 
change in that MOU or make it more difficult at any time?
    Mr. Holtrop. It would not require a change in the MOU. It 
may--what--and I can't speak for the Department of Homeland 
Security or the Border Patrol on this, but my understanding is 
there are some concerns over the additional difficulties of 
carrying out their operations within designated wilderness. But 
our concern--the Forest Service concern is our ability to carry 
out our resource management activities.
    Mr. Bishop. So it wouldn't have an impact on you. It may on 
some other sites.
    Mr. Holtrop. Yes.
    Mr. Bishop. You had some objections to the cherry stems in 
this one. Would you just kind of tell me what you meant by 
that?
    Mr. Holtrop. The----
    Mr. Bishop. Extensive use of cherry stems to exclude 
designated roads, travel ways was the language in your 
testimony.
    Mr. Holtrop. There are several roads that are inside the 
area of the Tumacacori Highlands proposed wilderness, and the 
way the legislation is written is those roads are excluded by 
drawing what we call cherry stems of nonwilderness around those 
roads that allow those to continue.
    Our concern with the cherry stem roads is that--are a 
couple. One is, in some cases, those roads do not have public 
access and only have access for the permittees who have 
improvements at the end range--permittees at the end of some of 
those roads.
    In some cases, those roads would provide means for people 
to leave the road and use mechanized equipment in the 
designated wilderness, and it would be difficult for us to 
manage that; and it has the additional detrimental effect of 
reducing the solitude that is one of the characteristics that 
we like to--we designate and manage wilderness for.
    So our suggestion is to find ways to adjust the boundary of 
the wilderness so that the roads are excluded in a more 
substantial way than just through the cherry stemming.
    Mr. Bishop. Let me run up to Oregon with you.
    You said you had support of the bill with important 
adjustments. Approximately how many acres would you recommend 
be removed from this Copper Salmon Wilderness bill?
    Mr. Holtrop. I don't have an acreage figure. What our 
suggestion is for the Copper Salmon Wilderness is some of the 
boundaries are defined as roads that currently are adjacent to 
the boundary. We are suggesting that an offset from that road 
inside into what would be otherwise designated as wilderness be 
nonwilderness for various reasons. And depending on the width 
of that offset, the acreage figure would change. Whether it is 
a couple hundred feet, whether it is several hundred feet, it 
would change the acreage figure.
    The reason we would ask for that--I think one very 
important reason is the ability for us to maintain the roads. 
This is steep mountain country with lots of hydrologic 
situations that we may have to replace ditches, we may have to 
replace culverts and have to move the roads inside in a manner 
that would be the most conducive to doing so in protecting the 
water resources. And if it is designated wilderness immediately 
adjacent to the road, we are not able to move the road inside 
of the wilderness, of course. So by having some offset is what 
we are looking for.
    Mr. Bishop. If you have 11 miles of road, I am assuming 
interior roads as well here, 92 culverts in these areas, are 
they going to have to be removed in a wilderness designation?
    Mr. Holtrop. If it were designated wilderness, we would 
have to take a look at those on a case-by-case basis. Some of 
those roads----
    Mr. Bishop. Could you remove the culvert with a mechanized 
means?
    Mr. Holtrop. What we would choose to do is do a minimum 
tool analysis. If a culvert needed to be moved, and some of 
them would certainly need to be removed, we would do a minimum 
tool analysis; and if that minimum tool analysis told us we 
needed to use a mechanized means to accomplish that, that is 
what we would choose to do.
    Mr. Bishop. You have 20 percent of this land that is being 
proposed up in Oregon that has already been harvested which 
doesn't necessarily meet the 1964 definition of the law. You 
also have communication towers all over the place. It doesn't 
meet the definition of the law. Most of this is what is called 
late successional reserves. For what purpose do you have--do 
you propose having land that is a late successional reserve?
    Mr. Holtrop. The purpose of the late successional reserves 
in the Northwest Forest Plan is to provide habitat for species 
that are dependent upon late successional forest types, such as 
the spotted owl.
    Mr. Bishop. If you have densely planted acreage where you 
have very thin, tall trees, does that adapt itself easily to 
habitat for these species, or do you need to have bigger trees 
with more areas so they can actually have leaves to live in or 
branches and crap to live in?
    Mr. Holtrop. Generally, in those areas, thinning of those 
types of stands would allow those stands to grow up into a 
larger late successional reserve type of situation that would 
meet the objectives more quickly than others.
    However, large--late successional reserves, there is large 
acreages associated with those; and treating all of the acres 
is not going to be something that would happen. But that very 
question that you are asking is another one of the reasons of 
some offset from the road would be beneficial to us.
    Mr. Bishop. One last one.
    We talked about the interior roads within Oregon that would 
have to be removed. In the Arizona proposal, there are also 
interior roads within the wilderness that are being presently 
used by border patrols. Would they have to be removed as well?
    Mr. Holtrop. I think there are probably three sets of 
circumstances that might occur in that. One is, if it has been 
excluded from the wilderness through the cherry stemming, they 
would not need to be removed. If they are roads that exist in 
the wilderness, we would close them for public use and we would 
make a decision through the MOU process with the border patrol 
as to whether they were needed for their purposes.
    Mr. Bishop. Thank you, and I will quit my questioning of 
this panel, Mr. Chairman. I apologize for going over time, but 
I have got--when you give me five bills of these kinds of 
magnitude, it is hard to try to get them all in, in a short 
period of time.
    Mr. Grijalva. Thank you, Mr. Bishop.
    Mr. Holtrop, before I thank you and Director Daly and Mr. 
Potts for being here today and providing information, in the 
Tumacacori, the point of those cherry stems is to provide 
access for ranchers and border patrol. And those roads for 
ranchers and border patrol are nonsystem roads, and they 
shouldn't be open to the public, but they should be accessible 
and used consistent with the MOU and consistent with the 
permittees that have the gracing permits on that land.
    But, with that, let me thank you and appreciate your----
    Mr. Holtrop. Mr. Chairman, if I could correct a 
misstatement that I made earlier--and I apologize for this. I 
have been informed that there were two human-caused fires in 
the proposed Tumacacori Highlands in 2007, rather than the zero 
that I mentioned earlier.
    Mr. Grijalva. And a lot better than the 22.
    Let me call up the next panel. Thank you very much.
    Let me welcome our next panel and in particular welcome Ms. 
Carol Cullen from the district, District 7 of southern Arizona; 
Mr. Max Skroch, also from the district; and Mr. Mark South from 
Rio Rico, also from the district.
    Welcome. I know it is a long way to come, but we appreciate 
it.
    Mr. Grijalva. Let me begin with Ms. Cullen, Executive 
Director, Tubac, Arizona, Chamber of Commerce. Thank you.

        STATEMENT OF CAROL CULLEN, EXECUTIVE DIRECTOR, 
              TUBAC, ARIZONA, CHAMBER OF COMMERCE

    Ms. Cullen. Mr. Chairman, members of the committee, good 
afternoon; and thank you for the opportunity to be heard today 
on this important matter before you.
    My name is Carol Cullen, and I am a resident of Tubac, 
Arizona. My family has been in Arizona for five generations. In 
fact, at the turn of the last century, my grandfather, Jack 
McVey, homesteaded Las Jarillas Ranch in southern Arizona, just 
south of Arivaca and just west of the Tumacacori Highlands.
    Today, I have the privilege of speaking to you as the 
Executive Director of the Tubac Chamber of Commerce. I am happy 
to be here today to tell you a little bit about the wonderful 
town of Tubac and to ask you to support H.R. 3287, the 
Tumacacori Highlands Wilderness Act of 2007.
    Tubac is a small town in southern Arizona. Its location is 
about an hour's drive south of Tucson. We are the closest 
community to the Tumacacori Highlands.
    Looking back historically, Tubac began in 1752. Over the 
next two centuries, Tubac waxed and waned, a victim of frontier 
hardships, mining's boom and bust economies and other factors.
    Today, Tubac is a thriving village. Over 100 businesses 
line our streets, almost every one locally owned and operated. 
Tubac has become a center of art and history. Tubac has 
developed into a thriving, successful 21st century western town 
because we are blessed with a beautiful and healthy natural 
landscape.
    Many of us are fortunate to see the Tumacacori Highlands 
from our kitchen window or front porch every single day. When 
we can get away from the obligations of running our businesses, 
we enjoy a walk or a hike in the Tumacacori Highlands or 
showing off the area to visiting friends and family on a drive 
down the historic rustic Ruby Road.
    Having an enduring resource of beautiful landscapes nearby 
is very valuable to us. In fact, it puts the ``quality'' in our 
quality of life. And it is good for business.
    Most everyone understand that tourists spend money in the 
local communities they visit, but there is more to this story. 
Economic studies have highlighted the connection between 
protected wild land and the economic prosperity of rural 
communities in the West. A 2005 study demonstrated that wild 
public lands, such as the Tumacacori Highlands, draw people who 
want to live and work in rural areas. This, in turn, leads to 
vibrant economies, higher-paying jobs and better quality of 
life for everyone. In Tubac, we know firsthand the truth of 
these studies.
    The Tubac Chamber of Commerce is engaged in all activities 
relating to the perpetuation, preservation and promotion of 
Tubac. That is our mission. In 2005, the Tubac Chamber of 
Commerce unanimously adopted a resolution of support for 
Federal legislation to protect the Tumacacori Highlands as 
wilderness. Mr. Chairman, I have that resolution of support 
from the Tubac Chamber of Commerce; and, with your permission, 
I would like to have it entered into the record.
    Mr. Grijalva. Without objection. Thank you.
    [NOTE: The resolution submitted for the record has been 
retained in the Committee's official files.]
    Ms. Cullen. When the Chamber was considering the wilderness 
proposal, we saw that a large majority of our member businesses 
had already expressed their support as individual business 
owners. As the elected leaders in the business community, that 
spoke to us.
    We recognized the connection between desirable and 
sustainable economic development and a high-quality natural 
environment. We see environmental conservation as an economic 
and business concern for Tubac. Protected healthy landscapes, 
wilderness areas are a competitive advantage for rural towns 
like Tubac; and protect we must.
    Southern Arizona is growing rapidly. We are having growing 
pains. Where we still have intact and healthy landscapes like 
the Tumacacori Highlands, we must take action to give them the 
additional protections that wilderness designation provides.
    On behalf of the Tubac Chamber of Commerce and as an 
Arizonian, I ask that you help us with this effort. I ask that 
you pass H.R. 3287 and designate the Tumacacori Highlands as 
wilderness. It is good for the land. It is good for business. 
It is good for Arizona.
    Thank you for the opportunity to present this testimony.
    Mr. Grijalva. Thank you very much.
    [The prepared statement of Ms. Cullen follows:]

            Statement of Carol Cullen, Executive Director, 
                       Tubac Chamber of Commerce

    Mr. Chairman, Members of the Committee: good afternoon, and thank 
you for the opportunity to be heard today on this important matter 
before you.
    My name is Carol Cullen, and I am a resident of Tubac, Arizona. My 
family has been in Arizona for 5 generations. In fact, at the turn of 
the last century, my grandfather, Jack McVey, homesteaded Las Jarillas 
Ranch in Southern Arizona--just south of Arivaca and just west of the 
Tumacacori Highlands.
    Today, I have the privilege of speaking to you as the Executive 
Director of the Tubac Chamber of Commerce. I am happy to be here today 
to tell you a little about the wonderful town of Tubac, and to ask you 
to support HR3287, the Tumacacori Highlands Wilderness Bill of 2007.
    Tubac is a small town in southern Arizona, about an hour south of 
Tucson, in Santa Cruz County, named for the Santa Cruz River. Tubac 
began as a Spanish presidio, or fort, in the wilderness, in 1752, when 
its population was 41 souls. By 1848, Tubac had grown to 250 people as 
a frontier and mining town. By 1859, shortly after becoming part of the 
United States of America with the Gadsden Purchase of 1853, Tubac was 
home to 800 people--one-sixth the population of Arizona. When soldiers 
were withdrawn from the Fort to fight in the Civil War, raids by 
Apaches dramatically decreased the population of Tubac and Santa Cruz 
County. In 1871, the publication ``Arizona Miner'' reported the 
population of Tubac to be 1. In 1908, there are reports that Tubac was 
deserted--victim of frontier hardships, the bust cycle of mining's 
boom-and-bust economy, and the movement of people to the city of 
Tucson.
    I'm telling you this history because today Tubac is a thriving 
village of over 1500 souls. Over 100 businesses line our meandering 
streets--almost every one locally-owned and operated. An Artists' 
School opened in 1948, and since that time Tubac has become a center of 
art and history. In fact, part of the original town site has been 
placed in the National Register of Historic Places. The first Tubac 
Festival of the Arts was held in 1959--it continues to be a large 
annual celebration today. The Tubac Presidio State Historic Park was 
established in the same year, 1959, and the Museum in 1964. Our Tubac 
Center for the Arts opened in 1972. Today we host new residents and 
visitors from around Arizona and other states for festivals, getaways, 
and cultural, historical and artistic events year-round.
    Tubac has developed into a thriving, successful 21st century 
western town. This is due in large part because we are blessed with a 
beautiful and healthy natural landscape. We have jewels of the Coronado 
National Forest on both sides: the Mount Wrightson Wilderness to the 
east, and the proposed Tumacacori Highlands Wilderness to the west. 
Indeed, many residents of Tubac are fortunate to see both of these 
magnificent wilderness mountain ranges from their kitchen window or 
front porch every single day.
    It's why many of us came to Tubac in the first place and remain 
there today. We enjoy; we appreciate; we need the rural character of 
Tubac and Santa Cruz County in our daily lives. When we can get away 
from the obligations of running our businesses, many of us enjoy a walk 
or a hike in the Tumacacori Highlands, or showing off the area to 
visiting friends and family on a drive down the historic and rustic 
Ruby Road.
    Having the enduring resource of beautiful landscapes nearby is very 
valuable to us. It provides places for family outings. It affords 
opportunities for spiritual reflection and renewal. It puts ``quality'' 
in quality-of-life.
    And it's good for business. Protected healthy landscapes--
Wilderness areas--are a competitive advantage for small towns like 
Tubac, and our neighbors in Rio Rico, Arivaca, Green Valley, Nogales, 
Sahuarita, and Tucson. The West is changing--today's model of economic 
prosperity is based on attracting and retaining educated, 
entrepreneurial people who create value and wealth through 
nondestructive enterprises. Examples of this include software 
engineering, financial services, artist galleries and workshops, 
cultural and historic tourism, providing hospitality for tourists 
coming to enjoy wild Arizona--to hike, to camp, to hunt, to take 
photographs, to look for birds.
    ``To look for birds.'' It may sound silly to some, but it is one of 
the fastest-growing hobbies in America. In fact, wildlife watching 
provides a significant and sustainable source of revenue for local 
communities. The Arizona Game and Fish Department reports that in 2001 
the total economic effect from watchable wildlife activities in Arizona 
was $1.5 billion.[1] A University of Arizona study found that in Santa 
Cruz County alone, visitors to natural areas spent between $10 million 
and $16 million in one year just on associated travel and 
accommodations in the area.
    Most everyone understands that tourists spend money in the local 
communities they visit, whether it is in a restaurant, a hotel or bed-
and-breakfast, a sporting goods store, or an art gallery. But there is 
more to the story.
    Recent economic research studies have highlighted the connection 
between protected open space and wildlands and the economic prosperity 
of rural communities in the West.
    Economic research has uncovered a ``new paradigm for economic 
development in the West: protection of the wild and scenic character of 
the landscape and the quality of life in local communities serves as a 
magnet to attract and retain local people and their businesses.''[2]
    Indeed, through the 1990s, research shows that areas in the West 
with high levels of natural amenities correlate with rising income 
levels.[2] There have been more than a dozen studies quantifying the 
economic value of wilderness recreation and the other economic benefits 
that wilderness provides society.[3]
    Many of these studies reach similar conclusions: that economic 
development models that ignore the role of environmental amenities, 
ties to the land, sense of place, commitment to a landscape and culture 
may well misdirect public policy in ineffective ways. [4]. That ``an 
informed rural economic development strategy should have as one 
important element the protection of the natural environment.''[2] That 
``keeping a high-quality wild environment is a development 
strategy.''[3]
    The Tucson-based Sonoran Institute published a 2005 study 
demonstrating that protected, wild public lands--environmental 
amenities--such as the Tumacacori Highlands draw people who want to 
live and work in rural areas, which leads to vibrant economies, higher 
paying jobs, and better quality of life for everyone.
    What economists call ``environmental amenities'', in Tubac we call 
``the land,'' or ``the mountains,'' or ``the Tumacacori Highlands,'' or 
``wilderness.''
    In Tubac, we know first-hand the truth of these studies. We're the 
people these studies are talking about. We've moved to or remained in 
Tubac because of the surrounding environment and rural character of the 
area. And we brought with us or created through entrepreneurial effort 
the means to thrive and contribute to our community.
    The Tubac Chamber of Commerce is a non-profit business league 
engaged in all activities relating to the perpetuation, preservation, 
and promotion of Tubac, and its businesses; with particular attention 
given to the economic, civic, commercial, artistic, cultural, and 
historical interests of the area. It is our responsibility to advocate 
for public policies that will benefit the Village of Tubac, Santa Cruz 
County, and Southern Arizona.
    The Tubac Chamber of Commerce endorses the wilderness proposal 
because protecting our open space and wild places like the Tumacacori 
Highlands contributes directly to a high quality-of-life and is a key 
component in drawing local business patrons and tourists' dollars to 
the area. Many of the residents of Tubac are also business owners and 
Chamber members. We live in Tubac because it's naturally beautiful and 
our businesses are dependent on the tourism drawn by this beauty; we 
want to preserve that beauty and the natural rural character of the 
area.
    In 2005, the Tubac Chamber of Commerce unanimously adopted a 
Resolution of Support for Federal Legislation to Protect the Tumacacori 
Highlands as Wilderness. When the Chamber was considering the 
wilderness proposal, we saw that a large majority of our Member 
businesses had already expressed their support as individual business 
owners. As the elected leaders in the business community, that spoke to 
us.
    The Tubac Chamber of Commerce and its member businesses understand 
the values that protected open space and a healthy natural environment 
provide to residents, visitors, and businesses alike. We recognize the 
connection between desirable and sustainable economic development and a 
high-quality natural environment. We see environmental conservation--
protecting the special rural character of the valley and surrounding 
areas--as an economic and business concern for Tubac.
    And protect it we must. I would like to make this clear. Arizona is 
growing rapidly; Southern Arizona and the Santa Cruz River Valley are 
growing rapidly. In fact, we have the dubious honor of being neck-and-
neck with Phoenix and Las Vegas as the fastest-growing, fastest-
urbanizing part of the country. We're experiencing growing pains. The 
rapidly increasing urbanization pressures threaten the natural wild 
character and environment that makes the area special. Even on federal 
land, the actions of irresponsible or uninformed recreational users 
threaten the integrity of the land. Where we still have intact and 
healthy landscapes like the Tumacacori Highlands, we must take action 
to give them the additional protections that Wilderness designation 
provides.
    On behalf of the Tubac Chamber of Commerce, and as an Arizonan 
myself, I ask that you help us with this effort. I ask that you pass 
H.R. 3287 and designate the Tumacacori Highlands as Wilderness. It's 
good for the land; it's good for business; it's good for Arizona.
    Thank you for the opportunity to present this testimony.
References:
    1.  ``Economic Impact Analysis of Nonconsumptive Wildlife-Related 
Recreation in Arizona.'' Conducted for the Arizona Game and Fish 
Department by Southwick Associates, May 2003.
    2.  Rasker, R. and Hansen, A. 2000. Natural Amenities and 
Population Growth in the Greater Yellowstone Region. Human Ecology 
Review, Vol. 7, No. 2.
    3.  Loomis, John B. Economic Values of Wilderness Recreation and 
Passive Use: What We Think We Know at the Beginning of the 21st 
Century. USDA Forest Service Proceedings RMRS-P-15-VOL-2. 2000.
    4.  Rudzitis, Gundars. 2000. The Impact of Wilderness and Other 
Wildlands on Local Economies and regional Development Trends. USDA 
Forest Service Proceedings RMRS-P-15-VOL-2. 2000.
                                 ______
                                 
    Mr. Grijalva. I will introduce Mr. Matt Skroch, Executive 
Director, Sky Island Alliance.
    Mr. Skroch, your testimony, please.

         STATEMENT OF MATT SKROCH, EXECUTIVE DIRECTOR, 
                      SKY ISLAND ALLIANCE

    Mr. Skroch. Mr. Chairman, members of the committee, good 
afternoon, and thank you for the opportunity to speak with you 
today regarding H.R. 3287, the Tumacacori Highlands Wilderness 
Act of 2007.
    My name is Matt Skroch. I am the Executive Director of the 
Sky Island Alliance. We are a regionally based organization in 
southeastern Arizona that works with volunteers, government 
agencies, land counselors and the general public in our mission 
to protect and restore the magnificent natural heritage of the 
region in which we live.
    The Tumacacori Highlands incorporate three mountain 
complexes northwest in Nogales, Arizona. Home to the only 
resident jaguars known in the United States, they are comprised 
of deep and well-watered canyons, soaring lichen-drenched 
cliffs and rolling hills of subtropical oak savannahs. The 
mountains are largely influenced by subtropical regions to the 
south, hence hosting many additional species of wildlife found 
nowhere else in the Nation.
    The Tumacacori Highlands host the largest unprotected 
roadless area in Arizona's national forest lands. Together with 
the expansion of the small existing Pajarita Wilderness south 
of Ruby Road, this designation will ensure that it hits the 
fast-paced population growth in our region. The Tumacacori 
Highlands will remain in their wild state for generations to 
come.
    The wilderness idea was born 5 years ago by concerned local 
residents alarmed at the conversion of lands to development and 
the ever-growing presence of off-road vehicles.
    Congressman Grijalva listened to these concerns and 
responded affirmatively to the concept that we made it clear 
that it was a process that needed to be followed. That process 
involved public outreach in stakeholder collaboration. Lots of 
it, I might add.
    Over the last 4 years, we have presented the proposal to 
hundreds of organizations and thousands of individuals. With 
transparency and fair-mindedness, the proposal changed and 
changed again, based on feedback.
    It has been a pragmatic approach to land management that 
recognizes that, in a time of great change, some things should 
remain the same. Chairman Grijalva and members of the 
committee, that is exactly what this initiative strives to do 
for a small segment of lands on the forest.
    Access was a major issue. You will find that, after 
designation, the Tumacacori Highlands will be one of the most 
accessible wilderness areas in Arizona, hosting more than 100 
miles of motorized access points from all directions. This 
access-friendly priority is balanced with the protection of the 
roadless acreage and the core wild lands of the area, providing 
measured opportunities for motorized and nonmotorized uses 
alike.
    The continuance of cattle raising is also an important 
issue. We have worked collaboratively with the largest 
permittee in the area and found agreement in how we believe 
grazing and maintenance of facilities should be managed under 
the congressional grazing guidelines.
    Mr. Chairman, if I may, I would like to add that agreement 
into the record.
    Mr. Grijalva. Without objection.
    Mr. Skroch. Thank you.
    [NOTE: The agreement submitted for the record has been 
retained in the Committee's official files.]
    Mr. Skroch. The border is the third key issue.
    From the outset, proponents of this issue made it clear 
that wilderness should not interfere with law enforcement along 
the border. For those of us who live near the international 
line, border and immigration enforcement are facts of life, 
just as is our vigilance in working to solve the complex issues 
they raise.
    In wilderness areas, agencies have clarity on how to 
achieve operational success. We respect the policies the 
Department of Homeland Security has put into place 
collaboratively with land management agencies along the border.
    The 2006 agreement between the Department of Homeland 
Security, the Department of the Interior, and the Department of 
Agriculture, provides a detailed framework for border 
operations within wilderness areas.
    In closing, I am proud to say that H.R. 3287 enjoys a wide 
base of support in southern Arizona. Governor Napolitano, along 
with local and statewide editorial board support, from the 
Arizona Republic, the Tucson Citizen, the Nogales 
International, the Green Valley News support the Tumacacori 
Highlands Wilderness, though more impressive is the bill's 
grassroots' support from businesses to back-country hunters, 
scientists to homeowners' associations. This bill tells a story 
that reveals just how popular wilderness is in southern 
Arizona. It also speaks volumes as to why the Tumacacori 
Highlands deserve to be Arizona's next wilderness area.
    On behalf of the Sky Island Alliance and all of the 
supporters behind this initiative, I ask for your support of 
H.R. 3287. Thank you for the opportunity to present this 
testimony.
    Mr. Grijalva. Thank you.
    [The prepared statement of Mr. Skroch follows:]

             Statement of Matt Skroch, Executive Director, 
                   Sky Island Alliance, on H.R. 3287

    Chairman Grijalva, Members of the Committee and staff, thank you 
for the opportunity to testify today. My name is Matt Skroch. I am the 
Executive Director of the Sky Island Alliance, a regionally-based non-
profit organization dedicated to the conservation and restoration of 
the unique natural heritage of the Sky Island region of southwest North 
America. We are a membership-based organization, representing more than 
1,200 residents of southeastern Arizona, southwest New Mexico, or 
throughout the country.
    On behalf of Sky Island Alliance, I would like to thank Congressman 
Grijalva and his staff for the hard work that has gone into this 
legislation. Their process has been fair, and they have worked hard to 
listen to the concerns and recommendations from all interested parties.
    H.R. 3287 is a wilderness bill built upon nine years of local 
citizen efforts. It addresses the management of certain lands of the 
Coronado National Forest in Santa Cruz County, Arizona. This 
legislation represents a significant and worthy addition to the 
National Wilderness Preservation System and we ask for your support in 
passing this important measure.
    Allow me to begin with a history of the initiative that is before 
you today. Five years ago, a small group of landowners and concerned 
citizens met in the living room of Bill and Ellie Kurtz, good folks who 
have lived in the northern shadow of the Tumacacori Mountains for over 
thirty years. Bill, who worked as an exploration geologist, came to 
southern Arizona in 1952 and Ellie followed four years later. Most of 
the other folks at the meeting had also spent a considerable number of 
years living in and around the Tumacacori Highlands, collecting stories 
and memories from a time previous to Arizona's explosive growth. I had 
the pleasure of attending that meeting. Mostly, I listened to their 
stories. I heard about the mountain lion that harassed their horses, 
the big floods of 1983, and the various ranches that, over time, have 
been sold for development.
    My role at that meeting was to present the previous four years of 
work that Sky Island Alliance and other collaborating organizations had 
accomplished in the Tumacacori Highlands. Through extensive field 
assessments, volunteer weekends, aerial flyovers, historical research, 
and biological studies, we had prepared a draft analysis of the 
Tumacacori Ecological Management Area, a 300,000+ acre unit of the 
Coronado National Forest northwest of Nogales, Arizona. Included within 
this unit of federal land were several roadless areas, one of which 
stood as the largest unprotected roadless area on National Forest lands 
in Arizona. The question arose among the residents--how can we ensure 
that these lands remain untrammeled in perpetuity, free from the 
development we see around us and kept in a state of naturalness 
becoming more rare with each passing year? The idea of designating a 
portion of the Tumacacori Highlands as Wilderness was born.
    Wilderness here was not a new idea. In 1978, the Coronado National 
Forest identified Tumacacori unit 03-114 as ``a very large and very 
wild mountain range...known intimately by very few people and held to 
be the best hunting grounds in this part of the state.'' During the 
RARE II process that ensued, the Forest Service received 430 letters 
regarding the potential for Wilderness designation there. 399 of those 
letters--all personal correspondence excluding form letters--supported 
Wilderness. The sufficient acreage, outstanding views, rare biological 
characteristics, and overwhelming public support warranted the Forest 
Service recommendation in support of Wilderness, and throughout most of 
the review they did. Unfortunately at the last step in the RARE II 
analysis, the area was classified as ``Further Planning'' by the 
Regional Forester, who simply stated ``Little interest. Volume of 
public comment was low. Interest was evenly divided but local response 
favored non-wilderness.'' Explanation for the disconnect was never 
given, nor was there documentation for why the Tumacacori unit was 
listed as a Non-Wilderness recommendation in the Final Environmental 
Impact Statement. The Tumacacori Highlands were left behind, but not 
forgotten.
Characteristics of the Tumacacori Highlands
    Twenty years later in 1998, five years previous to the 
aforementioned meeting, Sky Island Alliance began a science-based 
review of the Coronado National Forest. Over the next five years, more 
than 1200 volunteers would donate their time photographing roads, 
helping scientists conduct biological surveys, and identifying 
important wildlife linkages between the isolated ``Sky Island'' 
mountain ranges that speckled the southeastern Arizona landscape.
    Home to more threatened and endangered species than any other 
Forest in the nation, the Coronado bridges the temperate Rocky 
Mountains to the tropical Sierra Madre, pulling from both 
biogeographies to create a continental meeting point unparalleled in 
biodiversity. The review we conducted along with former studies 
confirmed that among all of the splendid places in our nation, more 
mammal, reptile, bird, ant, and bee species occur in southeastern 
Arizona. We also discovered that of the eighteen mountain ranges in 
southeastern Arizona, the Tumacacori Highlands stood out as an 
unusually rich region.
    Formed by the convergence of three mountains, the Tumacacori 
Highlands encompass, from north to south, the Pajarito, Atascosa, and 
Tumacacori ranges. Characterized by deep and well-watered canyons, 
soaring lichen-drenched cliffs, and rolling hills of sub-tropical oak 
savannahs to the west, the Highlands represent an ecological niche 
extremely rare in the current National Wilderness Preservation System. 
Perhaps its rarest and most heralded quality is that only here 
scientists have confirmed resident jaguars living in the United States. 
With dozens of photographs of the cats spanning six years, the jaguar 
continues to roam the Highlands today. Needing large, unfragmented land 
left in its natural state, the jaguar is testament to the current 
conditions that make the Tumacacori Highlands an appropriate home for 
this magnificent cat. Other species of wildlife reinforce the quality 
of the land. The most intact breeding population of Chiricahua leopard 
frog, rare populations of Mexican vine snakes, and consistent sightings 
of gray hawks, five-stripped sparrows, elegant trogons, and Mexican 
opossum are just a few additional animals that reach their northern 
limit in the Tumacacori Highlands.
    The Tumacacori Highlands are more than good wildlife habitat. The 
mountains are cherished by the people of southern Arizona as well. 
Since 1933 when the fire lookout was constructed atop Atascosa Lookout, 
generations of families have enjoyed the moderate trek to one of 
southern Arizona's top rated scenic vistas. Walking about the wooden 
planks that surround the now-restored cabin, visitors enjoy 360 degree 
views of valleys and mountains in every direction. Looking down onto 
Bear Valley and the jagged tooth of Baboquivari Peak to the west, the 
expanse is of unbroken wildlands as far as the eye can see. For the 
more adventurous, the perennial waters in Peck Canyon or the towering 
cliffs in Pine and Beehive Canyons provide a level of solitude rarely 
found on the Coronado National Forest. Hunting is popular here. As one 
of the best white-tailed deer units in the state, sportsmen and women 
flock to the area in the fall hoping to find a place for their tag. 
Photographers, horse enthusiasts, botanists, and bird-watchers come to 
the Highlands for its wild country, beautiful views, and unlimited 
opportunities for exploration. The impetus for the initiative before 
you is designed precisely to ensure that these values remain long into 
the future.
Growth
    I suspect that most of the members of this committee have had 
occasion to visit Arizona. Still shaped by its majestic public lands, 
Arizona is defined more by its explosive population growth today. It is 
the fastest growing state in the nation, and any visitor who travels to 
Phoenix or Tucson will readily understand the phenomena taking place. 
Since the millennium, our population has increased by more than 20%. 
This rate is more than 300% of the national average. Regardless of the 
increased tax base, our cities, towns, and counties struggle to keep 
infrastructure and services on par with the breakneck growth.
    Our parks, forests, and other public lands have struggled as well. 
Visitor numbers have sky rocketed as land managers scramble to protect 
resources and balance recreation demands. Since 1998, the number of 
off-road vehicles in Arizona has increased 347% to more than a quarter 
million machines. At the same time, public demands for high quality 
recreational opportunities have increased as well. While thousands of 
miles of authorized or unauthorized routes and trails have appeared on 
public lands in the last decade, Wilderness acreage has not increased 
since the 1990 Arizona Desert Wilderness Act. On Forest Service lands, 
Arizona hasn't added a Wilderness Area since 1984 when our state's 
population was less than half of what it is today.
    Arizona's growth is not confined to urban centers. Rural Santa Cruz 
County's population growth follows the same trajectory. Today, there 
are plans to add more than 15,000 homes in the northern portion of the 
county. This growth provides new jobs, and more often than not our new 
residents refer to the beautiful desert and mountains as important 
aspects of their quality of life. The Tumacacori Highlands Wilderness 
Act is a part of ensuring that our quality of life and access to 
premier wilderness lands keeps in step with the new demands placed upon 
our landscapes.
    In 1964, the United States Congress had the foresight to plan for 
the unintended consequences of growth. At that time, bi-partisan 
legislation creating the Wilderness Act proclaimed that
        ``In order to assure that an increasing population, accompanied 
        by expanding settlement and growing mechanization, does not 
        occupy and modify all areas within the United States and its 
        possessions, leaving no lands designated for preservation and 
        protection in their natural condition, it is hereby declared to 
        be the policy of the Congress to secure for the American people 
        of present and future generations the benefits of an enduring 
        resource of wilderness.''
    After 43 years, these words are very relevant to how the Tumacacori 
Highlands Wilderness fit into a larger effort to appropriately manage 
and respond to our population growth.
Process and Stakeholder Input
    In that living room meeting five years ago, the small group of 
folks left for home with an understanding that Wilderness was an 
appropriate option for a portion of the Tumacacori Highlands. We 
affirmed that in moving forward with the idea, we must make every 
effort to lay forth an open, fair, and transparent public process. We 
vowed to seek the widest spectrum of input possible, and to be open to 
change as the initiative took shape. Hence, a five-year grassroots 
outreach effort ensued.
    The need for public dialogue and stakeholder outreach was strongly 
reinforced when proponents presented the initiative to Congressman 
Grijalva in 2003. In his January 2004 remarks below Tumacacori Peak, 
the Congressman made it clear that a long path lay ahead, and that he 
expected a thorough vetting of the issues often associated with 
Wilderness. I speak with confidence in saying that over the last four 
years the Tumacacori Highlands Wilderness Act has been worked and 
reworked to ensure an appropriate balance of land protection and land 
use.
    Beyond the land itself, what defines the Tumacacori Highlands 
Wilderness Act is its overwhelming grassroots support. After hundreds 
of presentations and stakeholder meetings, we reflect upon the fact 
that support for this bill is larger than anyone initially expected. As 
local volunteers walked the streets of Tubac, the nearest town nestled 
in the Santa Cruz Valley east of the Highlands, they spoke with 
hundreds of business owners and residents about Wilderness and the 
Tumacacori Highlands. Recently former real estate executive and thirty-
year resident of Tubac, Birdie Stabel, remarked that as she visited 
local shops she ``was amazed at how much support there really was'' for 
Tumacacori Highlands Wilderness. As evidenced by the presence of Tubac 
Chamber of Commerce director Carol Cullen here today, the Tumacacori 
Highlands Wilderness bill reflects a new relationship between business 
and wilderness. Her organization, along with hundreds of individual 
businesses throughout the Santa Cruz River Valley who support this 
bill, speak to the new dynamics emerging in the West. That is, healthy 
landscapes and protected areas equal healthy communities and 
sustainable economies.
    From a hunter's perspective, the Backcountry Hunters and Anglers 
organization, along with other supporters, will tell you that 
Wilderness in the Tumacacori Highlands means good game habitat. 
Especially with the increase in off-road vehicles, sportsmen and women 
are increasingly demanding prime hunting grounds on their public lands. 
In this context, access was also raised as an important issue. We often 
heard from the public and various agencies that the wilderness 
boundaries must be accessible by vehicle. We agree. After designation, 
the Tumacacori Highlands will be one of the most accessible Wilderness 
Areas in Arizona, currently enjoying more than 100 miles of Forest 
roads providing direct access, including a number of cherrystems that 
allow visitors to drive further into the interior of the wildland 
complex. We also support current efforts by the Arizona Game and Fish 
Department and Forest Service to acquire public easements outside the 
Forest boundary.
    As for wildlife management, proponents have met with the Arizona 
Game and Fish Department numerous times to discuss their access and 
management needs. Based on feedback from agency staff, we applaud the 
Congressman for making changes to the bill that include cherrystemmed 
access to Frog Tank, larger buffer areas around Arivaca and Pena Blanca 
Lake, and legislative language that refers to agency agreements such as 
the 2006 Association of Fish and Wildlife Agencies' Policies and 
Guidelines for Fish and Wildlife Management in National Forest and 
Bureau of Land Management Wilderness.
    Ranching is a historic use in the Tumacacori Highlands. 
Unfortunately, at least three of the six current ranches that manage 
grazing allotments with the proposed area have recently been sold for 
housing developments or are currently on the market. Regardless, we 
appreciate the attention that Congressman Grijalva has given to this 
traditionally difficult interface. H.R. 3287 makes it clear that 
grazing shall continue in accordance with law, including the 
maintenance of existing facilities, by citing the long-standing 
Congressional Grazing Guidelines. We also thank the Congressman for 
supporting the agreement that proponents have reached with certain 
cattle operations in the area.
    The Tumacacori Highlands are near the international border with 
Mexico, and currently the Border Patrol maintains one of their few 
remaining horse patrol units in the area because of its rough 
topography and inaccessibility by vehicle. From the beginning, 
proponents of the Wilderness bill made it clear that we had no 
intention of impeding Border Patrol's ability to do their job. We also 
recognized that the Wilderness legislation should acknowledge this fact 
and provide clarity on the issue. Section 4(i) of the bill addresses 
border operations. More importantly, it refers to policies that have 
been worked out to ensure compatibility between the land management and 
border enforcement agencies. Specifically, I'd like to acknowledge the 
2006 Inter-Agency Memorandum of Understanding Regarding Cooperative 
National Security and Counterterrorism Efforts on Federal Lands along 
the United States' Borders. This document was ratified by the 
Secretaries of Homeland Security, Agriculture, and Interior, providing 
a solid basis for how the agencies coordinate and operate with 
Wilderness Areas along the border. It is an important document that has 
much bearing on the future of the Tumacacori Highlands Wilderness.
    The aforementioned issues have been vetted and vetted again by 
Congressman Grijalva and the many stakeholders who have participated in 
the process to bring this bill to your subcommittee. To re-emphasize 
the tack that proponents took from the beginning, we set out five years 
ago to strike a balance between protecting this magnificent land in the 
face of rapid urbanization, and the many uses and interests that come 
to bear on our public lands. We feel that balance has been reached. It 
has been reached through a lengthy, fair, and open process that focused 
on compromise, not ideologies. As Arizona has learned from our late 
Congressman Morris Udall, who leaves a legacy of wilderness across our 
great state, we must not alienate but rather unite. He taught us that 
because of Wilderness's importance and longevity, it must be created 
respectfully and with great care. Thanks to Congressman Grijalva and 
the thousands of volunteers and supporters who stand behind this bill, 
I'd like to think that Mo' Udall would be proud of his legacy coming to 
bear on the Tumacacori Highlands..
    That legacy has been confirmed through numerous editorials and 
opinions throughout Arizona, including the support of the Arizona 
Republic, Tucson Citizen, Nogales International, and Green Valley News. 
It has been confirmed by Arizona Governor Napolitano and former 
Governor Bruce Babbitt. And it has been confirmed by the hundreds of 
various organizations throughout Arizona that have pledged their 
support. From businesses to backcountry hunters, from scientists to 
homeowners' associations, this bill tells a story that reveals just how 
popular Wilderness is in southern Arizona. It also speaks volumes as to 
why the Tumacacori Highlands deserve to be written into the next 
chapter of Arizona's Wilderness legacy.
    Chairman Grijalva, members of the subcommittee and staff, I ask for 
your support of the Tumacacori Highlands Wilderness Act. Thank you for 
the opportunity to present this testimony.
                                 ______
                                 
    Mr. Grijalva. Turning now to Mr. Mark South of Rio Rico, 
Arizona.
    Sir.

         STATEMENT OF MARK M. SOUTH, RIO RICO, ARIZONA

    Mr. South. Good afternoon, Mr. Chairman and committee 
members. My name is Mark South, and I am a retired U.S. Forest 
Service officer of 28 years; and 25 of those years I spent on 
the Nogales ranger district, the area in which H.R. 3287 is 
being proposed.
    And for the record, Mr. Chairman, I would like to introduce 
Zach Taylor as part of my testimony or key witness for law 
enforcement if those questions do come up. Zach Taylor is a 
retired border----
    Mr. Grijalva. With the agency people that presented first, 
bringing on an additional witness that wasn't a specific part 
of the invitation is permissible. In this case, we issued a 
specific invitation to you. The gentleman is free to submit any 
of his material. Without objection, it will be accepted in the 
record.
    Mr. South. That has been submitted to your office.
    Proceeding along then, I am here to explain why creating 
this wilderness along the U.S. Mexico border will not result in 
a pristine and untrammeled wilderness that was envisioned in 
the Wilderness Act of 1964. I will be discussing two main 
issues: destruction of wilderness values and homeland security.
    First, let us talk about the thousands of border crossers, 
illegal border crossers who are entering this particular area. 
I have seen firsthand the tons of garbage that the border 
crossers are leaving, not to mention the change of clothes they 
leave behind, their backpacks, plastic bags, water bottles, 
food items, human waste, abandoned campfires, and let us not 
forget all of the Red Bull cans.
    Now behind one of the people here, this photo was just 
taken a week and a half ago of the particular area of H.R. 3287 
with the litter that was left behind by many of the border 
crossers coming across. I am asking, is this the kind of 
wilderness--proposed wilderness we want to see be promoted?
    It has been averaged that each entrant leaves an average of 
over eight pounds of material left behind. My whole career with 
the Nogales ranger district, this is unprecedented with this 
amount of stuff. Even on a busy Easter weekend we never saw 
this much litter.
    Although the mountains of garbage have spoiled the 
environment, what about the hundreds of illegal entrant trails 
rutted down to over two feet entering the United States?
    Soil erosion in the so-called untrammeled area has washed 
away precious topsoil. Just last week, I saw a GPS map that 
visually shows how many illegal trails that actually are coming 
across the border. I was told there was over 200 known trails 
that cross-border violators use to access the U.S.--to access 
from Sasabe almost clear to Nogales.
    Just think about it. 200. That is four times more trails 
than the Nogales district administers over across the whole 
district.
    Now the map we show here, which is part of the record, is 
just an older map showing some of the drug trails coming right 
up through the proposed H.R. 3287.
    I was just there a week and a half ago at Atascosa Lookout, 
performing maintenance on the rehabilitation on the Lookout. I 
noted the many trails coming across the border, only to see 
that there was some illegal activity coming on the trails below 
us. These were not designated trails.
    I have personally been approached by many crossers in need 
of water, food, and medical help. I am used to this activity, 
but what about the unsuspecting bird watcher from back east 
that has no idea what to do when confronted by illegal 
entrants? Is this the kind of wilderness values we want our 
public to remember?
    Even more important is our concern regarding homeland 
security. We feel that an ulterior purpose of H.R. 3287 and 
other legislation is to handcuff the law enforcement agencies 
from performing their duty, which is to prevent the thousands 
of cross-border violators and contraband from entering the 
U.S..
    Oh, yeah, we are given the right of way with the cherry 
stem of the roads, but we know that the Wilderness Act of 1964 
will eliminate those 4-by-4 roads that are not inventoried that 
the users, such as law enforcement, would be able to have. Not 
every law enforcement officer is going out there under an 
emergency. They are for patrol.
    The security of our borders is so threatened that wildfire 
suppression crews are now required to have armed guards with 
them at all times. This policy stems out of this spring when 
there were some fires along the border along Tubac where the 
firefighters went into and there was a major shoot-out that 
took place.
    Should national security of the U.S. be sacrificed in order 
to create a wilderness area that does not readily conform to 
definition of the wilderness? With this area being pushed 
north, we are going to have the border from Mexico pushed in 
another 20 to 30 miles. Don't you want our law enforcement 
agencies, which are our first defense against terrorism, to 
keep our Nation safe?
    Thank you for allowing me to speak before you, Mr. 
Chairman.
    Mr. Grijalva. Thank you for your comments.
    [The prepared statement of Mr. South follows:]

  Statement of Mark M. South, member of a committee representing the 
 Southern Arizona Cattleman's Association and the National Association 
            of Retired Border Patrol Officers, on H.R. 3287

    Mr. Chairman, Members of the Committee: good afternoon, and thank 
you for the opportunity of being able to speak to you concerning this 
important matter.
    My name is Mark South, a retired U.S. Forest Service Official of 28 
years and my assistant, Zach Taylor a retired U.S. Border Patrol 
Official of 26 years, both live in Rio Rico, AZ, which is adjacent to 
the proposed wilderness area. Many of us who live within the area are 
opposed to H.R. 3287. We feel that this initiative is not in the best 
interest of the area. The reasons that we are opposed are as follows:
Homeland Security:
    If H.R. 3287 is passed, motorized vehicles and equipment will not 
be allowed in the wilderness designation, thereby leaving our border 
vulnerable to smugglers, terrorists, and contraband. Enacting this 
legislation will only hinder Homeland Security in their job of 
protecting the United States/Mexico Border. Section (i) of the H.R. 
3287 states ``...border enforcement operations are common management 
actions throughout the area encompassing the covered wilderness areas. 
This Act recognizes the need to continue such management actions so 
long as such management actions are conducted in accordance with the 
Wilderness Act (16 U.S.C. 1131 et seq.) and existing inter-agency 
agreements...''. What H.R. 3278 says, as per the Wilderness Act of 
1964, that law enforcement agencies will not be able to use motor 
vehicles, motorized equipment, or landing of aircraft or any other form 
of mechanical transport to complete their duties such as curtailing the 
flow of undocumented individuals, reducing the threat of terrorists 
from coming into the U.S., and stemming the flow of illegal drugs.
    Another proposed bill, H.R. 2593, The Borderlands Conservation & 
Security Act of 2007, will also strengthen the exclusion of motorized 
vehicles along the border. Under Section 5, Border Barrier Construction 
part (3) paragraph D implies the exclusion of motorized vehicles by 
recommending the use of remote equipment to track illegal entry into 
the U.S. This will help, but there still is a need to have motor 
vehicles within the designated area to deter criminal activity and to 
apprehend the violators from progressing any further north. Lack of law 
enforcement signals the cross-border violators that they can now extend 
the Mexico/U.S. Border another 30 miles north of the existing boundary.
    Not only does the Wilderness Act and future legislation prohibit 
the use of motorized vehicles/equipment in a wilderness area, but non-
inventoried 4x4 roads used by law enforcement and the public will be 
eliminated. Existing numbered roads will be cherry stemmed, but what 
about all the other 4x4 roads that are not on existing Forest Road 
inventories? They will be blocked off and rehabilitated. This will even 
further limit the access of law enforcement, but give the green light 
to illegal activities coming across the border. This legislation will 
create safe havens and safe environments for criminals that smuggle 
humans and narcotics into the United States.
    In the last 4 years, several major access points used by law 
enforcement have been blocked by private land owners, thus denying 
access to law enforcement. Extreme violent criminal activity has 
increased in the proposed boundaries of the wilderness commensurate to 
the lack of access for law enforcement. Just this year, numerous 
murders and drug rip offs have taken place in communities adjacent to 
the proposal. We have seen armed criminals intercept entrants smuggling 
loads and shoot into drug hauling vehicles, killing people in the 
smuggling load. There was also a shoot out between drug smugglers while 
several fire agencies were trying to suppress a wildfire. On a daily 
basis, the news recounts details on shootings, deaths, drug seizures, 
break-ins, property damage and the influx of undocumented individuals. 
Criminal activity originating along the proposed wilderness areas 
extend north into the neighborhoods of Tubac, Amado, Arivaca, Green 
Valley, Tucson, Phoenix and points beyond creating serious situations.
    All of these criminal activities originate along the Mexican 
Border. We should not hinder law enforcement agencies in carrying out 
their duties of protecting the U.S. citizens. We need to give them all 
the tools they need in order to stop the flow of drugs and undocumented 
individuals. If we can't do that, then do away with agencies 
responsible for Border Security and save millions of dollars on this 
effort. Allowing cross-border violators has become more economically 
based than protecting the environment.
Existing Protection
    The Tumacacocori's, Pajarito's and the Atascosa's are already 
protected by the U.S. Forest Service and are backed by a host of 
environmental laws. A few of these laws include; Multiple-Use Sustained 
``Yield Act of 1960, The Endangered Species Act of 1973, Antiquities 
Act of 1906, Archaeological Resources Protection Act of 1979, the 
Archeological and Historic Preservation Act of 1960, the National 
Environmental Policy Act of 1969, Chapter 70--Wilderness Evaluation of 
the FS Handbook, and the Wilderness Act of 1964.
    Before any project can be initiated on public land, the National 
Environmental Policy Act of 1969 must be followed. An Environmental 
Impact Statement or an Environmental Assessment document must be 
written and approved before any project can be started. Both 
environmental documents contain alternatives to the proposed action and 
any adverse environmental effects which cannot be avoided. They utilize 
all the environmental disciplines along with public input to come up 
with a project that all can agree upon. If no solution can be found 
between all parties, then the project can be appealed.
    Another environmental safeguard is the Endangered Species Act of 
1973. Before a project can start, a Biological Opinion must be written. 
This involves surveying the area for any possible threatened and 
endangered species with a document being submitted to the U.S. Fish & 
Wildlife Service for approval/disapproval. This adds another level of 
protection to the environment.
Grazing
    The cattle ranchers in this area are good stewards of the land. 
They have a great relationship with the Forest Service and strive to 
improve the land they lease. Enacting this legislation will disrupt 
this relationship between the environment, Forest Service and the 
rancher.
    Ranchers with experience in Wilderness Areas are bitter about the 
enactments. Managing ranch operations will become much harder if not 
impossible if burdened by a whole new layer of regulations that include 
prohibiting the use of motorized equipment or transport. Special use 
permits require a lengthy environmental assessment and approval by both 
the District and Regional offices. So-called ``primitive two-track 
roads,'' the jeep trails they use to reach isolated improvements, will 
be closed. Where once ranchers had access to clean out a dirt tank with 
mechanized equipment or use a chain saw to cut brush from a fence line, 
they now are being told to get a special use permit. Often this takes 
months with no guarantee that they will receive the permit to use 
mechanized equipment. The question is, why should modern day ranchers 
try to manage a business under wilderness standards when the rest of 
the world is using 21st Century techniques? The pressure of a diverse 
interpretation of regulations can be a slow death ``of a thousand head 
cuts of cattle.''
Plants and Wildlife along the Border
    A wilderness designation is not needed to protect plants and 
animals in this H.R. 3287 proposal. The plants and animals in the 
proposed area are not only found in the U.S., but can also be found in 
Mexico. There are unique species that many say are only indigenous to 
the Pajaritos on the U.S. side, but in reality they are also found on 
the Mexican side. Section 72.31-Factors item 4 of the FS Handbook 
states that when evaluating a wilderness area to provide a refuge for 
those species that have demonstrated an inability to survive in less 
than primitive surroundings, then protection should be provided. A 
wilderness is not needed to protect species that can be found in both 
countries. The same species of plants and wildlife can be found on both 
sides of the border.
Presidential Special Provisions
    Having a wilderness designation does not always guarantee that the 
land will remain pristine. There are several exemptions that are listed 
within the Wilderness Act of 1964 that would allow development within 
the area by Presidential declaration. Under Special Provisions of the 
Act, Section 3, mineral exploration and leasing can still occur. In 
Section 4, ``...the President may authorize power projects, 
transmission lines, and other facilities needed in the public interest, 
including construction and maintenance essential to development and use 
thereof; upon his determination this will better serve the interests of 
the United States and the people...''. For example, originally, H.R. 
3287 came out of resistance by the local community of Tubac to stop the 
installation of a needed overhead powerline to Nogales, AZ. If the 
wilderness is approved, the President could still approve an electrical 
transmission line to Nogales, AZ.
Cherry Stemming Roads
    Cherry stemming of the existing 20-30 roads will not always give 
the protection to wilderness as some proponents suggest. Nogales Ranger 
District Officials set the boundaries for both the Mt. Wrightson and 
Pajarita Wilderness Areas in the early 80's and were told to set the 
wilderness boundaries just a mere 66 feet off center line of existing 
roads. This became a management night mare for Forest Service Officials 
in trying to enforce no off-road vehicles in favorite camping spots 
just off the road. Closing off the hundreds of campsites along Ruby 
Road and other access points will be quite an undertaking. Where will 
the money and enforcement come for this action? The Forest Service 
didn't receive any extra money in the 80's for the wilderness fencing 
or enforcement. How can one have a true wilderness experience if all 
they see are clouds of dust coming from vehicles on dirt roads just a 
few feet from the wilderness?
    A wilderness criterion says that wilderness areas should not 
contain roads. This criterion can be found in the Forest Service 
Handbook, Chapter 71.1--Inventory Criteria of Wilderness Evaluation 
states that under evaluation criteria. ``...Areas do not contain Forest 
roads (36 CFR 212.1) or other permanently authorized roads, except as 
permitted in areas east of the 100th meridian...''. However, the Ruby 
and Summit Motor Roads dissect all three portions of H.R. 3287 proposed 
wilderness area. To the south of Ruby Road and west of Motor Summit 
Motor Way, there is the existing Pajarita Wilderness. Then to the south 
of Ruby Road and east of Summit Motor Way there will be the Pajarito 
Wilderness. The creators of the bill(s) are just changing the last 
vowel of Pajarito to get away with having additional acres. Then the 
Tumacacori Highlands will just be north of Ruby Road, clearly adjacent 
to the two to the south. We are sure that the boundaries of all three 
wilderness areas will be just a mere 66 foot off center of the existing 
well traveled roads.
Existing Electronic Site and Helispot
    Access must still be allowed for the helispot at Atascosa Lookout 
which is used by the Forest Service and the many Homeland Security 
agencies to access their solar powered electronic radio equipment at 
the lookout. This is a historic use for the site.
Pristine Attributes Trashed
    The area along the border is becoming a trash heap from the refuse 
left behind by the cross-border violators. The Wilderness Act states 
that the areas is to be untrammeled by humans. The Coronado National 
Forest struggles now with maintaining the wilderness areas along the 
border in a pristine condition from the influx of cross-border 
violators coming from Mexico. What kind of beauty is there in looking 
at discarded clothing, plastic bags, cans, plastic water jugs, Red Bull 
cans, human waste, abandoned campfires, and deep rutted human made 
trails created by groups of people that have entered the U.S. 
illegally? How much worse will it look if H.R. 3287 is passed?
Solitude Spoiled by Cross-Border Violators
    Solitude in the area is often spoiled by smugglers and by large 
group of illegal's coming across the border. I have been in the area 
thinking I was alone only to find out that a smuggler is watching every 
move I make. Or how about the many Homeland Security Sensors along the 
border that can be tripped by anyone only to have a Black-hawk 
helicopter swoop down on them to verify their intentions. Is this the 
wilderness experience we want visitors to come away with? We would hope 
not. The Coronado National Forest has placed signs at major access 
points into the proposed wilderness area(s) advising visitors of 
dangerous illegal border activities. At one time many of us would have 
had no reservations about camping with our families in the proposed 
wilderness area, but now, none of us would take our families for a 
camping trip. Now when recreational people visit the area, they are 
often faced with providing food and water to the border crossers who 
usually are lost, sick and tired. Knowing that the border is regularly 
patrolled can bring visitors some peace of mind as they visit our 
national forests on the border.
    On behalf of the Arizona Cattleman's Association and the National 
Association of Retired Border Patrol Officers, I would like to thank 
you for allowing us to express our concerns about H.R. 3287. We ask 
that you vote no against this proposal that will limit law 
enforcement's ability to protect our Nation's Border.
                                 ______
                                 
    Mr. Grijalva. Mr. Geary Hund for your comments, sir.

         STATEMENT OF GEARY HUND, IDYLLWILD, CALIFORNIA

    Mr. Hund. Good afternoon Mr. Chairman and members of the 
Subcommittee. My name is Geary Hund; and I am a long-term 
resident of Idyllwild, California, of Riverside County. I 
appreciate the opportunity to testify in support of the 
California Desert and Mountain Heritage Act.
    I believe Riverside county is one of the most spectacular 
regions in California. From the rocky crags of Mount San 
Jacinto to the sands of the eastern deserts, its scenic beauty 
is remarkable. It is this beauty that attracts over one million 
visitors annually to places like Joshua Tree National Park, and 
it is one of the primary reasons it is among California's 
fastest-growing counties.
    During my 30-year career, I have worked as a law 
enforcement ranger, ecologist, fire manager, and 
conservationist. In these capacities, I have visited most of 
the areas included in this legislation.
    The California Desert and Mountain Heritage Act proposes to 
create four new wilderness areas and to increase the size of 
six others. The bill would also designate four wild and scenic 
rivers and would add important new land to the San Jacinto and 
Santa Rosa Mountains National Monument, itself a legacy of 
Congresswoman Bono's work.
    The areas proposed for protection in the bill are among the 
best remaining wild lands in southern California, including the 
steep and rugged mountain ranges of the eastern deserts, with 
their deeply dissected canyons, vast bajadas, elusive herds of 
bighorn sheep, desert tortoise and lush palm oases; the 
dramatic Monument additions ranging in elevation from below sea 
level to over 8,000 feet, which preserve remnants of an ancient 
lakeshore, a vital wildlife corridor and the pine-covered 
slopes of Santa Rosa Peak; the cascading waters and lemon 
lilies of Fuller Mill Creek; the mountaintop island of pines 
and oaks on Cahuilla Mountain, and the deeply wooded canyons of 
the South Fork San Jacinto.
    Protecting these and the other areas in the bill will 
contribute to the quality of life of millions of people, 
whether they visit them often or only notice them in passing. 
For increasingly it is understood that preserving nature has 
practicable benefits. Forests clean our air and store and 
filter our water. Open space near communities often equates to 
a strong local economy by increasing property values and 
attracting more residents, businesses and visitors.
    The lands and rivers in the bill also help preserve 
California's rich biological diversity, for many rare and 
wondrous creatures grace these remarkable places. By setting 
aside and connecting their habitat, we will help to ensure 
their future.
    But perhaps the greatest value of these wild places is the 
contribution they make to the preservation of the human spirit. 
For these are places of respite from the fast pace of modern 
life. They are places for discovery of our children, and they 
are places for personnel renewal. Lands such as these are 
increasingly rare in our world, and we must make every effort 
to preserve them.
    While crafting any important piece of legislation, a 
conscientious policymaker must ensure that the final product 
reflects the concerns and desires of his or her constituents. 
With H.R. 3682, Congresswoman Mary Bono has done an outstanding 
job of seeking local input and addressing local concerns.
    For example, she has consulted extensively with local 
elected officials, fire safe councils, Federal agencies, and 
other interests and made 20 boundary adjustments to allow for 
effective fire and fuels management.
    She has met with recreationists of all kind, including 
mountain bikers, hikers, off-road vehicle enthusiasts, 
equestrians and excluded from proposed wilderness areas that 
are managed for vehicle use and popular mountain bike trails.
    She has worked with Federal agencies and utility companies 
to exclude areas that could potentially be used to meet 
California's future energy needs.
    She has carefully listened to the concerns of private 
landowners and ensured that the right to access and use of 
their property would not be impaired, and she met with local 
tribal representatives addressing their cultural and other 
concerns.
    Congresswoman Bono has a well-deserved reputation for 
collaboration and reasonableness that is clearly illustrated by 
the way she went about crafting this bill. It should therefore 
come as no surprise that H.R. 3682 is supported by a wide 
variety of interests, including local chambers of commerce, 
tribes, municipalities, recreation and conservation groups and 
two Riverside County supervisors whose cities are affected by 
the bill.
    I firmly believe that as a result of Congresswoman Bono's 
responsiveness to the concerns raised by local interests and 
the importance of the areas included in the bill, H.R. 3682 
will benefit not only Riverside County but our Nation as a 
whole.
    I urge the committee to support this important legislation 
and, once again, thank you for the opportunity to testify.
    Mr. Grijalva. Thank you, sir.
    [The prepared statement of Mr. Hund follows:]

 Statement of Geary Hund of Riverside County, California, on H.R. 3682

    Good afternoon Mr. Chairman and members of the Subcommittee. My 
name is Geary Hund and I am a resident of Idyllwild, California in 
Riverside County. I appreciate the opportunity to testify in support of 
the California Desert and Mountain Heritage Act.
    I believe Riverside County is one of the most spectacular regions 
in California. From the rocky crags of Mount San Jacinto to the sands 
of its eastern deserts, its scenic beauty is remarkable. It is this 
beauty that attracts tens of thousands of visitors annually to places 
like Joshua Tree National Park and it is one of the primary reasons it 
is among California's fastest growing counties. During my 30 year 
career I've worked as a law enforcement ranger, ecologist, fire 
manager, and conservationist. In these capacities I've visited most of 
the areas included in this legislation.
    The California Desert and Mountain Heritage Act proposes to create 
four new wilderness areas and to increase the size of six existing 
ones. The bill would also designate four wild and scenic rivers and it 
would add important new lands to the San Jacinto and Santa Rosa 
Mountains National Monument, itself a legacy of Congresswoman Bono's 
work. The areas proposed for protection in the bill are among the best 
remaining wild lands in southern California including:
    <bullet>  The steep and rugged mountain ranges of the eastern 
deserts, with their deeply dissected canyons, vast bajadas, elusive 
herds of bighorn sheep, desert tortoise, and lush palm oases;
    <bullet>  The dramatic Monument additions ranging in elevation from 
below sea level to over 8,000 feet, which preserve remnants of an 
ancient lakeshore, a vital wildlife corridor and the pine covered 
slopes of Santa Rosa Peak;
    <bullet>  The cascading waters and lemon lilies of Fuller Mill 
Creek;
    <bullet>  The mountain top island of pines and oaks on Cahuilla 
Mountain, and the deeply wooded Canyons of the South Fork San Jacinto.
    Protecting these and the other areas in the bill will contribute to 
the quality of life of millions of people, whether they visit them 
often or only notice them in passing, for increasingly, it's understood 
that preserving nature has practical benefits--forests clean our air 
and. store and filter our water. And open space near communities often 
equates to a strong local economy by increasing property values and 
attracting more residents, businesses, and visitors. The lands and 
rivers in the bill also help preserve California's rich biological 
diversity, for many rare and wondrous creatures grace these remarkable 
places. By setting aside and connecting their habitat we will help to 
ensure their future. But perhaps the greatest value of these wild 
places is the contribution they make to the preservation of the human 
spirit. For these are places of respite from the fast pace of modern 
life, they are places of discovery for our children and they are places 
for personal renewal. Lands such as these are increasingly rare in our 
world and we must make every effort to preserve them.
    While crafting any important piece of legislation a conscientious 
policymaker must ensure that the final product reflects the concerns 
and desires of his or her constituents. With H.R. 3682, Congresswoman 
Mary Bono has done an outstanding job of seeking local input and 
addressing concerns. For example, she:
    <bullet>  Consulted extensively with local elected officials, fire 
safe councils, federal agencies and other interests and made 20 
boundary adjustments to allow for effective fire and fuels management;
    <bullet>  Met with recreationists of all kinds, including mountain 
bikers, hikers, off-road vehicle enthusiasts and equestrians and 
excluded from proposed wilderness areas that are managed for vehicle 
use and popular mountain bike trails;
    <bullet>  Worked with federal agencies and utility companies to 
exclude areas that could potentially be used to meet California's 
future energy needs;
    <bullet>  Carefully listened to the concerns of private landowners 
and ensured that their right to access and use of their property would 
not be impaired; and
    <bullet>  Met with tribal representatives, addressing their 
cultural and other concerns.
    Congresswoman Bono has a well-deserved reputation for collaboration 
and reasonableness that is clearly illustrated by the way she went 
about crafting this bill. It should therefore come as no surprise that 
H.R. 3682 has faced minimal opposition from within Riverside County, 
and that it is supported by a wide variety of interests including local 
chambers of commerce, tribes, municipalities, recreation and 
conservation groups and two Riverside County supervisors whose 
districts are affected by the bill.
    I firmly believe that as a result of Congresswoman Bono's 
responsiveness to the concerns raised by local interests and the 
importance of the areas included in the bill, H.R. 3682 will benefit 
not only Riverside County, but our nation as a whole. I urge the 
committee to support this important legislation and once again, thank 
you for the opportunity to testify.
                                 ______
                                 
    Mr. Grijalva. Mr. Bill Dart, Off-Road Business Association.
    Sir, your comments.

    STATEMENT OF BILL DART, OFF-ROAD BUSINESS ASSOCIATION, 
                    BAKERSFIELD, CALIFORNIA

    Mr. Dart. Thank you, Mr. Chairman, members of the 
committee, I appreciate the opportunity to testify here today.
    My name is Bill Dart. I am the Director of Land Use for the 
Off-Road Business Association, or ORBA. We are a national 
nonprofit trade association representing all aspects of the 
motorized recreation industry, from the manufacturers of 
vehicles to the after-market manufacturers and distributors to 
local retail dealers.
    Off-road recreation is a very, very popular activity today 
both for recreation but it is also a major economic engine in 
our economy today. As an indicator of how significant the 
economic impacts are, a study by the University of California 
found that OHV recreation in California generates over $10 
billion a year in economic activity and has created over 80,000 
direct employment jobs in California alone. Not only does this 
create a lot of jobs and economic activity for the manufacturer 
and sale of the vehicles, it creates a lot of tourism, and it 
generates tremendous amounts of tourism dollars to the people 
visiting rural communities where most of the opportunities are 
at.
    ORBA supports the intent of the original act of 1964, and 
there are many areas that are proposed for wilderness today 
that we can agree with. However, we also believe that the use 
of this designation should be reserved only for areas that 
should truly qualify under the original definition of the 1964 
Act.
    Today, we have many, many proposals with roads, graded 
roads, culverts, buildings, transmission sites, a variety of 
things that do not fit the original definition of the 
Wilderness Act untrammeled by man as a visitor. Today, we think 
these are going too far.
    One of the things that we would like to talk about just in 
general is that we think it is time for this body to seriously 
consider a new designation short of wilderness, one that would 
preserve the landscapes as they look today. We can agree with 
many wilderness advocates. We want to preserve the landscapes 
and not alter it. But, at the same time, we want to preserve 
the access to more of the public and to not handcuff the 
agencies' management activities as much as they are today.
    Today, less than 3 percent of the people who actually visit 
national forest lands for recreation go to wilderness areas. 
This is a Forest Service research study. Another similar study 
by the Forest Service found that over 25 percent of the people 
who visit national forests enjoy off-highway vehicle recreation 
while they are there. Those are huge numbers, and it is--you 
know, we agree with many of the sentiments of the wilderness 
folks that we love these landscapes, we love the rejuvenation, 
the refreshing of our spirits and getting away from the hustle 
and bustle of everyday life. But we just have a different way 
of getting there and enjoying these lands.
    Additionally, we want to see the agencies be able to do 
things like these forest health projects. It has been brought 
up many times today that these bills allow these activities to 
occur, but you also heard that they have never been done. It is 
almost impossible to get a process through to do these type of 
projects even on less controversial areas. Wilderness areas 
would be far more controversial if a proposal were made to do a 
forest health project, and we suspect it is unlikely to be 
approved.
    Regarding H.R. 3862, we have concerns about it is not 
clear. Looking at the maps, there are many, many roads and 
trails there that are open today for use for hunting, for 
rockhounding and just for sightseeing and general recreation. 
If those routes were left open, we could support this bill. But 
it is not clear that they are. In fact, we are pretty certain 
that most of them would be closed.
    This is the problem, is that, you know, it is--excuse me--
in the Riverside County area, there is already a minimum of 
opportunities for motorized recreation. This would constrain it 
even further and minimizes the opportunities for the public to 
enjoy their public lands.
    With adjustments to some of these boundaries, we think we 
could support this bill, but as it is today, we cannot. And we 
are in opposition.
    Thank you.
    [The prepared statement of Mr. Dart follows:]

         Statement of Bill Dart, Off-Road Business Association

    Mr. Chairman and honorable committee members, my name is Bill Dart 
and I am the Director of Land Use for the Off-Road Business Association 
(ORBA). The Off-Road Business Association is a national non-profit 
trade association representing all aspects of the motorized off-road 
recreation industry. Our member businesses include the full OHV 
industry spectrum of vehicle manufacturers, aftermarket suppliers and 
distributors, and local retailers, many located in Riverside County. 
ORBA protects the interests of its member companies by promoting and 
protecting off-road recreation opportunities throughout the country. 
Motorized recreation is a major economic engine, both the manufacture 
and sales, but more significantly, the expenditures made by motorized 
recreationists as they travel to enjoy motorized recreation 
opportunities around the country. As an indicator of how significant 
the economic impacts are, a study by the University of California found 
that OHV recreation in California generates over $10 billion dollars in 
economic activity and has created over 80,000 direct employment jobs in 
California alone.
    I am a native of California and have been recreating on public 
lands for my whole life. I have lived in rural communities where 
recreation tourism is the most significant industry. I have been 
involved with motorized recreation of all kinds first as an enthusiast, 
then as an organizer and activist, culminating with over 19 years as a 
professional advocate for motorized recreation. I understand the issues 
surrounding the wilderness debate, and we have much in common with 
wilderness advocates, as we also want to see the landscapes in question 
preserved as they are today.
    ORBA supports the intent of the original Wilderness Act of 1964. 
However, we also believe that the use of this designation should be 
reserved only for areas that truly qualify. Overall, a wilderness 
designation is the most extreme limits and restrictions on access and 
use that the federal government can place on public lands. By 
definition, wilderness designations do not allow mechanized vehicles in 
the area, including bicycles and wheelchairs. These restrictions 
effectively discriminate against certain constituencies by effectively 
denying them meaningful access to these public lands. As a result, 
these areas are no longer accessible to a large portion of American 
society, namely the very young, the elderly, and the handicapped who 
are not able to hike long distances. We believe that these areas 
deserve protection from future development but should not be off limits 
to such a large segment of the population.
    We are concerned with a number of the areas included in this bill 
and do not feel that all of them are appropriate for this type of 
designation. Our concern is that many forms of recreation currently 
occur on them. Rockhounders, hunters and off-road enthusiasts use these 
areas and have been doing so for many generations. These are all valid 
uses of public lands and are not currently detrimental to the 
surrounding habitat. Rockhounding is a very popular past time engaged 
in by the surrounding retired population and several of the areas 
proposed as wilderness in this bill will prohibit that activity, 
needlessly in our view. Gem and rock hounding currently occurs in the 
proposed Orocopia Mountains addition, the Chuckwalla Mountains 
addition, and the Palen-McCoy Mountains addition. Some of these 
proposed wilderness areas are also currently used by sportsmen, such as 
bird hunting in the Palen-McCoy Mountains edition. Therefore, in order 
to access these areas people must use SUVs or 4 wheel drive vehicles. 
Since a wilderness designation would not allow motorized vehicles in 
these areas, if this legislation was enacted, these rockhounders and 
sportsmen would be locked out of these areas unless they were able to 
hike long distances to get there.
    ORBA has reviewed the online maps available to the public and have 
found them to be difficult to examine for the areas we are concerned 
about. As a result, we are unable to determine if currently used OHV 
areas will be included. For example, the maps make it unclear as to 
whether the Historic Bradshaw Trail would be included in the Orocopia 
addition. The Bradshaw Trail was the first road through Riverside 
County and was blazed by William Bradshaw in 1862, as an overland stage 
route beginning at San Bernardino and ending at La Paz, AZ (now 
Ehrenberg, AZ). The trail was used extensively between 1862 and 1877 to 
haul miners and other passengers to the gold fields at La Paz. The 
trail is a 65 mile county graded road that traverses mostly public land 
between the Chuckwalla Mountains and the Chocolate Mountain Aerial 
Gunnery Range. The trail offers spectacular views of the Chuckwalla 
Bench, Orocopia Mountains, Chuckwalla Mountains and the Palo Verde 
Valley.
    There are very few OHV recreation opportunities within the 
Riverside County area. ``Taking the High Road'', a study released in 
2002 by the OHMVR Division, states that ``since 1980 the amount of land 
available to recreate on for off-highway vehicles (OHV) has shrunk 48 
percent in our deserts alone, while OHV registrations have increased 
108 percent since 1980.'' Currently California has over 1 million 
registered OHVs and, as of April 2, 2007 there are 96,034 registered 
green sticker vehicles in Riverside County alone. This form of family 
recreation has seen immense growth in recent years. By implementing 
public lands policies that further decrease the amount of land to 
recreate on we are doing a great disservice to these families. Some 
people believe that the only way to minimize the impacts of OHV use on 
the environment is to eliminate it. The opposite is actually true. 
Clearly OHV users and their vehicles are not just going to go away. 
Without legal areas for these families to recreate on user created 
trails will be the result. These user created areas often, but not 
always, result in habitat damage.
    Instead of creating additional wilderness areas that will restrict 
citizens' access to the land, ORBA would like to request that Congress 
consider other alternatives that will assure that: 1) All citizens are 
able to use the public lands without discrimination; 2) mechanized 
vehicles can be used to fight forest fires; and 3) management of the 
public lands can occur in order to maintain trails, forest health and 
other facilities.
    Finally, I would like to add that we are concerned about the 
California Desert and Mountain Heritage Act because Representative Bono 
has not attempted to seek the input from the OHV community with regard 
to how it will affect public lands access for our recreation interests. 
We are in the process of trying to work with Congresswoman Bono and her 
staff on H.R. 3682, but we would like to be a part of the on-going 
discussions with their community stakeholders and to be more involved 
with the legislative process for this bill.
    Mr. Chairman, thank you for allowing ORBA to testify today and we 
urge you to carefully consider the concerns we have with H.R. 3682. We 
look forward to additional conversations with the House Natural 
Resources Committee and Congresswoman Bono to make this bill work for 
the people, environmental preservations and future users of these 
public lands.
    This concludes my prepared statement and I am happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, sir. Let me begin with 
some questions for Ms. Cullen. How many local businesses does 
the Tubac Chamber represent.
    Ms. Cullen. Mr. Chairman, we represent about 130 
businesses.
    Mr. Grijalva. And let me follow up on that because there is 
some misconception, I believe, that a wilderness designation 
begins to harm the local economies. You state in your testimony 
that wilderness areas are a competitive advantage for small 
businesses. Could you elaborate in what effect it has had 
already in Tubac and what potentially the new designation would 
have on the community?
    Ms. Cullen. Yes. We in Tubac and in southern Arizona are 
very dependent on tourism. In fact, tourism is a $2 billion 
industry in southern Arizona. In our little piece of it in 
Tubac we do our best to promote the area to draw the tourists 
down south I-19 into your hometown area and then over to 
Sonoida, Begonia, Elgin. We do so by promoting the art, the 
history, and the natural resources. We walk a fine line in 
Tubac between promoting commercially the area, drawing people 
in. They see this little piece of paradise and they want to 
move here. It is an attraction both to bring people in for the 
art, for the history, as well as to live here. So it is a big 
piece of it. The wilderness in particular would be another 
advantage that we have to advertise for hiking, birding, 
walking, strolling.
    We have the wilderness area on the east side with Mount 
Wrightson. That is an important draw. We are a unique area in 
southern Arizona and this wilderness area will make it even 
more precious.
    Mr. Grijalva. And let me, Ms. Cullen, because you are there 
on the border as many of us are, and we have heard testimony 
about a wilderness designation, how that would threaten 
homeland security and border security. And we live with this 
every day. And our response to the claim that this designation 
would do irreparable harm to the security of the border, if you 
could just make a quick comment regarding that.
    Ms. Cullen. Mr. Chairman, members of the Tubac Chamber, our 
family members are Border Patrol agents, our neighbors are 
Border Patrol agents. We are very concerned with making our 
area a very safe area. Immigration, illegal immigration, 
illegal drug trafficking is a serious problem for all of us. I 
can appreciate my neighbor Mr. South's testimony and his 
pictures. That could be anywhere in our area. We all experience 
the problems and the negative impacts associated with it. We 
are all very concerned about immigration and our safety. I 
don't think that anybody else in the United States is more 
concerned about it than those of us in southern Arizona. We 
would not be asking for this wilderness designation if we 
thought that would make our area, our homeland less safe.
    Mr. Grijalva. Thank you. Mr. Skroch, let me ask you, there 
was an agreement reached with the ranchers during this whole 
collaborative process that you went through, to the point where 
some of the significant early opposition is now supporting the 
designation. Could you walk us through there in a minute or 
less that I have here about that particular agreement?
    Mr. Skroch. I can try. I will do my best, sir. We did 
contact every landowner relevant to some questions that we 
heard earlier today. Every landowner that contains a permit or 
an allotment with Tumacacori Highlands. Some of them wanted to 
discuss the proposal further. Some of them wanted to seek 
agreement. Some of them did not. Those that did, those 
discussions continued. And really over the course of several 
years from the beginning, 3 or 4 years ago, a relationship of 
trust was formed and eventually a relationship of agreement was 
formed. And we are proud to say that the largest permittee in 
the Tumacacori Highlands, who holds multiple allotments there, 
has signed a letter of support. And we have come to agreement 
on how we think the congressional grazing guidelines should be 
applied to wilderness areas. We think the law is pretty clear. 
We think his operation should not be impacted by this 
designation. And we are happy to move forward in this process 
with his support and in our support of his operation as well, 
sir.
    Mr. Grijalva. Thank you. Mr. Bishop.
    Mr. Bishop. Mr. Skroch, let me just follow up on that 
because that was my first question I had for you. Were certain 
concessions made to the ranchers in exchange for working 
through this issue for their support?
    Mr. Skroch. It was a collaborative relationship. Really, it 
literally occurred at the kitchen table. As I referenced 
earlier, sir, we made numerous contacts to all of the 
permittees within the Tumacacori Highlands. And forgive me for 
my redundancy, but some of them there was a range of interest 
in actually sitting down and looking at maps. With the largest 
permittee in the area who had multiple allotments, that 
discussion did take place over numerous meetings. And it really 
was sitting down at the table talking about what facilities he 
had on the landscape that were important, how the wilderness 
designation would interface with his operations and what we 
could do together to make sure that his operation was affected 
in the slightest.
    Mr. Bishop. So let me try this question again. Did you make 
certain changes or concessions to meet their needs?
    Mr. Skroch. Over the course of 4 or 5 years that this 
proposal has been actively kind of out in the community on the 
table, many changes have been made to the map. It might have 
been in relation with Arizona Game and Fish Department or in 
relation to the ranching community or bearing out of 
discussions with perhaps the Forest Service or many, many other 
stakeholders, the proposal has changed pretty significantly 
through different iterations over the years, sir.
    Mr. Bishop. I am not trying to be rude or forceful here. 
What I am hearing you say is the answer was yes, there were 
certain concessions that were made.
    Mr. Skroch. Yes, sir. The agreement----
    Mr. Bishop. OK. Now, with the concessions made in the bill 
that is before us, were all the concessions delivered in this 
particular bill or were there some that were still outstanding?
    Mr. Skroch. Well, I would say that it was really an 
iterative process, sir. I mean, looking at the map and talking 
about different values and what people wanted to see at the end 
of the day, I mean I think it was a really good example of 
people coming together and meeting in the middle and making 
some compromises. There is nothing specifically in my mind that 
I can think of off the top of my head, sir, that I would say, 
oh, rancher A really wanted this and he didn't get it. That is 
not coming to my mind right now.
    Mr. Bishop. So the answer is no, there were no concessions 
that were made that are not delivered in this piece of 
legislation?
    Mr. Skroch. I can't answer that question, sir. I just don't 
have the level of specificity in my mind to answer that level 
of detail, sir.
    Mr. Bishop. Did other ranchers ask for similar 
consideration or were there similar concessions offered to 
other ranchers in the area?
    Mr. Skroch. Like I said, sir, the process was iterative in 
nature. Over the course of 4 or 5 years we contacted each of 
the permittees and asked if we may sit down. And with some of 
those ranching interests we were able to sit down and we were 
able to look at the maps and to have a discussion about their 
operations, and changes were made based on a variety of 
different input.
    Mr. Bishop. I'm sorry, this is not supposed to be the 
inquisition that is right here. But in the wilderness area that 
I created in the State of Utah I knew exactly how many people 
were there and we did make concessions to each of the private 
landowners for specific reasons. We excluded some things. And I 
can tell you which landowners we actually made good on those 
concessions and which landowners we didn't.
    Now, am I making the assumption there are some ranchers 
over there that were given some agreements of concessions? And 
as I have heard here, you are saying that these were now 
covered in this particular bill and there weren't anyone that 
asked for concessions and were told no?
    Mr. Skroch. That is correct.
    Mr. Bishop. I certainly hope so. Now, I have other 
questions here. Do you want to give these other two members a 
chance first and then I will come back?
    Mr. Grijalva. Thank you, Mr. Bishop. Mr. Holt, any 
questions?
    Mr. Holt. I just want to say, having looked through the 
testimony here, I must say, Mr. Chairman, you put together a 
good hearing. No questions. Thank you.
    Mr. Grijalva. Mrs. Capps, any questions?
    Mrs. Capps. I do. I do also want to thank you for holding 
this hearing. And I'm sorry, I am going to be directing my 
questions to Mr. Hund. And I had intended--I wanted to be here 
during the testimony of my colleague, Mary Bono, but I was on 
the Floor managing a suspension bill at that time. But I am a 
big supporter of the California Desert and Mountain Heritage 
Act. There is a lot of concern that wilderness designations 
make fighting fires difficult. But we know that in fact that is 
not true, even though there are a lot of myths that surround 
wilderness areas. The act does make clear that Federal agencies 
can act to prevent and control fire in wilderness areas. It is 
also the case, as we have discovered surveying the aftermath of 
the fires we have had in California this year, that southern 
California fires were started by people on or near roads, as 
are 80 percent of all fires in the West, and this is according 
to the Forest Service.
    The Los Padres National Forest is in our backyard, my 
district. I represent part of it. The Forest Service quickly 
approved the use of bulldozers in wilderness areas to prevent 
the spread of fires in the last two summers. In 2006, during 
the Day Fire, which burned 165,000 acres, the Forest Service 
used bulldozers in the Siskiyou Wilderness to help build a 163-
mile firebreak around the fire.
    And this past summer the Zaca Fire burned 240,000 acres. It 
took 3 months. The Forest Service used bulldozers and other 
equipment to create a 2-mile firebreak inside the San Rafael 
Wilderness. So on both instances the Forest Service did have 
the tools that it needed to get the job done.
    Mr. Hund, I want to ask you three questions and within 5 
minutes you will not be able to go very deep into any of them, 
I'm sorry. But I understand you live in one of the more fire 
prone areas that we are considering, so you can give us 
firsthand testimony, maybe one or two examples of how Mrs. Bono 
has worked to ensure that her bill accommodates access for fire 
prevention or firefighting.
    Mr. Hund. Thank you very much, Congresswoman Capps. 
Representative Bono was very cognizant of the fact that 
particularly the western part of the district is very fire 
prone. And even though the Wilderness Act does provide 
managers, land managers with all the tools that they need to 
fight fire, and there are many examples of them using those 
tools, she still met with agency personnel and with other fire 
professionals and drew the boundaries of the proposed 
wilderness areas in such a way that they would accommodate 
effectively fire management. She made 20 boundary changes in 
order to ensure effective fire and fuels management. And I will 
just give you a couple of examples.
    There is a dirt road on a ridge known as Rouse Ridge in the 
proposed South Fork San Jacinto Wilderness, and there is a fuel 
break on that ridge. And so she created a 200-foot buffer on 
both sides of the road to allow for the continued maintenance 
of that fuel break. And she also adjusted the boundaries of the 
Cahuilla Wilderness where there was, quote, from the Forest 
Service, good tractor ground so that they would be able to 
modify fuels in that area to protect the community of Anza. And 
last Highway 74, which is one of the primary routes into my 
community, Idyllwild, California, at the Forest Service request 
she included a 300-foot setback from Highway 74 so that the 
Forest Service could modify fuels to create an emergency 
evacuation route, and in fact that fuel modification has 
occurred.
    Mrs. Capps. Those are excellent examples of stakeholders 
being involved, actually in the formation of the legislation, 
it sounds to me is what you are saying.
    Mr. Hund. Yes.
    Mrs. Capps. If you could tell us just very briefly about 
off road vehicle use. Are there any examples of how this bill 
accommodates that?
    Mr. Hund. Yes. In the case of Beauty Mountain, for example, 
three routes were cherry stemmed for that and fuels management. 
And then also in the vicinity of the Chuckwalla Mountains and 
the Orocopia Mountains there were designated routes in washes 
the Congresswoman explicitly left out of the bill so that those 
designated routes were off road vehicle use and other vehicles 
would remain open.
    Mrs. Capps. Excellent. I have a couple more seconds I 
think. This question is probably too long to answer quickly, 
but I think it is important to get it out and maybe a quick 
response. Do the important wilderness values in this area and 
the language in the bill on fire and recreation stand at odds 
with your views? I mean we are talking about putting a lot of 
things together in a bill. Are we treating this area that you 
call home, and it is dear to you obviously, you are here to 
testify about it, are we treating this area with proper caution 
through this legislation?
    Mr. Hund. When you say proper caution, could you just 
elaborate a little bit?
    Mrs. Capps. Is it a balanced piece of legislation?
    Mr. Hund. I think it is extremely balanced. What it is 
doing is preserving great back country recreation opportunities 
while at the same time allowing for management and other forms 
of recreation.
    Mrs. Capps. So it might even be considered a model?
    Mr. Hund. I think very much so.
    Mrs. Capps. Thank you very much.
    Mr. Grijalva. Thank you.
    Mr. Bishop.
    Mr. Bishop. Let me run through a couple of these and see if 
I can get them as quick as possible. Mr. Dart, for example, 
what kind of recreational activities currently take place on 
what would be on this proposed wilderness area in 3682?
    Mr. Dart. Well, there is a lot of use by sport utility 
vehicles on some of the back roads, ATVs, motorcycles, dune 
buggies.
    Mr. Bishop. I guess I asked you a stupid question. Let me 
try and change this. Which one of those would be impacted by 
changing the designation into wilderness?
    Mr. Dart. All of them.
    Mr. Bishop. Does the organization with which you have 
worked oppose wilderness designation routinely?
    Mr. Dart. I am sorry.
    Mr. Bishop. Do you oppose all wilderness designation?
    Mr. Dart. No, not at all. There are many areas we can agree 
with wilderness advocates that are appropriate.
    Mr. Bishop. How much input did you have into, or the 
recreational community have into this proposed legislation?
    Mr. Dart. Very, very little.
    Mr. Bishop. Would you be willing to work with 
Representative Bono's office?
    Mr. Dart. Absolutely.
    Mr. Bishop. I think that would be a wise thing to do.
    Let me ask a couple questions of Mr. South if I could. 
1984, I understand was the last designation or study 
designation for wilderness in this area. Were you involved in 
the studies that resulted in our current wilderness areas?
    Mr. South. Yes, I was.
    Mr. Bishop. How much of that proposed area, how much of the 
proposed area in the proposal for this bill, the Arizona bill, 
met that wilderness criteria then?
    Mr. South. Are you asking me the 1984, that met the 
criteria.
    Mr. Bishop. Yes.
    Mr. South. It did in 1984, but we already had an area 
reserved for protection--the Goody Natural Resource Area--which 
I was part of enlarging before the 1984 wilderness bill 
actually went into effect.
    Mr. Bishop. So in the 20 years since that time what has 
changed in this particular area?
    Mr. South. The amount of illegal traffic coming across the 
border has increased tremendously in my 28 years on the border. 
What I mean illegal traffic, I mean the border crossers, the 
cross border violators, the contraband, the number of illegal 
trails within the existing Pajarita Wilderness and the Sycamore 
Canyon. It has increased just tremendously.
    Mr. Bishop. So that is the human activity of which you are 
speaking?
    Mr. South. Yes.
    Mr. Bishop. There is motorized use in wilderness areas 
permitted in emergency situations to pursue suspects. Can you 
tell me what the criteria for that pursuit would be, and would 
that include regular patrolling?
    Mr. South. It will not allow regular patrolling. Think of 
it as your patrol officer responding to your neighborhood just 
periodically. Is he always coming in in an emergency? No. When 
I think of emergency, I am thinking of life and death type 
things that get in there and get you. Not for the common 
ordinary patrols that the law enforcement officers need to do 
to protect our neighborhoods and/or the border. There is a 
difference here.
    Mr. Bishop. Would the use of the emergency motorized 
vehicles now require a sighting of something before it can take 
place?
    Mr. South. I'm sorry, would you repeat the question again.
    Mr. Bishop. If you can now use emergency motorized vehicles 
to go after a suspect, does it require a sighting currently 
before you can actually do that?
    Mr. South. Yes. You need to see that person first before 
you got to go after him. It would eliminate just the normal 
patrols.
    Mr. Bishop. Of any kind of preventive patrols.
    Mr. South. Yes, any kind of preventive patrols would be 
eliminated.
    Mr. Bishop. I got like about a minute and a half. And I am 
looking at that one picture there with all the clothes that are 
around there. Why is that debris left there?
    Mr. South. This was a band of illegal people coming across. 
What has happened is that the group of smugglers, the coyotes 
they call them, brought these people across with the intent of 
robbing them. What you see here is the clothes. Where the 
clothes are is where those individual people from across lines 
and were seeking a better life in America were robbed at 
gunpoint. The smugglers then stripped them of all their 
clothing or their backpacks and stuff and threw everything on 
the ground to make them vulnerable, then to bring them across 
into safe houses on the U.S. side. And so this bare ground that 
you see between the packs and clothes are where the people were 
standing. So when you walk up and down the wash there, each 
bare spot is where there was nobody standing. But where all the 
garbage is is where they stripped everybody to take away their 
valuables. What happens now, those guys are in cahoots, bring 
those people across at their mercy, because they stripped all 
away their IDs, money, phones, anything else. And they get to a 
safe house further north. And then they are required to 
supplement the border, you know, the bad guys, with more money 
as like a ransom.
    That is what is happening here. That is why you are seeing 
in all that garbage. It is not because we are just going to 
throw it here. That was a robbery.
    Mr. Bishop. Thank you. I appreciate you answering my 
question. And you did that with one second to spare, so thank 
you, sir. I will yield back.
    Mr. Grijalva. Thank you. Let me thank the panel. And I will 
be--I have other questions for Mr. Hund and Mr. Skroch that I 
will submit to you in writing, and hopefully get those answers 
back as soon as possible so they can be part of the record, 
those responses. And just to thank you for your testimony.
    In particular, H.R. 3287 recognizes the need for drug 
interdiction and border enforcement in proposed wilderness 
areas. Anybody who questions this has clearly not read the 
legislation. Be that as it may, thank you very much and we will 
invite the next panel. Thank you very much.
    Mr. Grijalva. Let me welcome our last panel and begin with 
Mr. Dennis Harmon, General Manager, Water Supply Storage, 
regarding H.R. 2334. Sir, your testimony.

         STATEMENT OF DENNIS HARMON, GENERAL MANAGER, 
                  WATER SUPPLY STORAGE COMPANY

    Mr. Harmon. Good afternoon, Chairman Grijalva and members 
of the Subcommittee. We appreciate the opportunity to provide 
testimony to the Subcommittee concerning House bill 2334, the 
Rocky Mountain National Park Wilderness and Indian Peaks 
Wilderness Expansion Act. Water Supply & Storage Company is a 
116-year old nonprofit mutual ditch company. It collects and 
distributes about 60,000 acre-feet of water annually to roughly 
40,000 acres of farmland in northern Colorado.
    Company facilities include the Grand River Ditch, most of 
which lies within Rocky Mountain National Park. Grand River 
Ditch provides about one-third of the total water that we 
collect and distribute each year to our shareholders. It was 
not always so. In 1890, when ditch construction began and the 
first water was appropriated for the ditch Coloradans who were 
settling in the State developed water and other natural 
resources and put them to beneficial use. Farmers arriving in 
northern Colorado at that time looking to establish homesteads 
quickly learned that the naturally occurring rainfall there was 
providing only about half that was needed for crop production. 
In accordance with Federal and State law at the time, they 
searched for available water not already claimed and filed for 
a ditch water right and right-of-way for the Grand River Ditch.
    The water right was adjudicated later on August 3, 1906. In 
1907, after the water right was adjudicated, Federal 
regulations were issued requiring Water Supply and Storage 
Company to sign a stipulation or else. The stipulation required 
the company, because the Grand River Ditch was located on 
public lands, to accept the strict liability standard or 
forfeit its legally established right-of-way and abandon its 
investment in the ditch, reducing acreage being farmed and so 
on.
    And I will tell you here that in the early days we can tell 
by looking at the old records an assessment for a shareholder 
in those days consisted of the shareholder agreeing to send one 
of his hired men and a team of horses up to work on the ditch. 
If the company had decided to abandon the ditch instead of 
signing the stipulation, one might assume they could have 
secured other water elsewhere. Not necessarily so. Because 
Colorado's water law is based on a concept of prior 
appropriation where first in time, first in right applies, the 
company would have been forced to search for later junior, less 
reliable water supplies to replace those collected by the 
ditch, if it was even available.
    By the end of the 19th century most of the valuable water 
rights had been claimed and put to beneficial use by others. 
Equivalent water simply was not available in 1907 when the 
stipulation was signed.
    Eight years later, in 1915, Rocky Mountain National Park 
was established. The park boundary at that time did not include 
any of the land around the Grand River Ditch on the west side 
of the Continental Divide where most of it lies. In fact, not 
until 1930, 40 years after the first appropriation of water in 
the ditch when the park boundary was expanded was the majority 
of the ditch annexed into the park. With the 1907 stipulation, 
the 1930 park expansion, the enactment of the Park System 
Resource Protection Act in 1990 and the proposed wilderness 
legislation, our shareholders, understandably so I think, had 
become increasingly alarmed at the pattern of increasing 
Federal legislation and control over the ditch.
    When we learned of this proposed legislation we approached 
the Colorado delegation and asked for their help to insert some 
language in the draft bill to mitigate what we believe are some 
fundamental inequities. I will go through a couple specifics 
here.
    Section 4(d)(1) of the bill excludes of Grand River Ditch 
from the wilderness designation. What is included in the bill 
is functionally the same as the exclusions provided by the 
Rocky Mountain National Park for its own roads on the map, 
which is described in sections 3 and 4. Section 4(e)(4)(A) 
would modify the company's liability from strict liability to 
simple negligence. The new negligence standard was modeled on 
the liability standard under Colorado law for all ditches that 
we labor under now with our other facilities. Water Supply & 
Storage Company would be responsible for damages caused to the 
park resources and facilities if we were at fault, as it should 
be if the language is passed as it is written today, if the 
legislation is passed as it is written today.
    In summary, we believe that Section 4(e)(4)(A) of H.R. 2334 
as drafted, A, preserves a historical agricultural heritage by 
bringing balance to an unfair situation which has a potential 
of harming northern Colorado agriculture; B, it recognizes the 
park effectively annexed the ditch in the 1930 expansion. The 
ditch was not built in a national park. And C, recognizes a 
very unique situation, preexisting water facilities, and 
requires an operating and maintenance agreement.
    We don't know of another similar water ditch or other 
facility in any national park which predates the park and the 
National Park Service itself. Therefore, we don't think that 
H.R. 2334 creates a precedent that would adversely affect 
application of the PSRPA nationwide. Section 4(e)(4)(D) 
protects the possible future of the use of the Grand River 
Ditch and the water transported there and for the benefit of 
our municipal shareholders. Although all the water presently 
captured in the Grand River Ditch is used for agricultural 
purposes today, undoubtedly that will change over time. We 
would like to avoid future disputes.
    We request the opportunity to supply additional testimony 
in writing to the Subcommittee at a later date, particularly in 
response to questions which you may pose. I would like to 
especially thank Representative Udall and Representative 
Musgrave, Senators Salazar and Allard for their support in 
working through some very difficult issues to arrive at a 
compromise which not only adds the wilderness designation to 
the park but protects the ditch, the Grand River Ditch, an 
important part of Colorado's agricultural heritage.
    Thank you for this opportunity to speak to you.
    [The prepared statement of Mr. Harmon follows:]

             Statement of Dennis Harmon, General Manager, 
                    Water Supply and Storage Company

    Good afternoon Chairman Grijalva and members of the Subcommittee. 
We appreciate the opportunity to provide testimony to the Subcommittee 
concerning H.R. 2334, which would designate as wilderness portions of 
Rocky Mountain National Park (``RMNP'') administered by the National 
Park Service (``NPS'').
Background of WSSC and the Grand River Ditch
    The Water Supply and Storage Company (``WSSC'') owns and operates 
the Grand River Ditch, which is a water supply ditch located in the 
Never Summer Range in RMNP. The Grand River Ditch provides irrigation 
water to approximately 40,000 acres of land located in Larimer and Weld 
Counties in northern Colorado. WSSC owns, operates and maintains eleven 
reservoirs and seven ditch systems, including the Grand River Ditch. 
WSSC's system of ditches, canals and laterals is more than 100 miles in 
total length and provides approximately 60,000 acre-feet of water 
annually to 173 shareholders.
    The Grand River Ditch is an integral component of the Water Supply 
and Storage Company system. The Ditch is located in the headwaters of 
the Colorado River on the West Slope of Colorado (i.e., west of the 
Continental Divide). The north segment or branch of the Grand River 
Ditch (sometimes referred to as the North Ditch) is approximately 17 
miles long and traverses a variety of creeks. Water from these creeks 
can either be diverted into the Ditch or can be released so that it 
continues to flow down these creeks to the Colorado River. A measuring 
weir and recorder for the Grand River Ditch is located near La Poudre 
Pass. A shorter branch of the Grand River Ditch (sometimes known as the 
Specimen Ditch or the South Ditch) also captures various waters and 
transports them to La Poudre Pass.
    At La Poudre Pass, water diverted by the Grand River Ditch crosses 
to the East Slope of Colorado (i.e., east of the Continental Divide) 
and flows to Long Draw Reservoir, which is located in Roosevelt 
National Forest. From Long Draw Reservoir, water is delivered down the 
Cache La Poudre River to WSSC's system of canals, ditches and laterals 
for agricultural purposes. Although a number of WSSC's shares are owned 
by municipalities, and water ultimately will be used by them for 
municipal purposes, water diverted by the Grand River Ditch is used 
exclusively to irrigate crops and water livestock at this time. The 
primary water right for the Grand River Ditch is decreed to divert 
waters from the Colorado River basin with an adjudication date of 
August 3, 1906 and an appropriation date of September 1, 1890 in the 
amount of 524.6 cfs (cubic feet per second of time).
    WSSC was incorporated as a Colorado mutual ditch company in 1891. 
Under Colorado law, the shareholders of a mutual ditch company own pro 
rata interests in the company's water rights and other facilities; 
therefore, a mutual ditch company is essentially a water distribution 
organization owned and operated by its shareholders and is not a 
profit-generating enterprise.
    WSSC holds a right-of-way for the Grand River Ditch under the 
Irrigation or General Right of Way Act of March 3, 1891 (``1891 Act'') 
codified at 43 U.S.C. Sec. Sec. 946-49. Construction on the Grand River 
Ditch began in 1890. The federal lands around the Grand River Ditch 
were included in the Medicine Bow Forest Reserve around the turn of the 
century, at which time they were administered by the fledgling United 
States Forest Service. The Forest Service and WSSC entered into a 
stipulation concerning the operation and maintenance of the Grand River 
Ditch on March 21, 1907, which was required by a 1906 federal 
``amendatory regulation'' applicable to rights-of-way.
    RMNP was created in 1915, but did not include most of the land 
surrounding the Grand River Ditch at that time. In fact, the portions 
of Medicine Bow Forest Reserve that included the Never Summer Range and 
the land through which the Grand River Ditch flows were not included in 
RMNP until 1930. Thus, WSSC and the Grand River Ditch had existed for 
some 35 years prior to becoming part of RMNP.
The Wilderness Proposal in H.R. 2334
    H.R. 2334 proposes to designate significant portions of RMNP, 
including the area in which the Grand River Ditch is located, for 
inclusion as part of the National Wilderness Preservation System 
pursuant to the Wilderness Act of 1964. The bill was introduced by 
Representatives Udall and Musgrave. A corresponding bill in the Senate 
(S. 1380) also enjoys bipartisan sponsorship having been introduced by 
Senators Salazar and Allard.
    Two provisions of H.R. 2334 directly affect WSSC:
    <bullet>  Section 4(d)(1) specifically excludes from the boundaries 
of the wilderness designation: ``[t]he Grand River Ditch (including the 
main canal of the Grand River Ditch and a branch of the main canal 
known as ``Specimen Ditch''), the right-of-way for the Grand River 
Ditch, land 200 feet on each side of the marginal limits of the Ditch 
and any associated appurtenances, structures, buildings, camps, and 
work sites in existence as of June 1, 1998.
    <bullet>  Sections 4(e)(4)(A)-(D) state:
        A.  Liability--Notwithstanding any other provision of law, or 
        any stipulation or applicable agreement, during any period in 
        which the Water Supply and Storage Company (or any successor in 
        interest to the Water Supply and Storage Company with respect 
        to the Grand River Ditch) operates and maintains the portion of 
        the Grand River Ditch within the Park in compliance with an 
        operations and maintenance agreement between the Water Supply 
        and Storage Company and the National Park Service entered into 
        on XXXXXXXXXXXX, no individual or entity who owns, controls, or 
        operates the Grand River Ditch shall be liable for any response 
        costs or for any damages to, loss of, or injury to the 
        resources of the Park resulting from any cause or event 
        (including, but not limited to, water escaping from any part of 
        the Grand River ditch by overflow or as a result of a breach, 
        failure, or partial failure of any portion of the Grand River 
        Ditch, including the portion of the ditch located outside the 
        Park), unless the damages to, loss of, or injury to the 
        resources are proximately caused by the negligence or an 
        intentional act of the individual or entity.
        B.  Limitation--Nothing in this section limits or otherwise 
        affects any liability of any individual or entity for damages 
        to, loss of, or injury to any resource of the Park resulting 
        from any cause or event that occurred before the date of 
        enactment of this Act.
        C.  Existing Activities--Nothing in this Act, including the 
        designation of the Wilderness under this section, shall 
        restrict or otherwise affect any activity (including an 
        activity carried out in response to an emergency or 
        catastrophic event) on, under, or affecting the Wilderness or 
        land excluded under subsection (d)(1) relating to the 
        monitoring, operation, maintenance, repair, replacement, or use 
        of the Grand River Ditch that was authorized or approved by the 
        Secretary as of the date of enactment of this Act.
        D.  No Effect--Notwithstanding any other provision of any 
        previous or existing law, any stipulation, or any agreement, or 
        interpretation thereof, use of water transported by the Grand 
        River Ditch for a main purpose or main purposes other than 
        irrigation shall not terminate or adversely affect the right-
        of-way of the Grand River Ditch, and such right-of-way shall 
        not be deemed relinquished, forfeited, or lost, solely because 
        such water is used for a main purpose or main purposes other 
        than irrigation.
Explanation of the Provisions Affecting WSSC
    WSSC has worked closely with Representatives Udall and Musgrave and 
Senators Salazar and Allard to draft language for the legislation that 
accomplishes the wilderness objectives of the bill and protects the 
interests of WSSC and its shareholders. WSSC is pleased to have this 
opportunity to explain the rationale of these particular sections to 
the Subcommittee.
    Excluding the Grand River Ditch and an area on either side of the 
Ditch allows WSSC to properly operate and maintain the Ditch including 
conduct of activities, such as operation of motorized mechanical 
equipment, otherwise not permitted in wilderness areas. Exclusion of 
200 feet on either side of the Ditch is the same margin as the land 
excluded to either side of RMNP roads.
    H.R. 2334 should also not cause any change in land use, land 
management, or water rights. The GRD diverts water high in the Colorado 
mountains and transports it some 50 miles downstream to its location of 
use. At present, all of the water is used for agricultural irrigation; 
however, a portion of WSSC's stock is owned by Colorado municipalities 
and GRD water will be used for this purpose in the future. No matter 
what the end use is, the existence of the GRD in RMNP imposes the same 
burden on the Park. In other words, there is no change in land use, 
land management or water rights whether the end use of water is 
agricultural irrigation or municipal use. Conversion of agricultural 
water to municipal purposes is commonplace in Colorado, and the GRD is 
no exception. In a mutual ditch company such as WSSC, ownership of 
stock represents a pro rata share of ownership in the water rights of 
the company. Therefore, when a shareholder sells his or her stock, the 
shareholder benefits, but WSSC derives no revenue from the transaction.
    Similarly, WSSC does not anticipate that our day-to-day 
relationship to the NPS staff at RMNP will change significantly as a 
result of the wilderness designation in S. 1380. WSSC and the RMNP have 
worked together on issues related to the Park and to the GRD for 
upwards of 70 years, and we have no reason to believe that the 
relationship will be substantially altered in the future.
    The liability provisions of Section 4(e)(4)(A)-(D) require 
additional background information. In 1990, Congress enacted the Park 
System Resource Protection Act (``PSRPA''), 16 U.S.C. Sec. 19jj. That 
Act imposes liability for damage caused to any park system resource:
          (a) In general. Subject to subsection (c), any person who 
        destroys, causes the loss of, or injures any park system 
        resource is liable to the United States for response costs and 
        damages resulting from such destruction, loss, or injury.
          (b) Liability in rem. Any instrumentality, including but not 
        limited to a vessel, vehicle, aircraft, or other equipment that 
        destroys, causes the loss of, or injures any park system 
        resource or any marine or aquatic park resource shall be liable 
        in rem to the United States for response costs and damages 
        resulting from such destruction, loss, or injury to the same 
        extent as a person is liable under subsection (a).
Thus, the PSRPA purports to create a new standard of strict liability 
applicable to the Grand River Ditch notwithstanding that the GRD 
existed before creation of the Medicine Bow Forest Reserve, before RMNP 
was established and for about 40 years before RMNP included the GRD. 
This is not a situation where WSSC applied to either the Forest Service 
(at the time the property was Forest Reserve) or the NPS (after RMNP 
was established) to locate a ditch on federal property pursuant to 
terms and conditions required to protect the federal interest. Over the 
years, the GRD has become subject to increasing legal regulation, most 
recently by the enactment of the Park System Resource Protection Act 
(``PSRPA'').
    The 1907 Stipulation between the WSSC and the Forest Service (to 
which the NPS has succeeded) states that the Company shall ``pay the 
United States for any and all damages sustained by reason or use and 
occupation of said forest reserve by the Company, its successors and 
assigns, regardless of the cause and circumstances under which such 
damages shall occur.'' WSSC was required to execute this Stipulation by 
a federal regulation enacted in 1906, years after construction of the 
Grand River Ditch had commenced. Even after the Stipulation had been 
executed, it was essentially ineffective. Neither the Forest Service 
nor the NPS had ever sought to enforce the liability provision of the 
1907 Stipulation set forth above until the NPS commenced an action 
under the PSRPA in response to a breach of the Ditch in May 2003, which 
is discussed below.
    Imposition of a strict liability standard clearly may have the 
unintended consequence of severely and adversely affecting agricultural 
interests in northern Colorado. It is difficult to imagine that either 
the PSRPA or 1907 Stipulation intended to put farming interests in 
economic jeopardy, or potentially out of business, by making them 
liable for millions of dollars in damages for a harm that was not 
caused by their actions. WSSC certainly does not take lightly the 
potential for damage to RMNP resources; however, a fair balancing of 
the affected interests compels the conclusion that neither the PSRPA 
nor the 1907 Stipulation should impose liability without fault. WSSC 
agrees that our national parks are certainly worthy of protection; 
however, we cannot believe that Congress intends punitive consequences 
to the agricultural community in the event that another breach of the 
GRD occurs where WSSC is without fault.
    Section 4(e)(4)(A) of H.R. 2334 rectifies the fundamental 
unfairness of a strict liability standard of relief, particularly when 
it is imposed on WSSC literally 100 years after construction of the 
Grand River Ditch commenced. Strict liability is an inappropriate 
standard of liability because it potentially makes WSSC liable for 
damages caused by events beyond its control such as naturally occurring 
landslides into the Ditch that, in turn, cause a breach event. 
<SUP>1</SUP> WSSC, like other owners of private property potentially 
affecting federal property interests, should be subject to a negligence 
standard of liability or, in other words, liability for damages caused 
by the negligent conduct of WSSC. Negligence is the standard of 
liability imposed on ditch owners in under Colorado law, which is the 
reason it was proposed in H.R. 2334.
---------------------------------------------------------------------------
    \1\ We are unaware of any case applying the PSRPA's ``Act of God'' 
defense; however, cases decided under other similar statutes have held 
that the subject natural phenomenon must be ``exceptional, inevitable, 
and irresistible'' and must be the ``sole'' cause of the harm. See 
generally Apex Oil Co. v. United States, 208 F.Supp.2d 642, 650-59 
(E.D. La. 2002). The courts have so eviscerated the statutory ``Act of 
God'' defense that WSSC believes that its liability should be 
determined based upon its negligent or intentional conduct and the 
common law defenses applicable thereto.
---------------------------------------------------------------------------
    Section 4(e)(4)(A) includes an additional safeguard by requiring 
that the negligence standard of liability will apply only in the event 
that WSSC is in compliance with an Operating and Maintenance Plan 
(``O&MP'') to be entered into between it and the NPS. The parties have 
already exchanged drafts of the O&MP and are attempting to resolve 
their differences. While some significant differences of opinion are 
evident in the documents exchanged to date (mostly related to the scope 
of the O&MP and the extent to which it should incorporate other legal 
regulations and standards by reference), WSSC continues to proceed on 
the basis that both parties will apply their best efforts to the 
negotiations and that a mutually acceptable document can be completed. 
WSSC, however, wishes to be clear that it does not support the 
wilderness legislation and does not believe the bill should become law 
in the absence of Section 4(e)(4)(A) and the negligence standard of 
liability permitted by it. Successful completion of the O&MP 
negotiations, therefore, is imperative and should be completed at the 
earliest possible date.
    WSSC believes that Section 4(e)(4)(B) was requested by the NPS to 
explicitly preserve its legal action against WSSC related to a breach 
of the Grand River Ditch in May 2003. Litigation related to this breach 
is pending presently in the U.S. District Court in Colorado. WSSC 
understands that this case is unaffected by H.R. 2334.
    Section 4(e)(4)(C) is similar in the sense of preserving and 
protecting ``existing activities'' related to the Grand River Ditch. In 
particular, this section recognizes and incorporates as an ``existing 
activity'' the fact that a significant number of the WSSC's shares are 
owned currently by Colorado municipalities and that water diverted by 
the Grand River Ditch will be used by them for municipal purposes. The 
inevitability of municipal use of a portion of the Grand River Ditch is 
clearly an ``existing activity'' within the scope of Section 
4(e)(4)(C). This section is very important to the municipal 
shareholders in WSSC and is also fundamental to WSSC's support for the 
wilderness legislation.
    Finally, Section 4(e)(4)(D) is intended to ensure, notwithstanding 
any case law arguably to the contrary, that the use of water 
transported in the Grand River Ditch will not be adversely affected, 
and that the right-of-way for the Ditch shall not be relinquished, 
forfeited or lost, because water diverted to the Ditch will be used for 
municipal purposes as opposed to agricultural irrigation. As noted 
above, the fact that shares of WSSC are owned by various municipalities 
is well known, and Congress should explicitly ensure that use of the 
Grand River Ditch water and right-of-way will be preserved at the time 
they are used for municipal purposes.
    Section 4(e)(4)(D) begins ``[n]otwithstanding any other provision 
of any previous or existing law'' because the 1891 Act under which 
WSSC's right-of-way was granted was repealed by the Federal Land Policy 
Management Act (``FLPMA''), 42 U.S.C. Sec. Sec. 1701 to 1785, but the 
1891 Act remained in effect with respect to rights acquired prior to 
October 21, 1976, the effective date of FLPMA. See 43 U.S.C.A. Sections 
1701, 1769.'' Overland Ditch and Reservoir Co. v. United States Forest 
Service, No. Civ. A. 96 N 797, 1996 WL 33484927 (D. CO., Dec. 16, 1996) 
at *9, footnote 2. The reference to ``previous law'' expressly picks-up 
this legislative history and expressly preserves the integrity of 
WSSC's right-of-way.
Conclusion
    The provisions of the H.R. 2334 discussed above directly and 
significantly affect WSSC and the Grand River Ditch and are critical to 
WSSC's support of the legislation. Each of these provisions has been 
discussed in detail and at length with the offices of Representatives 
Udall and Musgrave and Senators Salazar and Allard, all of whom 
contributed to the language of these sections prior to introduction of 
S. 1380 and H.R. 2334.
    Throughout its more than 100 years of existence, WSSC has worked 
diligently to be a good neighbor and property owner in RMNP. We believe 
that our working relationship with RMNP and the NPS has been good and 
productive over the years, and we anticipate that relationship will 
continue in the years to come.
    WSSC thanks the Subcommittee for the opportunity to present our 
views on H.R. 2334, and we would be pleased to respond to any 
questions.
                                 ______
                                 
    Mr. Grijalva. Thank you. And you took a minute of Mr. Mark 
Udall's time, but we will adjust as we go along. The Honorable 
William Pinkham, Mayor Pro Tem, Town of Estes Park, Colorado. 
Mr. Mayor, your testimony, please.

           STATEMENT OF BILL PINKHAM, MAYOR PRO TEM, 
                  TOWN OF ESTES PARK, COLORADO

    Mr. Pinkham. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to present the views of the Town 
of Estes Park on H.R. 2334, a bill to designate as wilderness 
certain lands within Rocky Mountain National Park and adjust 
the boundaries of the Indian Peaks Wilderness and Arapaho 
National Recreational Area of the Arapaho National Forest in 
the State of Colorado.
    Forty-three years have passed since Congress designated 
Rocky Mountain National Park as a wilderness study area, and 33 
years have passed since President Nixon recommended wilderness 
designation. On May 14, 2007, local citizens and officials 
applauded the announcement with Representatives Musgrave and 
Udall and Senators Allard and Salazar at the Marine Park 
Campground Amphitheater in Rocky Mountain National Park of the 
introduction of bipartisan legislation to permanently protect 
the back country of the park as wilderness. And it was a banner 
day because the wind wasn't blowing and it also didn't rain or 
snow on us. H.R. 2334 was then introduced into the House of 
Representatives by Congressman Mark Udall with Congresswoman 
Marilyn Musgrave as co-sponsor.
    The Town of Estes Park, one of the two gateway communities 
to Rocky Mountain National Park, fully supports H.R. 2334, 
designating approximately 250,000 acres of Rocky Mountain 
National Park's back country in the National Wilderness 
Preservation System. The town will not take a position on the 
Grand River Ditch liability issue. However, it appears this is 
a major obstacle in granting wilderness designation to the 
park, and we hope prompt resolution can be reached.
    In addition to Estes Park, the gateway community of Grand 
Lake and three Colorado counties which encompass the park, 
Larimer, Grand and Boulder, have endorsed the wilderness 
designation for Rocky Mountain National Park. It is also 
supported by a variety of conservation and civic groups, 
including the League of Women Voters, Colorado Environmental 
Coalition, Colorado Mountain Club, the Wilderness Society, 
Headwaters Trails Alliance, and the International Mountain 
Biking Association.
    Wilderness designation will help sustain the ecological 
health of the park, guarantee the economic vitality of the 
local communities, and ensure that the park remains as it is 
today for future generations of visitors to enjoy and explore. 
The Board of Trustees, the Town of Estes Park, has thoroughly 
reviewed the present proposed wilderness boundaries and 
received public input with regard to the designation of 
wilderness and all agreed to fully support it as evidenced in 
the Estes Park Resolution Number 17-05, which I believe you 
have a copy of with my testimony. We hope that the wilderness 
designation legislation will be adopted and will permanently 
protect and solidify the wild character of the park lands in 
perpetuity. Designation will have no impact on park management 
and function and would in no way alter current activities or 
access in the park. Park managers will continue to encourage 
hiking, backpacking, horseback riding, fishing, climbing, 
skiing, snowshoeing and sightseeing with ample access to one of 
the Nation's most beautiful landscapes.
    Trail Ridge Road, the highest continuous paved road in the 
continental United States, and Fall River Road, the first road 
to cross the Rocky Mountains in northern Colorado, will 
continue to be maintained for motorized travel. This will allow 
visitors of all ages and abilities to experience the history 
and majesty of the magnificent park lands and the wilderness 
represented.
    Wilderness designation will reaffirm the park's original 
mission to preserve vistas and wildlife, protecting the 
unscarred landscape from a crisscrossing of roads and from 
policies that could degrade the character of the park's forest 
and its quiet places. In this age of opportunistic development 
it is important to protect this national treasure. By-products 
of preservation also will promote clean air, water and open 
spaces for the benefit of the public health in Colorado.
    We urge you to resolve any remaining issues and to act on 
the wilderness designation for Rocky Mountain National Park. 
Now is the time to make a difference and to forever preserve 
our treasure for all generations.
    Mr. Chairman, this concludes my statement. I would be happy 
to provide any further support or documentation that would 
assist in the passage of H.R. 2334.
    [The prepared statement of Mr. Pinkham follows:]

               Statement of Bill Pinkham, Mayor Pro Tem, 
               Town of Estes Park, Colorado, on H.R. 2334

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Town of Estes Park on H.R. 
2334, a bill to designate as wilderness certain lands within Rocky 
Mountain National Park and adjust the boundaries of the Indian Peaks 
Wilderness and Arapaho National Recreation Area of the Arapaho National 
Forest in the State of Colorado.
    Forty-three years have passed since Congress designated Rocky 
Mountain National Park as a wilderness study area, and 33 years have 
passed since President Nixon recommended wilderness designation. On May 
14, 2007, local citizens and officials applauded the announcement by 
Representatives Musgrave and Udall and Senators Allard and Salazar at 
the Moraine Park Campground Amphitheater in Rocky Mountain National 
Park of the introduction of bipartisan legislation to permanently 
protect the backcountry of the Park as wilderness. H.R. 2334 was then 
introduced into the House of Representatives by Congressman Mark Udall 
with Congresswoman Marilyn Musgrave as cosponsor.
    The Town of Estes Park, one of the two gateway communities to Rocky 
Mountain National Park fully supports H.R. 2334 designating 
approximately 250,000 acres of Rocky Mountain National Park's 
backcountry in the National Wilderness Preservation System. The Town 
will not take a position on the Grand River Ditch liability issue; 
however, it appears this is a major obstacle in granting wilderness 
designation to Rocky Mountain National Park, and we hope prompt 
resolution can be reached.
    In addition to Estes Park, the gateway community of Grand Lake and 
the three Colorado counties that encompass the park (Larimer, Grand and 
Boulder) have endorsed the wilderness designation for Rocky Mountain 
National Park. It is also supported by a variety of conservation and 
civic groups, including the League of Women Voters, Colorado 
Environmental Coalition, Colorado Mountain Club, The Wilderness 
Society, Headwaters Trails Alliance, and the International Mountain 
Bicycling Association.
    Wilderness designation will help sustain the ecological health of 
the park, guarantee the economic vitality of local communities, and 
ensure that the park remains as it is today for future generations of 
visitors to enjoy and explore.
    The Board of Trustees of the Town of Estes Park has thoroughly 
reviewed the present proposed wilderness boundaries and received public 
input with regard to the designation of wilderness and all agreed to 
fully support it as evidenced in the attached Estes Park Resolution # 
17-05, ``Support of Wilderness Designation for Rocky Mountain National 
Park''. We hope that the wilderness designation legislation will be 
adopted and will permanently protect and solidify the wild character of 
the park lands in perpetuity. Designation will have no impact on park 
management and function and would in no way alter current activities or 
access in the park. Park managers will continue to encourage hiking, 
backpacking, horseback riding, fishing, climbing, skiing, snowshoeing 
and sight-seeing with ample access to one of the nation's most 
beautiful landscapes.
    Trail Ridge Road, the highest continuous paved road in the 
continental United States, and Fall River Road, the first road to cross 
the Rocky Mountains in northern Colorado, will continue to be 
maintained for motorized travel. This will allow visitors of all ages 
and abilities to experience the history and majesty of the magnificent 
park lands.
    Wilderness designation will reaffirm the park's original mission to 
preserve vistas and wildlife, protecting the unscarred landscape from a 
crisscrossing of roads and from policies that could degrade the 
character of the park's forest and its quiet places. In this age of 
opportunistic development, it is important to protect this national 
treasure. Byproducts of preservation also promote clean air, water and 
open spaces to the benefit of the public health in Colorado.
    We urge you to resolve any remaining issues and to act on the 
Wilderness Designation for Rocky Mountain National Park. Now is the 
time to make a difference and forever preserve our treasure for all 
generations.
    Mr. Chairman, this concludes my statement. I would be happy to 
provide any further support or documentation that would assist the 
passage of H.R. 2334.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. Mayor.
    Turning now to Mr. Arturo Sandoval, President, Center of 
Southwest Culture.

           STATEMENT OF ARTURO SANDOVAL, PRESIDENT, 
                  CENTER OF SOUTHWEST CULTURE

    Mr. Sandoval. Mr. Chairman and members of the committee, 
thank you for this opportunity to tell you why I support the 
proposed Sabinoso Wilderness Area in San Miguel County in New 
Mexico. My name is Arturo Sandoval and I am a native of New 
Mexico. I am President of the Center of Southwest Culture, an 
organization that promotes the people's and cultures of the 
Southwest through economic, cultural and educational 
initiatives. I have been engaged in supporting the well-being 
of New Mexico's Indo-Hispano people for more than 40 years.
    In New Mexico we have had people living on the land for at 
least the past 10,000 years. Native Americans have lived 
continuously in what is now New Mexico for all of that time and 
Hispanos have shared the land with them for the past 400 years. 
We boast the longest continuously occupied village in the U.S. 
Taos Pueblo in northern New Mexico has been continuously 
occupied for the past 1,000 years.
    What this deep imprint of people upon the land in New 
Mexico means is that we have developed an intimate and abiding 
relationship to place. Place has helped shaped our world view. 
It has helped us define who we are. It literally grounds us in 
core values of respect and love for all living things and for 
conservation of wild and open spaces.
    As a result, Hispanos in New Mexico know that the health of 
our cultural landscape is forever tied to the health of our 
physical landscape. Healthy cultures in New Mexico depend on 
healthy landscapes.
    I am especially honored to be with you today because the 
Sabinoso area is part of my ancestral homelands. My great-
grandparents, Pablo and Pablita Madrid, were born and raised 
near the proposed Sabinoso Wilderness in a small ranching 
community called Trementina. Today Trementina is mostly 
abandoned with just a few scattered homes and a part-time post 
office marking what was once a vibrant rural village.
    On an even more personal note, I own a small parcel of 
forest land near Sabinoso in my homelands of Mora County. There 
I am privileged to spend time riding horses, watching as deer, 
elk, wild turkey, bear and a host of birds share the landscape 
with me. In that regard I am typical of many northern New 
Mexico Hispanos who have grown up on the land and who love it 
as much as I do.
    That is why so many Hispano residents of San Miguel County 
are strongly in support of the proposed Sabinoso Wilderness. We 
know the area well. Our grandparents and parents took us there 
to hunt, to run cattle during summer months, to camp and share 
stories around the campfire. We know that protecting San Miguel 
as a wilderness area means we are also protecting our 
traditional culture.
    Just as important, we are currently engaged in a process to 
rethink our traditional land-based economy. We are rolling out 
new economic initiatives that seek to keep our people on the 
land while understanding the need to keep the land intact.
    These new sustainable economic initiatives seek to 
encourage ecotourism as a viable economic option for northern 
New Mexico's rural Hispano communities. Wilderness areas we are 
rapidly learning are one way to ensure that we can develop 
sustainable ecotourism activities and help reenergize and 
rebuild our traditional land-based communities.
    That is why the Las Vegas/San Miguel County Economic 
Development Corporation, along with the San Miguel County 
Commission and the town councils of Springer and Wagon Mound, 
New Mexico, have all passed resolutions in support of Sabinoso.
    Through the Center of Southwest Culture, we are actively 
working to create ecotourism opportunities in northern New 
Mexico. Part of our efforts to achieve economic health in small 
rural communities includes talking to local ranchers whose 
lands abut the proposed Sabinoso Wilderness.
    They strongly support creation of Sabinoso as a wilderness 
because they see the economic opportunities that wilderness 
will create, outfitting and guiding hunters and bird watchers 
and all of those millions of Americans who gain personal 
satisfaction from being someplace that has been untouched and 
unspoiled by humans.
    These local ranchers and villagers are excited because 
these Federal lands support traditional practices like hunting 
and grazing. We are happy to report that New Mexico's Game and 
Fish Department is currently talking to several local ranchers 
about purchasing public access to this pristine area, and the 
ranchers I am happy to report are happy to collaborate in this 
process.
    On behalf of our ancestors, on behalf of rural villages and 
villagers in San Miguel County, we respectfully ask that you 
pass the Sabinoso Wilderness bill and that you help us revive 
and sustain our culture and our life ways.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sandoval follows:]

               Statement of Arturo Sandoval, President, 
               Center of Southwest Culture, on H.R. 2632

    Mr. Chairman, Members of the Committee, thank you for this 
opportunity to tell you why I support the proposed Sabinoso Wilderness 
Area in San Miguel County, New Mexico.
    My name is Arturo Sandoval, and I am a native of New Mexico. I am 
president of the Center of Southwest Culture, an organization that 
promotes the peoples and cultures of the Southwest through economic, 
cultural and educational initiatives. I have been engaged in supporting 
the well-being of New Mexico's Indo-Hispano people for more than 40 
years.
    In New Mexico, we have had people living on the land for at least 
the past 10,000 years. Native Americans have lived continuously in what 
is now New Mexico for all that time, and Hispanos have shared the land 
with them for the past 400 years. We boast the longest continuously 
occupied village in the US: Taos Pueblo in northern New Mexico has been 
continuously occupied for the past 1,000 years.
    What this deep imprint of people upon the land in New Mexico means 
is that we have developed an intimate and abiding relationship to 
place. Place has helped shape our worldview. It has helped us define 
who we are. It literally grounds us in core values of respect and love 
for all living things and for conservation of wild and open spaces.
    As a result, Hispanos in New Mexico know that the health of our 
cultural landscape is forever tied to the health of our physical 
landscape. Healthy cultures in New Mexico depend on healthy landscapes.
    I am especially honored to be here today with you because the 
Sabinoso area is part of my ancestral homelands. My great-grandparents, 
Pablo and Pablita Madrid, were born and raised near the proposed 
Sabinoso Wilderness, in a small ranching community called Trementina. 
Today, Trementina is mostly abandoned, with just a few scattered homes 
and a part time post office marking what was once a vibrant rural 
village.
    On an even more personal note, I own a small parcel of forest land 
near Sabinoso in my homelands of Mora County. There, I am privileged to 
spend time riding horses, watching as deer, elk, wild turkey, bear and 
a host of birds share the landscape with me.
    In that regard, I am typical of many northern New Mexico Hispanos, 
who have grown up on the land and who love it as much as I do.
    That is why so many of us Hispano residents of San Miguel County 
are strongly in support of the proposed Sabinoso Wilderness. We know 
the area well. Our grandparents and parents took us there to hunt, to 
run cattle during summer months, to camp and share stories around the 
campfire.
    We know that protecting Sabinoso as a wilderness area means we are 
also protecting our traditional culture.
    Just as important, we are currently engaged in a process to re-
think our traditional land-based economy. We are rolling out new 
economic initiatives that seek to keep our people on the land, while 
understanding the need to keep the land intact.
    These new sustainable economic initiatives seek to encourage eco-
tourism as a viable economic option for northern New Mexico's rural 
Hispano communities. Wilderness areas, we are rapidly learning, are one 
way to ensure that we can develop sustainable eco-tourism activities 
and help re-energize and rebuild our traditional land-based 
communities.
    That is why the Las Vegas/San Miguel County Economic Development 
Corporation, along with the San Miguel County Commission and the town 
councils of Springer and Wagon Mound, NM, all have passed resolutions 
in support of Sabinoso.
    Through the Center of Southwest Culture, I am actively working to 
create eco-tourism opportunities in northern New Mexico. Part of my 
efforts to achieve economic health in small rural communities includes 
talking to local ranchers whose lands abut the proposed Sabinoso 
Wilderness.
    They strongly support creation of Sabinoso as a wilderness because 
they see the economic opportunities that wilderness will create: 
outfitting and guiding hunters, birdwatchers and all of those millions 
of Americans who gain personal satisfaction from being someplace that 
has been untouched and unspoiled by humans.
    These local ranchers and villagers are excited because these 
federal lands support traditional practices like hunting and grazing. I 
am happy to report that New Mexico's Game and Fish Department is 
currently talking to several local ranchers about purchasing public 
access to this pristine area and the ranchers are happy to collaborate 
in this process.
    On behalf of our ancestors, on behalf of rural villagers in San 
Miguel County, I respectfully ask that you pass the Sabinoso Wilderness 
bill and that you help us revive and sustain our culture and our life 
ways.
    Thank you.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. Sandoval. Before I go to the 
next witness, Mr. Sandoval, the woman I am related to marriage 
with, she is from Penasco. And she told me to be sure to nod 
approvingly as you spoke and not to ask any difficult 
questions, and I am glad to do that sir.
    Mr. Sandoval. Thank you, Mr. Chairman.
    Mr. Grijalva. Mr. Jerry Becker, Executive Director, Elk 
River Land Trust. Sir.

        STATEMENT OF JERRY BECKER, EXECUTIVE DIRECTOR, 
                      ELK RIVER LAND TRUST

    Mr. Becker. I am Jerry Becker. Thank you for the 
opportunity to testify supporting the Copper Salmon Wilderness 
Act. I am a consulting forester and watershed restorationist, a 
founding board member of Friends of Elk River, and the 
Executive Director of Elk River Land Trust.
    I have lived, worked and fished in Elk River's watershed 
since 1974. In those 33 years I have covered every part of the 
watershed. I represent Friends of Elk River, Trout Unlimited, 
Campaign for America's Wilderness, a Coalition of Sportsmen, 
the North Curry Chamber of Commerce, the City of Port Orford, 
Port Orford Watershed Council, and a who's who list of 
national, state and local public officials and environmental 
organizations who all ask me to protect Elk River and 50 miles 
of crystal and headwater streams by designating the Copper 
Salmon Wilderness Area.
    The rural community is united in support of wilderness 
designation for the Copper Salmon Area. This is why I traveled 
across the country to explain to you in plain words that the 
ecology and the economy of our remote fishing community are 
deeply interconnected. Our community depends on the health of 
Elk River watershed and the world class fishery provided by the 
North Fork of Elk River. We also know that just as our economic 
well-being is bound to our wild rivers and to our forested 
watersheds, our well-being is also dependent on the clean air 
and clean water that these forests provide.
    During the 1980s and 1990s Stocking Survey Contracts sent 
me to check the survival of newly planted conifers in U.S. 
Forest Service clear-cuts. It is easy to remember the units in 
the upper Elk River area. The slope of the land averages more 
than 80 percent, with many hill slopes exceeding 100 percent. 
And this is an area that gets 170 inches of rainfall and 
hurricane force winds. All the clear-cuts had landslides in the 
bottom of the units. Invisible from the roads above, these 
slides delivered sediment to the tributaries below the units. 
Logging road failures dump literally tons of rock into the 
river. Gravel and cobblestones worked loose by road building 
tumble down the watershed for decades, filling deep holes and 
destroying the low gradient productive flats that scientists 
consider barometers of watershed health.
    Locals understand that we must protect our natural 
infrastructure to maintain Elk River's world class salmon 
fishery. The Copper Salmon Wilderness proposal has achieved 
widespread support in Curry County because Elk River's abundant 
chinook run equals jobs that drive North Curry's economy. There 
is no matrix in the Copper Salmon. However, as was the case 
with the adjacent Grassy Knob Wilderness, old timber 
plantations remain inside the wilderness. Including these 
regrown plantations and using main roads as the Copper Salmon 
Wilderness Area boundary circumvents high priced land surveying 
and mapping expenses. It is the no-cost sensible way to go that 
best safeguards the North Fork's ecosystem and watershed 
values.
    I want to reemphasize that I am a forester and that I agree 
with the need to thin vast areas of second growth plantations. 
I also feel certain places should be left untouched for 
watershed protection, and here are two of the many reasons 
Copper Salmon Wilderness is among those places.
    I can still look down through 20 feet of clean, clear water 
and see every stone on the river bed below. And the thrill of a 
40-pound chinook salmon pulling and jumping while I try to hang 
onto my fishing rod is a connection with nature that I hope to 
share with my grandchildren.
    H.R. 3513 proclaims that big fish and exceptional water 
quality can be part of all Americans' futures. All the area 
within the proposed Copper Salmon Wilderness meet the criteria 
of the Wilderness Act.
    Please protect Elk River by authorizing the no disturbance, 
no cost Copper Salmon Wilderness Act as expeditiously as 
possible. Church groups, business leaders, fishermen, artists 
and thousands of visitors who travel great distances to smell 
the sea air and glimpse the area's unparalleled beauty join me 
in urging you to release us from the old boom and bust cycle of 
resource extraction and to make our vision of economic 
stability a reality by establishing the Copper Salmon 
Wilderness Area.
    There is nothing to restore. We simply need to permanently 
protect Elk River's headwaters.
    Thank you for the opportunity to speak at this hearing 
today. I look forward to answering your questions. And also 
have a map here that I would like to submit. It depicts the 
slopes in the area. The green area is pretty general slopes. 
The yellow area is steeper where caution should be applied. And 
the orange and red areas are extremely steep and there should 
be no disturbance, no human disturbance in those areas. And I 
ask that this be submitted for the record.
    Mr. Grijalva. Without objection. Thank you.
    [NOTE: The map submitted for the record has been retained 
in the Committee's official files.]
    [The prepared statement of Mr. Becker follows:]

           Statement of Jerry P. Becker, Port Orford, Oregon

    Thank you for the opportunity to testify supporting H.R. 3513, the 
Copper Salmon Wilderness Act. I am a consulting forester, a watershed 
restorationist, a founding board member of Friends of Elk River, and 
the Executive Director of Elk River Land Trust. I have lived, worked, 
and fished in Elk River's watershed since 1974. In those 33 years I 
have covered every part of the watershed.
    To speak before you today, I've traveled from Port Orford, a small 
fishing village located along a remote stretch of Pacific Highway 101 
that's known as America's Wild Rivers Coast--and our weather is every 
bit as wild as our rivers are.
    I represent Friends of Elk River, Trout Unlimited, Campaign for 
America's Wilderness, a coalition of sportsmen, the North Curry Chamber 
of Commerce, the City of Port Orford, the Port Orford Watershed 
Council, and a Who's Who list of national, State, and local public 
officials and environmental organizations, who all ask you to protect 
Elk River--and 50 miles of crystalline headwater streams--by 
designating the 13,700 acre Copper Salmon Wilderness Area.
    The Copper Salmon Wilderness proposal started locally, from the 
ground up. Our rural community is united in support of wilderness 
designation for the Copper Salmon area. This is why I traveled across 
the country--from shore to shore--to explain to you in plain words, 
that the ecology and the economy of our remote fishing community are 
deeply interconnected. Our community depends on the health of Elk River 
watershed and the world-class fishery provided by the North Fork of Elk 
River. We also know that just as our economic well-being is bound to 
our wild rivers and to our forested watersheds, our well-being is also 
dependant on the clean air and clear water that these forests provide.
    After graduating from the University of Rochester in New York 
State, I came to Oregon and spent much of the following 10 years timber 
cruising old-growth in the Elk River watershed. Then to support my 
family, I performed technical forestry contracts for the U.S. Forest 
Service throughout the entire Pacific Northwest. So I know what I'm 
talking about when I say that the Wild & Scenic Elk with it's 
``outstandingly remarkable'' water quality, is a real gem in Oregon's 
crown. I know that for Elk River to maintain this preeminent position, 
however, we need to protect her headwaters.
    During the 1980's and 1990's, stocking survey contracts sent me to 
check the survival of newly planted conifers in USFS clearcuts. It's 
easy to remember units in the upper Elk River area. The slope of the 
land averages more than 80%, with many hillslopes exceeding 100%. All 
the clearcuts had landslides in the bottom of the units. Invisible from 
the roads above, these slides delivered sediment to the tributaries 
below the units. I mapped and noted the slides in the ``comments'' 
sections of my data cards. And I'd wince during heavy rainstorms, 
knowing that slides were sending pulses of sediment downstream that 
would settle on spawning beds, slowly smothering precious salmon eggs 
during their incubation periods. Forty years later, logging road 
failures continue to dump literally tons of rocks into the river. 
Gravel and cobblestones worked loose by road building, tumble down the 
watershed for decades, filling deep holes and destroying the low-
gradient productive flats that scientists consider barometers of 
watershed health.
    During these contracts, the reason that Elk River was the last 
south coast watershed to be logged became obvious. Not only was it the 
most dangerous and the most expensive watershed to work in--more often 
than not--serious ecological damage resulted from building roads and 
logging in this extremely steep, rough, unstable country.
    Locals understand that we must protect our natural infrastructure 
to maintain Elk River's world-class salmon fishery. The Copper Salmon 
Wilderness proposal has achieved widespread support in Curry County 
because Elk River's abundant chinook run equals the jobs that drive 
North Curry's economy.
    The Sunday before last, my wife and I spent an afternoon at Cape 
Blanco watching Port Orford's commercial fishing fleet working right 
off the mouth of Elk River. Their ``North Beach'' or ``bubble'' fishery 
is a special late-season opportunity to catch returning Elk River 
salmon. Each Elk River Chinook brought on board means more than $100 to 
the boat's captain.
    The Copper Salmon Wilderness Act can be a ``No Cost'' action by the 
Federal Government. Because of it's high ecological value, the Elk was 
designated a Tier I Key Watershed 13 years ago. Remember, many of these 
slopes are 100% and greater. Any attempts to manage plantations which 
should never have been logged in the first place, or to decommission 
already-impassable roads, will create disturbance. And we've learned 
that even the slightest disturbance in Elk River's fragile headwaters 
degrades the watershed.
    There is no matrix in Copper Salmon. However, as was the case with 
the adjacent Grassy Knob Wilderness Area, old timber plantations--the 
legacy of imprudent management that took place decades ago--remain 
inside the Copper Salmon Wilderness. Including these re-grown 
plantations and using main roads as the Copper Salmon Wilderness Area 
boundary, circumvents high-priced land surveying and mapping expenses. 
It's the no-cost, sensible way to go that best safeguards the North 
Fork's ecosystem and watershed values.
    Indiscriminate incursions notwithstanding, Elk River watershed 
remains one of the most intact low-elevation temperate rain forests in 
the world. Although the entire area has been off-limits to logging for 
the past 13 years, there will inevitably be continued attempts to go 
back after the North Fork's timber, each furtive attempt further 
damaging and eventually irreparably destroying our world-class salmon 
fishery. The only way to really protect this unique, extremely 
important area for perpetuity is by awarding it Congressional 
protection as Wilderness.
    I want to re-emphasize that I'm a forester and that I agree with 
the need to thin vast areas of second-growth plantations. I also feel 
certain places should be left untouched for watershed protection 
reasons. Here are two of many reasons the Copper Salmon Wilderness is 
among those places:
    1.  I can still look through twenty feet of clean, clear water and 
see every stone on the riverbed below; and
    2.  The thrill of a forty-pound Chinook salmon pulling and jumping 
while I try to hang on to my fishing rod, is a connection with nature 
that I hope to share with my grandchildren.
    H.R. 3513 proclaims that big fish and exceptional water quality can 
be part of all American's futures. All of the areas within the proposed 
Copper Salmon Wilderness meet the criteria of the Wilderness Act.
    Please protect Elk River (and 50 miles of crystalline headwater 
streams) by authorizing the ``no disturbance/no cost--Copper Salmon 
Wilderness Act as expeditiously as possible.
    From retirees to schoolchildren, all facets of our coastal 
community support wilderness designation for the Copper Salmon area. 
Church groups, business leaders, fishermen, artists, and thousands of 
visitors who travel great distances to smell the sea air and glimpse 
the area's unparalleled beauty, join me in urging you to release us 
from the old boom and bust cycle of resource extraction, and to make 
our vision of economic stability a reality by establishing the Copper 
Salmon Wilderness Area.
    There is nothing to restore, we simply need to permanently protect 
Elk River's headwaters. Thank you for your wisdom on this far-reaching 
matter and thank you for the opportunity to speak before this hearing 
today. I look forward to answering your questions.
                                 ______
                                 
    Mr. Grijalva. Mr. Jacob Groves, again on H.R. 3513, 
American Forest Resource Council. Sir.

                  STATEMENT OF JACOB GROVES, 
                AMERICAN FOREST RESOURCE COUNCIL

    Mr. Groves. Good afternoon Mr. Chairman, members of the 
Subcommittee, ladies and gentlemen. Thank you for the 
opportunity to discuss my perspective, experiences and concerns 
with H.R. 3513, the Copper Salmon Wilderness Act.
    My name is Jacob Groves. I have lived, worked, fished in 
the Copper Salmon area all my life and most recently have 
walked or driven nearly every acre of the wilderness proposal. 
I am a life-long resident of the area, a third generation 
forester having grown up in Myrtle Point, Oregon and attended 
Oregon State University, where I earned my Bachelor's of 
Science in Natural Resources with an option in Forestry Ecology 
and my Master's of Forestry in Forest Biology. Currently I am 
the Western Oregon Field Forester for the American Forest 
Resource Council, AFRC. Today I am here representing AFRC, the 
Associated Oregon Loggers, and the Douglas Timber Operators.
    To highlight my testimony each of you should have a copy of 
AFRC's analysis of the Copper Salmon area complete with maps, 
photos taken on the ground, and aerial photos.
    AFRC has several concerns with this bill, but the most 
alarming to me is that approximately 1,000 acres of this 
proposal was included in the Coastal Healthy Forests 
Environmental Assessment that the Rogue-Siskiyou National 
Forest recently completed. These acres are scheduled to be 
mechanically thinned to improve forest health. This May 2007 
management decision satisfied the Forest Service requirements 
under the National Forest Management Act, National 
Environmental Policy Act, Administrative Procedures Act and 
many other laws. Furthermore, there were no appeals on this 
project, nor was a suit filed challenging the agency decision.
    The NEPA work has already been paid for by the Forest 
Service and is ready to move forward with the needed treatments 
within these stands. In addition to this acreage, we believe 
there are an additional 1,600 acres of second growth stands 
within the wilderness proposal in need of the same type of 
treatments. This project is consistent with the 1994 Clinton 
Northwest Forest Plan and legislative concepts currently being 
considered by Congressman DeFazio.
    Supporters of the bill point to the world class fishery as 
one of the main reasons to protect it. While I personally 
appreciate the fact that they also value this area, their 
efforts here seem to be misguided. Many times forest 
management, whether it be thinning, road restoration, soil 
stabilization, in-stream habitat improvements or other 
activities are needed to ensure high quality fish and wildlife 
habitat. A wilderness designation, however, would prohibit this 
type of restoration and severely limit the options of land 
managers.
    This area is naturally prone to landslides. But what this 
highlights is the need to thin some of these managed stands. 
When these natural landslides do occur, would we prefer, for 
example, 300 small diameter trees choking a stream or 60 large 
older trees delivering large woody debris to a stream? I can 
easily say that most, if not all, fish biologists would prefer 
large woody debris to provide adequate stream structure.
    Clearly the intent of this area, as established by the 
Northwest Forest Plan, is to create late successional or what 
most would consider old growth habitat, helping enhance habitat 
for both fish and wildlife. Without some active management in 
these areas, especially forest health, thinning and road 
maintenance, it will be difficult to meet these goals or to 
ever achieve late successional or old growth type forests.
    Instead of wilderness, the appropriate approach would allow 
for responsible management now and into the future to ensure 
the area remains a world class fishery. To be clear, I am not 
advocating for traditional timber management in this area even 
though it has been done in the past. But the fact of the matter 
is timber harvests have been conducted on one-fifth of the 
entire proposed wilderness and it remains an excellent fishery.
    Timber management and fishery health are certainly not 
mutually exclusive. When I reviewed the aerial photos of the 
Copper Salmon, every single photo had a road in it. Let me make 
this clear. There are 0 aerial photos without a road. This adds 
up to 11.8 miles of system roads, 92 culverts, an unknown 
amount of roads no longer identified as system roads. Most of 
these were constructed because of old mining claims and 
approximately 2,600 acres of previously harvested stands, which 
is 19 percent of the total acreage that need continued 
management.
    This area was also analyzed for its suitability for 
wilderness designation during the forest required land 
management process in 1989. The NFMA/NEPA-approved document 
concluded that the area was not suitable or worthy of 
wilderness designation. The area analyzed was 9,354 acres and 
excluded the previously managed and system road acres which are 
included in H.R. 3513. At the very least, the areas containing 
roads, previously harvested stands and plantations should be 
removed from the wilderness proposal.
    Finally, the Forest Service has indicated that if this bill 
becomes law the agency would likely restore roads and remove 
culverts to protect water quality. It has been estimated that 
due to the numerous culverts and the permanent natures of the 
roads it would cost the agency roughly $300,000 to conduct 
these activities under current land designations. After further 
review, however, AFRC believes the work could realistically 
cost $400,000 to $500,000 with costs to operate heavy equipment 
such as an excavator continuing to rise with the price of 
diesel fuel. In all honesty the Forest Service would likely 
lack the money and resources needed to return the area to that 
resembling wilderness.
    If the agency were required to conduct these activities 
under minimum tools and non-motorized policies that accompany 
wilderness designations, the costs would soar to close to $1 
million. The Forest Service is already having a tough time 
meeting even the most basic needs. Knowing this, it is 
unrealistic to place the financial burden on the already cash 
strapped agency.
    AFRC has expressed a desire to work with Congressman 
DeFazio to find a common sense wilderness proposal that fits 
the needs of this area while ensuring that responsible 
management continue to contribute to the health of both the 
forest and the fishery.
    I thank you for the opportunity to testify today, and I am 
happy to answer any questions you might have.
    [The prepared statement of Mr. Groves follows:]

 Statement of Jacob Groves, Representing the American Forest Resource 
    Council; Associated Oregon Loggers; and Douglas Timber Operators

    Good afternoon, Mr. Chairman, members of the Subcommittee, Ladies 
and Gentlemen. Thank you for the opportunity to discuss my perspective, 
experiences, and concerns with H.R. 3513, the Copper Salmon Wilderness 
Act. My name is Jacob Groves. I have lived, worked and fished in the 
Copper Salmon area all my life and most recently have walked or driven 
nearly every acre of the wilderness proposal. I am a lifelong resident 
of the area, third generation forester having grown-up in Myrtle Point, 
Oregon, and attended Oregon State University where I earned my 
Bachelors of Science in Natural Resources (Forest Ecology) and my 
Masters of Forestry in Forest Biology. Currently, I'm the Western 
Oregon Field Forester for the American Forest Resource Council (AFRC). 
Today I am here representing AFRC, the Associated Oregon Loggers and 
the Douglas Timber Operators.
    Specifically, I'm intimately aware of the Copper Salmon because I 
grew up in the area and have fished for steelhead and salmon in the Elk 
River numerous times. Make no mistake; it is an excellent fishery that 
I have personally enjoyed and deeply value. I also agree that there are 
certain areas within the wilderness proposal that contain old stands of 
Port Orford cedar that should remain intact. That does not, however, 
mean this entire area should be designated as wilderness. To highlight 
my testimony, each of you should have a copy of AFRC's analysis of the 
Copper Salmon area complete with maps, photos taken on the ground and 
aerial photos.
    AFRC has several concerns with this bill, but the most alarming to 
me is that approximately 1,000 acres of this proposal was included in 
the Coastal Healthy Forests Environmental Assessment that the Rogue-
Siskiyou National Forest recently completed. This May 2007 management 
decision satisfied the Forest Service's requirements under the National 
Forest Management Act, National Environmental Policy Act, 
Administrative Procedures Act and many other laws. Furthermore, there 
were no appeals on this project nor was a suit filed challenging the 
agency decision. The NEPA work has already been paid for and the Forest 
Service is ready to move forward with needed treatments within these 
stands. In addition to this acreage, we believe there are an additional 
1,600 acres of second-growth stands within the wilderness proposal in 
need of the same type of treatments.
    It's important to note that most of the area included in the 
wilderness proposal is classified as ``Late Successional Reserves'' or 
``LSRs'' under the 1994 Clinton Northwest Forest Plan. These areas were 
set aside to create future late-successional forests (generally what 
most folks would think of as ``old growth'' forests) for late-
succession species, such as the Northern Spotted Owl. Forest thinning 
projects, like those contemplated for portions of this area, were 
specifically envisioned under the Plan to speed the development of 
these characteristics. Prior to the adoption of the Plan, the 2,600 
acres I'm referring to was successfully regenerated as Douglas fir 
plantations with timber management envisioned in the future. Today, as 
some of the pictures show, there are roughly 300 trees per acre--with 
this kind of stocking, it is unlikely these stands will ever become 
viable late-successional habitat and they certainly aren't providing 
great habitat in their current state. Moreover, roads already exist to 
access these areas. It is important to remember that LSRs cannot be 
managed after stands reach the 80-year old age class and that clear-
cutting, or other intensive types of active management are strictly 
prohibited in these areas.
    It must also be noted that this area was analyzed for its 
suitability for wilderness designation during the Forest's required 
land management process in 1989. The NFMA/NEPA approved document 
concluded that the area was not suitable or worthy of wilderness 
designation. The area analyzed was 9,354 acres and excluded the 
previously managed and roaded acres which are included in H.R. 3513.
    Supporters of this bill point to the world class fishery as one of 
the main reasons to protect it. While I appreciate the fact that they 
also value the area, their efforts here seem to be misguided. Many 
times forest management--whether it be thinning, road restoration, soil 
stabilization, in-stream habitat improvements, or other activity--is 
needed to ensure high-quality fish and wildlife habitat. A wilderness 
designation, however, would prohibit this type of restoration and 
severely limit the options of land managers. This area is naturally 
prone to land slides--but what this highlights is the need to thin some 
of these managed stands. When these natural land slides do occur, would 
we prefer, for example, 300 small diameter trees choking a stream or 60 
large, older trees delivering large woody debris to a stream? I can 
easily say that most, if not all fish biologists would prefer large 
woody debris to provide adequate stream structure. Clearly the intent 
of this area, as already established by the Northwest Forest Plan is to 
create late-successional habitat, helping to enhance habitat for both 
fish and wildlife. Without some active management in these areas, it 
will be difficult to meet these important goals.
    Instead of wilderness, the appropriate approach would allow for 
responsible management now and in the future to ensure the area remains 
a world-class fishery. To be clear, I am not advocating for traditional 
timber management in this area even though it's been done in the past, 
but the fact of the matter is timber harvests have been conducted on 
one-fifth of the entire proposed wilderness and it remains an excellent 
fishery. Timber management and fishery health are certainly not 
mutually exclusive.
    To me, the 1964 Wilderness Act is very clear. Wilderness is an area 
``untrammeled by man'', it is ``undeveloped''retaining its primeval 
character--without permanent improvements.'' When I reviewed the aerial 
photos of the Copper Salmon, every single photo had a road in it. Let 
me make this clear, there are zero aerial photos without roads. This 
adds up to 11.8 miles of system roads, 92 culverts, an unknown amount 
of roads no longer identified as system roads--most of these were 
constructed because of old mining claims, and approximately 2,600 acres 
of previously harvested stands (which is 19% of the total acreage) that 
need continued management. To the contrary, these areas have been 
substantially influenced by humans. At the very least, the areas 
containing roads, previously harvested stands and plantations should be 
removed from the wilderness proposal.
    Finally, the Forest Service has indicated that if this bill became 
law, the Agency would likely ``restore'' roads and remove culverts to 
protect water quality. It has been estimated that, due to numerous 
culverts and the permanent nature of the roads, it would cost the 
Agency roughly $300,000 to conduct these activities under current land 
designations. After further review, however, AFRC believes the work 
could realistically cost $400,000 to $500,000 with costs to operate 
heavy equipment, such as an excavator, continuing to rise with the 
price of diesel fuel. In all honesty, the Forest Service would likely 
lack the money and resources needed to completely decommission roads 
and return the area to that resembling ``wilderness.'' If the agency 
were required to conduct these activities under the ``minimal tools'' 
and non-motorized policies that accompany wilderness designations, the 
costs could soar to close to one million dollars. The Forest Service is 
already having a tough time meeting even the most basic needs; its 
budget has been static or declining for several years and fire 
suppression costs consume nearly half of the budget now and will 
consume more than half the budget in the near future. Knowing this, it 
is unrealistic to place this financial burden on the already cash-
strapped Agency. It is also irresponsible to designate this area as 
wilderness--precluding much-needed road or forest restoration in the 
future--with the knowledge that this could harm the fishery in the 
future.
    AFRC has expressed a desire to work with Congressman DeFazio to 
find a common-sense wilderness proposal that fits the needs of the area 
while ensuring that responsible management can continue to contribute 
to the health of both the forest and the fishery. The member companies 
of AFRC generate thousands of quality jobs across the region and often 
are among the largest private employers in rural communities. Within 
Congressman DeFazio's district alone, AFRC is proud to represent nearly 
20 forest products companies which operate approximately 25 
manufacturing facilities that employ thousands of Oregonians. These 
companies are both locally and privately owned and are part of the 
solution for our nation's forest health, energy independence, and 
domestic economic challenges.
    With the Federal government managing over 60 percent of the 
forestland in southwest Oregon, these facilities are highly dependent 
on an adequate supply of timber from Federal lands to survive. The lack 
of supply from these forests continues to contribute to economic 
dislocation in the area. Just last week, the Swanson Group, a major 
forest products employer in the western Oregon, announced layoffs that 
will result in the loss of approximately 150 family-wage jobs. It is 
clear that we must get back to responsibly managing our Federal 
forests, such as the areas I have outlined above that are in need of 
future management.
    I thank you for the opportunity to testify today. I'd be happy to 
answer any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. At this time I have no 
questions. I intend to submit to some of our witnesses some 
questions so I can get a response in writing, but that will 
happen later.
    With that, let me turn to Mr. Bishop for any questions he 
might have.
    Mr. Bishop. I would like to ask the UC at the very 
beginning. This is not meant in any way as criticism. I think 
it is the archaic rules that we have on what limits testimony 
coming in at our hearing process. But I would like to submit 
for the record a letter signed by 74 individuals in opposition 
to H.R. 3682, as well as a petition with 700 signatures and 
communications we got in opposition to H.R. 3287 to be included 
in the record under unanimous consent.
    Mr. Grijalva. Without objection.
    [NOTE: The petition submitted for the record has been 
retained in the Committee's official files.]
    Mr. Bishop. Thank you, Mr. Chairman. Mr. Harmon, if I could 
ask you just one quick question. The Department of the Interior 
has been making out that basically this bill is a sweetheart 
deal for your company, that you have had a long history inside 
Rocky Mountain working with the Park Service. They claim this 
legislation breaks agreements that were made in 1907 and 2000 
that require your company to make payments for damages.
    Why were those terms acceptable then, why not now? Why do 
you need this bill now?
    Mr. Harmon. Well, not impacted by this legislation, in 2003 
we had a problem up there and the Park Service filed a $12 
million claim against us, which got our attention after over a 
hundred years of operating without those kinds of issues.
    Mr. Bishop. OK. This is open-ended. Do you want to add 
anything more than that?
    Mr. Harmon. No.
    Mr. Bishop. You got it then. Let me go to Mr. Groves, our 
forester there. Others have testified that areas in this area, 
especially the Doug fir plantations, don't need to be thinned. 
What is your take on that? And does the thinning stance 
negatively impact you as a fishery or the landslides?
    Mr. Groves.
    Mr. Groves. Thank you, Congressman.
    These stands were planted at a density that ranges close to 
300 to 400 trees per acre. And with the intent, the assumption 
they were going to be forests for timberland production. The 
Northwest Forest Plan changed that assumption. They are now to 
be late successional reserves to provide habitat for spotted 
owls and other late successional types of species.
    Mr. Bishop. Let me interrupt you right now. If you want 
land for late successional reserves, what should be the average 
amount of trees you have per acre to make that acceptable?
    Mr. Groves. To have the kind of diameter growth and the 
kind of tree structure that you are looking for, you would want 
the trees per acre to be down between 50 to 80 trees per acre, 
not the 300 to 400 trees that these are currently stocked at, 
Congressman.
    Mr. Bishop. If you thinned these new growth areas, the 
replanted areas, does that have a negative impact on the 
fishing opportunities, landslide opportunities, or landslides 
that may occur?
    Mr. Groves. Sir, we have come a long ways with the 
technology and equipment these days. The stands that have 
already been through the NEPA process could easily be accessed 
by the boundary roads of the proposal with the skyline system 
that would have little to no negative effects on both the 
fishery and on the potential for increasing natural landslides.
    Mr. Bishop. I understand of the 2,600 acres that are here, 
some of them have already gone through the NEPA process, and I 
understand they have no appeals, no litigation. About how much 
of this land has already gone through that process already?
    Mr. Groves. Sir, I believe 1,000 acres of the 2,600 managed 
stands are through the NEPA process decision, notice signed and 
ready to be offered up.
    Mr. Bishop. So it should go forward within this proposal.
    With the county payments being such an important issue 
right now for all of us, can you give me an idea of how much 
revenue would likely--this thinning process would likely raise 
for the county.
    Mr. Groves. Sir, State, private landowners and tribal lands 
thin these type of stands, and do so at a profit.
    With the Forest Service having these thousand acres through 
NEPA, I see no reason why they could not thin these stands and 
make a profit and have, you know, millions of dollars in 
returned receipts, of which 25 percent would probably--it would 
be required to go to the counties under the current structure.
    Mr. Bishop. So in this particular area of wilderness 
designation, we have areas that need to be thinned for the 
habitat that it is supposedly providing for. It improves the 
stream quality, spawning opportunities, the pooling process 
that needs to be there, and it would also help those counties 
that are in dire need of that kind of money at the same time.
    Now, that is what I am understanding your testimony is.
    Mr. Groves. Yes, sir.
    Mr. Bishop. Have you seen any other areas where you have 11 
miles of roads, the 92 culverts, maybe 20 percent of it is 
managed planting area, that would be classified as wilderness?
    Mr. Groves. Not in the State of Oregon. I have not, no, 
sir.
    Mr. Bishop. Thank you. I am done.
    Mr. Grijalva. Thank you.
    Mr. Mark Udall.
    Mr. Mark Udall. Mr. Chairman, thank you. I know, Mr. 
Chairman, since you didn't use your time, you will yield some 
additional time to us.
    Mr. Grijalva. You have 4 minutes.
    Mr. Mark Udall. Let me start by thanking the two 
Coloradians here.
    If I could, I would like to turn to Mr. Harmon and ask you 
some questions very similar to the ones I asked the 
representatives of the Park Service earlier.
    I want to start: Does your company want to reach an 
agreement with the National Park Service regarding operation 
and maintenance of the Grand Ditch?
    Mr. Harmon. We do.
    Mr. Mark Udall. Are you currently in negotiations to see if 
you can reach an agreement, and if so, when did they begin.
    Mr. Harmon. They began last calendar year, 2006. We have 
been working on discussing it since then.
    Mr. Mark Udall. Have you made a specific proposal, and if 
so, has the Service responded to it.
    Mr. Harmon. There have been a couple of drafts that have 
gone back and forth. So there has been a dialogue and a couple 
of meetings.
    Mr. Mark Udall. Where in your best estimation do things 
stand, and would you say you are making progress? I am not 
trying to put words in your mouth.
    Mr. Harmon. We met with the superintendent and a couple of 
his staff people in July of--because we were having some 
frustration of the process. We had asked for some input on 
examples of what they wanted to see. And we got a 100-page, 
both sides, single-spaced document from the BLM on a 
reclamation project somewhere as an example.
    So we went to him and said, ``You know, there are two 
people in our office, this is not going to work,'' and got an 
outline from the superintendent of about nine items that were 
important. So I wrote a new draft based on that and got some 
complimentary feedback from them that we thought we were making 
progress, but that they had to have it reviewed by legal 
counsel and other technical people, and got a draft back about 
4 weeks ago that was pretty disappointing.
    You know, I characterize it, not being a lawyer, as trying 
to write an operating agreement that obviates the benefit of 
this legislation to us.
    So we have a draft response that will probably go out in a 
few days back to them. If you had asked me a month ago, I would 
say we are making good progress. I am not so sure right now.
    Mr. Mark Udall. The administration says they think there 
should be an agreement that is comprehensive in scope and 
enforceable. Could you agree to that.
    Mr. Harmon. Yes.
    Mr. Mark Udall. They also say the agreement must contain 
provisions that reduce the risk of another catastrophic failure 
of the ditch.
    Could you agree to something like that?
    Mr. Harmon. Yes. They have made some suggestions about 
engineer--independent engineering inspections and those sorts 
of things. And we have some of our own ideas on things, 
improvements and facilities that could be helpful, and we are 
supportive of all of those ideas.
    Mr. Mark Udall. They say there should be, quote, clear 
expectations, unquote, regarding maintenance and operational 
use that impact Park operations. Do you agree that would be a 
good idea.
    Mr. Harmon. Yes.
    Mr. Mark Udall. What are the outstanding issues, and do you 
think there is a way to resolve them?
    Mr. Harmon. There is some language in there that says you 
must do whatever necessary to make sure there is never another 
breech of the ditch, and otherwise the liability of standard 
reverts. And that sort of approach doesn't work for us.
    Mr. Mark Udall. My follow-on question will provide the 
committee with some additional insight.
    Why do you want to be relieved of the absolute liability 
standard that now applies to your operations inside of the 
Park?
    Mr. Harmon. We think there is a basic inequity.
    When we originally went on the property to produce the 
water, you know, it was a window of opportunity based on 
Colorado law that was never going to come around again, and in 
good faith and in full support of the Federal and State 
government, you know, this ditch was developed. The Park came 
later.
    We just don't think it makes sense, from an equity 
standpoint, that an act of God, which is no fault of ours, 
could cause this kind of multimillion-dollar liability to the 
company; and we think this is an opportunity to try to fix 
that.
    Mr. Mark Udall. Is the prospect of that relief in the legal 
sense, Mr. Harmon, an incentive for your company to reach an 
agreement with the National Park Service.
    Mr. Harmon. Yes, it is.
    Mr. Mark Udall. Would you have that same incentive 
otherwise?
    Mr. Harmon. No.
    Mr. Mark Udall. I assume you heard the testimony of the 
witnesses from the administration regarding the differences 
between the liability standard under the 1907 stipulation and 
the 1990 legislation. They say the 1990 legislation is less 
stringent; would you agree.
    Mr. Harmon. No. I don't think there is much difference, and 
that is the opinion of our legal counsel. And the reason is 
because in the 1990 legislation, there are three exceptions to 
the--as defenses, and one of those is an act-of-God defense. 
But if you look at the case law, I am told that the act-of-God 
is so narrowly defined that it has never, from a practical 
standpoint, been a defense for anybody in any case.
    And it also has a provision in the act-of-God defense that 
says that there has to be a determination that it was solely an 
act of God; that if there is any comparative negligence, 1 
percent of the water company, then the defense gets tossed out, 
too.
    So from a practical standpoint, it is not a compromise. It 
is about the same situation.
    Mr. Mark Udall. It sounds to me, Mr. Harmon, even though 
you are not a lawyer, you have gained a great working knowledge 
of the law.
    Mr. Harmon. I have spent a lot of time in my life in the 
last couple of years working on this.
    Mr. Mark Udall. Particularly when it comes to Colorado 
water law and the interface it has with the Federal statutes.
    If I might be indulged for another 30 seconds, I wanted to 
thank Mayor Pinkham for being here and want to acknowledge the 
great town--it is a town, I know the town fathers want to keep 
it a town--of Estes Park.
    I thought if you wanted to speak briefly to the process and 
the evolution of the town's thinking about the important 
economic benefits that you believe will be generated by the 
designation of the large bulk of the Park as wilderness.
    Mr. Pinkham. One of the big questions for the town is 
whether wilderness designation might hurt the town and its 
economy. And I have chaired a sustainability committee for the 
last couple of years, called the 2017 Team, looking out over 
the next 10 years to try to get a sense of the issues that we 
face, and wilderness designation was one of the questions that 
came up.
    It is a cross-functional team of lodging, restaurants, 
retail, as well as public citizens. And the consensus was that 
the wilderness designation could, in fact, actually help in 
terms of increasing the uniqueness and the visibility of Rocky 
Mountain National Park. We don't have the same type of image 
that, say, Yellowstone or Glacier or some of the other parks 
have. And so this could actually help us.
    Our local economy, our general fund is about 10 million 
bucks. And about 7-1/2 million of that comes from the tourist 
economy, which is very seasonal in our area.
    So the designation, we think, is very important. We have a 
very good, close working relationship with the Park and, in 
fact, started shuttle bus services this last year which helped 
to reduce the Park's need for additional parking space and has 
reduced traffic through town. So it has been a successful 
collaboration. We look forward to many continued years.
    Mr. Mark Udall. Thanks again for joining us here today.
    And I think I could extend on your behalf and my behalf an 
invitation to Congressman Bishop to visit Estes Park next 
October to see the abundant elk in the town of Estes Park. He 
will not be busy next October, because I believe his reelection 
is a given. But we would like you to visit our wonderful State 
of Colorado and see the challenge we do have with the elk in 
person and on the ground.
    Mr. Bishop. I hope you are right on every count.
    Mr. Grijalva. Thank you, Mr. Udall.
    And as the panel can tell and the people here at the 
meeting, I run a tough meeting. I was going to take a minute 
away from Mr. Mark Udall, and he ended up taking an additional 
3-1/2 extra.
    So with that, let me turn to our colleague, Mr. Tom Udall, 
a relation of Mr. Mark Udall, for 2 minutes of questions.
    Mr. Mark Udall. I knew that was coming.
    Mr. Tom Udall. Thank you to all of the panels. You have 
been excellent today. I think you have really enlightened us on 
the pieces of legislation you have testified on.
    Mr. Sandoval, and thank you specifically for your very 
eloquent and passionate statement about the Sabinoso Wilderness 
and you, in particular, having your roots in northern New 
Mexico and seeing the need for doing this, I think it is 
particularly good that you are here today to testify.
    One of the things that I would like you to just talk a 
little bit about because, you know, we see these resource 
fights in the West and we have had them for many years, and it 
seems that you and the people working with you have found a 
third way around those. And as you have talked, you have talked 
about everybody working together and ranchers and hunters and 
recreationists all coming together.
    What is it that you are doing on the ground? I know you are 
doing more in Sabinoso that is helping that to happen. Could 
you talk a little bit, because I think that all of us from 
Western districts would like to see more of that happen where 
we get people building consensus and common ground.
    Mr. Sandoval. Thank you, Congressman, and members of the 
committee.
    There is a number of initiatives we are working on. One, 
for example, is that in the spring for the first time we are 
going to do an ecotourism project with several acequias. And 
the acequias are the thousand-year-old governance systems that 
came over to the Americas with the Spaniards, and the Spaniards 
learned it from the Moors who had developed it in the arid 
regions of Northern Africa. So we have these governmental and 
governance systems for water in place in New Mexico for the 
past 400 years.
    In the spring, we do what--a tradition that has been 
happening for thousands of years, and in New Mexico for 400 
years, which is where all of the members who belong to this 
ditch system have to gather and jointly clean out and repair 
the main ditch. We call it the Acequia Madre, the mother ditch 
that delivers water to everybody's individual fields; and that 
is a requirement of everyone who belongs to an acequia.
    So what we are developing is a regional ecotourism plan 
where we are bringing in members of conservation groups, in 
this case the International Wilderness Alliance members, who 
are paying for the privilege of bringing a shovel and work 
gloves and helping us repair these acequias in the spring.
    And what they are doing is, besides doing the work and 
working side by side with these traditional systems, is that 
they actually are paying, so that there is a profit going in to 
the maintenance fund for these acequias.
    So it was a difficult sell to acequia members. They said, 
``Let me get this straight. You mean you are going to get 
people to come and work with us and they are going to spend a 
weekend working with us and they are going to pay us for the 
privilege?'' and I said, ``That is the deal.''
    So we are doing a lot of that. We hope to make that a 
regional process.
    The other thing we are doing, Mr. Congressman Udall, is 
that I am trying to convince, and we are working slowly and 
working one-by-one with a number of ranchers to make them see 
cattle not necessarily as money on the hooves, but sort of 
props for tourists from the Eastern Rim and from the east and 
west coast. So what I am trying to do is convince them to have 
fewer cattle and not depend so much on the cattle market in 
Chicago, and depend more on bringing in Japanese and east coast 
and west coast citizens to get on a horse and chase a few cows 
around the corral.
    The downside to that is I am having to teach these ranchers 
how to sing around the campfire, and they are not that good at 
it. But I am hopeful that their singing classes will take 
effect.
    But that is a gospel that is beginning to spread quite 
widely in Northern New Mexico, Congressman. And also just 
outfitting. We are getting a lot of younger Indo-Hispanos now 
who are actually doing outfitting and being able to stay in 
place, stay in their community, raise their kids there and 
preserve these lands, these agricultural lands, we hope far 
into the future.
    So there are a lot of things, exciting things going on in 
your district, Congressman.
    Mr. Tom Udall. Thank you very much. I am aware of much of 
the work you are doing there, and with my great singing voice, 
maybe I could join those cowboys for a singing session.
    Thank you very much, and thanks to the panel.
    And I yield back to the Chairman.
    Mr. Grijalva. Thank you very much, and let me thank our 
last panel and all of the people that took the time and effort 
to come here today to discuss these pieces of legislation.
    For the record, on what was just accepted to the record for 
Tumacacori, one of the petitions, Mr. Bishop, is from late 
2004, 2005, and I think there has been some progress made in 
reconciling some of the opposition.
    And the other one, the question there is from the 
organization that is boycotting the Minneapolis airport because 
of a certain incident with a certain Senator. So our piece of 
legislation has got dragged into that whole sordid affair.
    So with that, let me thank everybody, and we will stand in 
recess.
    [Whereupon, at 5:15 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
